<html>
<title> - DEALING WITH FOREIGN STUDENTS AND SCHOLARS IN AN AGE OF TERRORISM: VISA BACKLOGS AND TRACKING SYSTEMS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                     DEALING WITH FOREIGN STUDENTS
                  AND SCHOLARS IN AN AGE OF TERRORISM:
                   VISA BACKLOGS AND TRACKING SYSTEMS

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2003

                               __________

                            Serial No. 108-9

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
85-890PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
VACANCY


                            C O N T E N T S

                             March 26, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............     9
    Written Statement............................................    10

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science, U.S. House of Representatives....    11
    Written Statement............................................    12

Prepared Statement by Representative Nick Smith, Chairman, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    13

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    14

Prepared Statement by Representative Zoe Lofgren, Member, 
  Committee on Science, U.S. House of Representatives............    15

                               Witnesses:

Ms. Janice L. Jacobs, Deputy Assistant Secretary, Visa Services
    Oral Statement...............................................    16
    Written Statement............................................    19
    Biography....................................................    21

Dr. David Ward, President, American Council on Education
    Oral Statement...............................................    22
    Written Statement............................................    25
    Biography....................................................    30
    Financial Disclosure.........................................    32

Dr. Shirley M. Tilghman, President, Princeton University
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    41
    Financial Disclosure.........................................    42

Discussion.......................................................    43

             Appendix 1: Answers to Post-Hearing Questions

Ms. Janice L. Jacobs, Deputy Assistant Secretary, Visa Services..    72

Dr. David Ward, President, American Council on Education.........    77

Dr. Shirley M. Tilghman, President, Princeton University.........    79

             Appendix 2: Additional Material for the Record

Articles submitted by Ms. Lofgren
    ``Security concerns may be shackling science,'' by Glennda 
      Chui, San Jose Mercury News, March 3, 2003.................    84
    ``Visa restrictions hamper research,'' San Jose Mercury News, 
      March 10, 2003.............................................    88

In America's Interest: Welcoming International Students, Report 
  of the Strategic Task Force on International Student Access, 
  submitted by Marlene M. Johnson, Executive Director and CEO, 
  NAFSA: Association of International Educators..................    89
    Biography....................................................    91
    Financial Disclosure.........................................    92


DEALING WITH FOREIGN STUDENTS AND SCHOLARS IN AN AGE OF TERRORISM: VISA 
                     BACKLOGS AND TRACKING SYSTEMS

                              ----------                              


                       WEDNESDAY, MARCH 26, 2003

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to other business, at 10:19 
a.m., in Room 2318 of the Rayburn House Office Building, Hon. 
Sherwood L. Boehlert (Chairman of the Committee) presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     Dealing with Foreign Students

                  and Scholars in an Age of Terrorism:

                   Visa Backlogs and Tracking Systems

                       wednesday, march 26, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, March 26, 2003, the House Science Committee will hold 
a hearing on the enhanced security measures that foreign students and 
scholars in science, mathematics and engineering face when they apply 
for a visa and subsequently enroll in an academic or exchange program 
in the U.S. This hearing is the second in a series on the need for 
balance between heightened security and scientific openness in the 
post-September 11 environment, and it will explore the development and 
implementation of enhanced visa adjudication and monitoring systems and 
their impact on individuals, universities and research collaborations.

2. Witnesses

Ms. Janice L. Jacobs is the Deputy Assistant Secretary for Visa 
Services. Prior to this appointment, she served two years as Deputy 
Chief of Mission at the U.S. Embassy in Santo Domingo. Ms. Jacobs' 23-
year foreign service career included a mix of Washington, D.C. and 
overseas assignments, including the Dominican Republic, Ecuador, Egypt, 
Ethiopia, France, Mexico, Nigeria, and Thailand. Ms. Jacobs received 
her BA in French and Education from Southern Illinois University and a 
Master's in National Security Strategy from the National War College.

Dr. Shirley M. Tilghman is President of Princeton University in 
Princeton, New Jersey. Before being named president, Dr. Tilghman 
served on the Princeton faculty for 15 years. A native of Canada, she 
received her Honors B.Sc. in chemistry from Queen's University in 
Kingston, Ontario and ultimately obtained her Ph.D. in biochemistry 
from Temple University in Philadelphia.

Dr. David Ward is the President of the American Council on Education, a 
membership organization of college presidents of 1,800 institutions and 
76 other educational and exchange programs. Before taking on the 
presidency of ACE, Dr. Ward served as chancellor of the University of 
Wisconsin-Madison for eight years, where he received his doctorate in 
1963. Dr. Ward came to the United States on a student visa in 1960 and, 
in 1976, he became a citizen of the United States.

3. Overarching Questions

    The hearing will address the following overarching questions:

        <bullet> LHas the frequency of visa problems, including delays 
        and denials, for foreign students and scholars changed from 
        previous years? What progress has been made in streamlining the 
        process and reducing the current backlog to facilitate 
        legitimate travel for students and scholars?

        <bullet> LWhat steps have been taken to improve communication 
        between the government agencies that secure the homeland and 
        the institutions that rely on the contributions of foreign 
        students and scholars to advance science and technology?

        <bullet> LWhen will SEVIS, the Student and Exchange Visitor 
        Information System, be fully operational, linking government 
        and school officials and enabling them to accurately track 
        foreign students and scholars in real time? What challenges 
        must be overcome before this can happen?

4. Brief Overview

        <bullet> LForeign scientists and scholars are important to 
        maintaining the vitality and quality of the U.S. research 
        enterprise. In fact, almost 35 percent of advanced degrees are 
        conferred upon foreign scholars resident in the U.S. for all 
        areas of science and technology.

        <bullet> LThat said, the events of September 11 were a stark 
        reminder of the potential risks posed by foreign students. As a 
        result, the Congress and the Administration took action to 
        track foreign students and more carefully review the 
        applications of those wishing to study sensitive areas of 
        science and technology in the U.S.

        <bullet> LColleges and universities have voiced concerns about 
        the unintended consequences of enhanced security on our 
        campuses. Many foreign students and scholars, and especially 
        those from China, India and Russia, have experienced 
        substantial delays in obtaining visas. Others have had their 
        visas denied. This has resulted in missed program start dates, 
        derailed scientific research and the loss of potential students 
        and scholars to other destinations.

        <bullet> LColleges and universities have also express concern 
        about the implementation of SEVIS, the Student Exchange Visa 
        Information System, which makes the names, residences and 
        educational status of foreign students accessible to 
        immigration officials. According to reports, there are delays 
        in processing students, problems with system compatibility, and 
        even additional delays in visa processing, as student 
        information is not being saved in the database.

        <bullet> LOne concern is that the restrictions make it 
        undesirable to be a foreign student or scholar in the U.S., and 
        there are anecdotal indications that universities in other 
        countries, such as Germany and Australia, are stepping up 
        recruitment of students and scholars that might otherwise 
        attend American institutions. Failure to reconcile our equally 
        important, equally legitimate needs for security and science 
        could be a detriment to our education and research communities 
        as well as scientific collaboration and exchange.

5. Background

    Even before September 11, 2001, Congress had enacted laws to 
enhance the security of some activities relating to science, 
technology, and education. In response to events such as the 1993 World 
Trade Center bombing, concerns were raised about foreign students in 
the U.S. as well as the courses they studied and the research they 
conducted. Then, like now, many were concerned that our openness would 
provide terrorists easy access to our country. Others were concerned 
that we were training future terrorists in sensitive areas.
Processing and Approving Visa Applications
    For many years, U.S. laws and practice have required certain visa 
applicants, such as those from certain countries or those wishing to 
study sensitive technologies, to go through additional security 
clearances. To assist consular officers in determining who should be 
subject to this enhanced review, the State Department maintains a 
Technology Alert List (TAL), which establishes a list of major fields 
of technology transfer concern, ranging from chemical and biotechnology 
engineering to lasers, as well as a list of designated state sponsors 
of terrorism.\1\ In light of the terrorist attacks, the State 
Department increased the number of subjects included on the TAL 
significantly and added such sub-areas as community development, 
geography and urban planning. As a result, consular officers are 
requesting security clearances for more foreign scientists and students 
whose research or education falls into these sensitive technology 
categories. This review, known as Visas MANTIS, requires the 
application to be forwarded to Washington for review and a security 
advisory opinion to be provided before the consular officer can approve 
or deny the visa application.
---------------------------------------------------------------------------
    \1\ The seven countries that the U.S. has designated as state 
sponsors of terrorism are Cuba, Iran, Iraq, Libya, North Korea, Sudan, 
and Syria.
---------------------------------------------------------------------------
    The Administration is in the process of further strengthening the 
system used to review visa applications, especially as they relate to 
sensitive technology areas. One month after the terrorist attacks on 
New York and Washington, the President directed, through Homeland 
Security Presidential Directive 2 (HSPD-2), that the ``[t]he Government 
shall implement measures to. . .prohibit certain international students 
from receiving education and training in sensitive areas.'' To fulfill 
the requirements of HSPD-2, the Office of Homeland Security and the 
White House Office of Science and Technology Policy established an 
interagency working group, and, on May 2002, the White House unveiled 
its proposal to create a panel that would screen foreign graduate 
students, post-doctoral fellows, and scientists who apply for visas to 
study ``sensitive topics. . .uniquely available'' on U.S. campuses. The 
screening would be conducted by an Interagency Panel on Advanced 
Science Security (IPASS), composed of representatives from the major 
U.S. science agencies as well as the State, Justice, and Commerce 
department. IPASS would be responsible for evaluating a number of 
variables on the visa application, including the applicant's 
background, education and training, country of origin, area of study, 
training or research, and nature of the work conducted at the college 
or university as well as the uniqueness of the knowledge, its 
availability, and the terrorist groups or organizations that wanted to 
gain access to it.
    Although some originally suggested that IPASS could help reduce the 
backlog of visas, it now appears that the system will overlay and even 
incorporate some of the existing review systems--not replace them. Most 
colleges and universities are anxiously awaiting guidance on IPASS, and 
they are concerned that, if it is implemented incorrectly, the new 
system could further disrupt the basic workings of their research 
universities. Mostly, they are concerned that the criteria for the 
IPASS review could be expanded to include entire areas of study, rather 
than very specific research and development activities. They are also 
concerned that the system could apply new restrictions to students 
after they have begun to study at their institution, for which they 
were properly granted a visa. The final policy on IPASS, which will be 
implemented by the Department on Homeland Security, is pending further 
study.
    Finally, the State Department announced in November 2001 that all 
men between the ages of 16 and 45 from certain Arab and Muslim 
countries would be subject to a waiting period on non-immigrant visa 
applications to conduct additional security screenings, particularly 
for those in high tech, engineering and science. In practice, this 
review, known by the name of CONDOR, has been applied to others, male 
and female, from almost any country.
    Prior to 2001, consular officers had broad discretion to clear 
students and researchers--or to trigger a more thorough check through 
MANTIS. Even those who were studying sensitive areas of science and 
technology could be processed in as few as 10 business days--so long as 
the consular officer did not receive a negative response from 
Washington, D.C. In fact, consular officers were encouraged to 
facilitate travel and, at some posts, they even faced pressures to 
issue more visas.
    Since the most recent terrorist attacks, however, strengthening the 
visa process as an anti-terrorism tool has taken on greater 
significance--especially since all 19 of the hijackers entered the U.S. 
on visas. The State Department has acknowledged the resulting delays 
and the backlog, and high-level Administration officials have described 
the current backlog situation as a ``crisis.'' In late 2002, the State 
Department announced that they would return to a more normal visa 
processing time as a result of improved interagency and automated 
procedures. As part of that effort, they released 10,000 visas in the 
CONDOR backlog. The next month, 105 of those visas were recalled for 
security reasons. After further review, 70 of the recalled visas were 
cleared for release. Although the problems with the CONDOR review are 
being resolved, visa delays in MANTIS persist, despite efforts by the 
State Department to speed up visa processing.
    Currently, there are a number of factors that contribute to the 
MANTIS backlog. Many are concerned that the TAL is too vague and that 
consular officers with little or no background in science are 
misapplying the broad categories. Others believe that the consular 
officers are using their discretion to err on the side of caution, 
broadly and subjectively interpreting State Department policies and 
guidance. Still others have attributed delays in processing visas--and 
their denial--to a provision in the 1994 Foreign Authorization Act, 
which established liability for consular officers who approve visas for 
applicants who then commit an act of terrorism. Anecdotally, the 
Committee has been informed that applicants can expect to wait three to 
nine months for their visa. There also have been reports of an increase 
in the number of students being denied visas entirely, often based on 
lack of evidence of a planned return to the home country. Finally, 
there have been reports that hundreds of foreign scientists, some 
eminent in their fields, have been blocked from entering the U.S., 
slowing research on diseases such as AIDS and West Nile virus and in 
areas such as space science and genetic mapping. More troubling, visa 
delays and denials have even plagued multi-million dollar research 
projects funded by the Federal Government and its agencies--the 
National Institutes of Health, the National Science Foundation and 
others. Many are concerned that this problem, which has produced an 
estimated backlog of 25,000 visa applications (most of which relate to 
science and engineering), persists and may be getting worse.
Monitoring Foreign Students
    To improve the tracking of foreign students and scholars, Congress 
created the Student and Exchange Visitor Information System (SEVIS). 
This system was designed to link colleges and universities with foreign 
students and scholars with the State Department and the Immigration and 
Naturalization Service (INS) and allow them to share information, such 
as changes in the foreign student's address or educational status, in 
real time. Although SEVIS was created in 1996, the program was not 
fully implemented due to lack of funding and objections from the higher 
education community about the financial costs that colleges and 
universities would incur. The terrorist attacks in 2001 gave the 
program new urgency. Two laws, the USA Patriot Act and the Enhanced 
Border Security and Visa Entry Reform Act of 2002, fully funded the 
program and moved the compliance deadline from 2005 to 2003.
    INS launched SEVIS as a voluntary program on July 1, 2002, with 
mandatory participation for all colleges and universities targeted for 
January 30, 2003. As the deadline approached, colleges, universities 
and associations expressed ``enormous'' compliance concerns. Among 
other things, they said that they had little information on how to 
implement the system--and little time to prepare. Even the Department 
of Justice Inspector General doubted that INS would be able to 
implement the system by the proposed deadline and cautioned Congress 
about the need for additional training for staff, school officials and 
INS inspectors and investigators.
    On January 29, 2003, one day before the proposed deadline, INS 
granted a two-week grace period for mandatory compliance by schools, 
saying that the delay was to accommodate the schools that were 
experiencing technical problems. On February 15, SEVIS participation 
finally became mandatory.
    Today, all schools and exchange programs are required to use the 
program as a condition of accepting foreign students and exchange 
visitors. INS-approved schools (those certified by the INS to accept 
foreign students and scholars) and exchange programs must use SEVIS to 
enter directory information on all foreign students (F-1) and visitors 
(M-1) at the time they accept the student/visitor's application to 
their program. When the student or exchange visitor arrives at a U.S. 
port-of-entry, the school or program is notified through SEVIS that the 
student/visitor is in the country and should be reporting for class. 
After the student enrolls, any changes in status (address, course of 
study, employment) is collected and maintained in SEVIS until the 
student either completes his or her current program or training and 
departs the U.S. or changes immigration status. Failure to enroll or 
falling out of status results notification to the appropriate federal 
agencies for investigation and enforcement.
    Currently, schools are only required use SEVIS to record data on 
new students/visitors and changes in status for current students and 
visitors but, on August 1, 2003, information on all students and 
visitors will need to be maintained--and updated--in SEVIS.
    As a result, colleges and universities are pushing hard for an 
operational system, but many have a number of specific complaints. 
Among other things, they continue to express concern about the 
technological flaws, which cause data to be lost or inaccurate and 
confidential SEVIS forms to be printed at colleges and universities in 
other states. They also are concerned about the lack of real time 
access to the data, saying students often have to wait weeks to apply 
for their visa because their name is not showing up in the database at 
the consular officer. Today, colleges and universities estimate that it 
can take as long as 1.5 hours to enter one student. Finally, they are 
concerned about the lack of training provided for campus officials and 
INS staff. This situation is likely to be compounded by the large 
numbers of foreign students and scholars who will apply to participate 
in summer exchange and education programs. Between now and August 1, an 
additional one million individuals will need to be registered in SEVIS, 
aggravating the technological and other problems that already exist.
Administration and the New Department of Homeland Security
    Prior to the creation of the Department of Homeland Security, the 
State Department was responsible for issuing visas to foreign students 
who wanted to study in the United States. INS was responsible for 
determining which schools were entitled to accept foreign students, 
inspecting the documentation of persons arriving with student visas, 
keeping track of entries and exits of foreign students, monitoring the 
status of foreign students, facilitating the removal of foreign 
students when their status ends, and approving requests by aliens who 
were in the country through some other classification to acquire 
student status. Responsibility for each of these obligations was 
divided among several different offices, divisions and branches of the 
INS and among private contractors.
    In the past, INS was criticized for not handling these 
responsibilities adequately and, on March 1, INS was dissolved and its 
duties were transferred to the new Department of Homeland Security 
(DHS). Under the new structure, SEVIS will be administered by the 
Bureau of Immigration and Customs Enforcement--the Department's law 
enforcement arm--instead of the Bureau of Citizenship and Immigration 
Services--the Department's service arm. Although the same people who 
were implementing SEVIS prior to the transfer are expected to be 
administering the program under the new structure, some colleges and 
universities have expressed concerns about having to deal with two 
separate bureaus for their foreign students and scholars.

6. Current Issues

Impact on Science Education and Research in the U.S.
    In science and technology, foreign students make up about a third 
of all graduate students and contribute to the U.S. scientific effort 
in this capacity. In 1998, foreign students made up 30 percent of 
graduate students studying science and engineering in the U.S. and 33 
percent of U.S. science and engineering doctoral recipients (52 percent 
in engineering (most foreign doctoral recipients settle in the U.S., 
although the percentage of those who return to their home country has 
been increasing), 49 percent in mathematics and computer sciences and 
40 percent in physical sciences). Among college and university 
representatives, there is concern that if the foreign student 
population is reduced--or these students decide to return to their home 
country--personnel shortages could grow and U.S. capabilities could 
decline--especially since U.S. citizens are not currently attracted to 
these fields in sufficient numbers to replace these students.
    According to the Institute of International Education, 582,996 
international students attended colleges and universities in the United 
States in 2002. Yet, colleges and universities are concerned that new 
review requirements--and visa delays--could hamper their ability to 
compete for top students and scholars. Many report that registered 
students who have left the country have had difficulty returning--
especially for students and scholars from China and India. According to 
these sources, if the length of their delay is significant it will have 
a negative impact on their ability to carry out their coursework, 
thesis research, qualifying exams and thesis defense. One concern is 
that the restrictions make it undesirable to be an international 
student in the U.S., and there are anecdotal indications that 
universities in other countries, such as Germany and Australia, are 
stepping up recruitment of students that might otherwise attend 
American institutions.
    Finally, if visa delays become routine, foreign students and 
scholars in the U.S. may be unable to attend international conferences, 
interview for positions in their home countries and participate in 
international collaborations. There is anecdotal information about 
conferences relocating outside the United States to avoid immigration 
issues, making it harder for U.S. students and researchers to attend 
and reducing the flow of scientific information. In addition, many 
major user facilities are fundamentally international in nature, and 
limiting the ability of foreign researchers to use American facilities 
like Fermilab could have a negative impact on the ability of U.S. teams 
to participate in major international facilities overseas, such as the 
Large Hadron Collider and the International Thermonuclear Experimental 
Reactor.

7. Questions for Witnesses

Questions for Ms. Jacobs

        <bullet> LHas the frequency of visa problems, including delays 
        and denials, for foreign students and scholars changed from 
        previous years? What laws, policies or practices, if any, have 
        contributed to this change?

        <bullet> LWhat type of data do you collect on the number and 
        the resolution of visa applications? Can you disaggregate that 
        data by region, visa category and clearance?

        <bullet> LWhat progress has been made in streamlining the 
        process and reducing the current backlog to facilitate 
        legitimate travel for students and scholars? What guidance is 
        available to help consular officers balance our collective 
        interest in facilitating legitimate travel and protecting our 
        country against potential terrorists?

        <bullet> LWhat steps have been taken to improve communication 
        between the government agencies that secure the homeland and 
        the institutions that rely on the contributions of foreign 
        students and scholars to advance science and technology?
Questions for Dr. Tilghman

        <bullet> LHow have visa delays or denials affected the ability 
        of your university to recruit and retain top students and 
        scholars for education and research programs? How has that 
        changed from prior years? What are the consequences--in both 
        the short- and long-term--of visa delays and denials to your 
        university (i.e., financial losses, empty classrooms, research 
        delayed, or stalled, etc.)?

        <bullet> LDo you keep data on the number of foreign students 
        and scholars enrolled in education or exchange programs at your 
        university? Has the number of applications from foreign 
        students changed from prior years? Are the numbers on the 
        foreign students who have been accepted to your program but 
        choose to go elsewhere beginning to change?

        <bullet> LWhat steps must be taken to fully implement the 
        Student and Exchange Visitor Information System (SEVIS)? What 
        problems has your university experienced with the system? Have 
        the Immigration and Naturalization Service and the Department 
        of Homeland Security been responsive to your concerns?

        <bullet> LWhat concerns, if any, do you have regarding the 
        creation of a new panel to screen students and scholars who 
        wish to study sensitive topics?
Questions for Dr. Ward

        <bullet> LHow have visa delays or denials affected the ability 
        of your member organizations to recruit top students and 
        scholars for education and research programs in the U.S.? How 
        has that changed from prior years? What are the consequences--
        in both the short- and long-term--of visa delays and denials to 
        your member organizations (i.e., financial losses, empty 
        classrooms, research delayed, or stalled, etc.)?

        <bullet> LWhat steps must be taken to fully implement the 
        Student and Exchange Visitor Information System (SEVIS)? What 
        problems have your members been experiencing? Have the 
        Immigration and Naturalization Service and the Department of 
        Homeland Security been responsive to your concerns?

        <bullet> LWhat concerns, if any, do you have regarding the 
        creation of a new panel to screen students and scholars who 
        wish to study sensitive topics?

        <bullet> LHave your member organizations noticed any trends 
        regarding the participation of foreign students and scholars in 
        U.S. programs?
    Chairman Boehlert. It is a pleasure to welcome everyone 
here this morning to the second in what we expect will be a 
long series of hearings on how the War on Terrorism is 
affecting our nation's research enterprise.
    Last October, we held a hearing on so-called sensitive but 
unclassified information, I still don't understand what that 
means, which looked at ways to balance the need for--of secrecy 
to protect our security with the need for openness to enable 
scientific inquiry. We continue to follow that issue very 
closely.
    Today, we turn our attention to a more tangible set of 
issues: the backlog of visas for foreign students and scholars 
and the problems that plague the SEVIS tracking system. 
Problems with visas and SEVIS are at a critical point. One 
administration official has described the visa situation to be 
as a crisis. The origins of the crisis are easy to understand. 
The attacks of September 11 made clear the potential threat 
posed by the abuse of student visas and our shocking inability 
to counter that threat. As a Member, for several years, of the 
House Intelligence Committee, I take that threat very 
seriously.
    The Administration and the Congress deserve credit for 
putting in place new and stricter protocols and for erring on 
the side of caution. With that said, the current situation is 
untenable. The visa problem is sometimes discussed as simply a 
problem for our universities that needs to be balanced against 
the need for security. But that is a distorted view. The reason 
for concern is that unnecessarily impeding the flow of students 
and scholars in and of itself can erode our national security.
    Foreign students fill our graduate programs. Foreign 
scholars fill our faculty and laboratory positions. These 
people are a vital source of new ideas and perspectives, and 
the flow of students and scholars creates good will on which 
the U.S. depends and on--which would be difficult to generate 
as effectively any other way.
    You know, talking about the threat to homeland security, 
some people say we need a Manhattan Project to come up with new 
tools in the War Against Terrorism. Let me point out that the 
Manhattan Project was not named for the birthplace of its 
leading participants. The U.S. has always been dependent on 
help from students and scholars who are not born and bred here. 
And that remains true today, even though our scientific 
enterprise is far more robust than it was in the 1940's.
    So when we have a visa problem that impedes and even 
discourages the flow of foreign students, that is bad for our 
security. When we have a visa system that casts so wide a net 
that we can't focus on real threats, that is bad for our 
security. When we have a tracking system that creates undue 
burdens on the flow of students, that is a threat to our 
security. When we have a tracking system that can't be relied 
upon to provide accurate information systematically, that is a 
threat to our society.
    Now I know that the Administration is working hard to solve 
these problems, especially through the still new Department of 
Homeland Security. Our effort today is to get a clear sense of 
the extent of the problems with visas and SEVIS and how we can 
all work together to solve those problems. I know other 
Congressional Committees will be looking into these issues as 
well, as they should.
    One problem we now--we have now is that there isn't even 
good data on the extent of the visa problem. Congressman Hall 
and I will be sending a letter to the General Accounting Office 
today, asking them to gather reliable data.
    So as I said at the outset, this is just the first of many 
hearings on a very important subject. We all need to work 
together to assure that foreign students and scholars do not 
threaten our security, either by their presence or their 
absence.
    [The prepared statement of Mr. Boehlert follows:]
            Prepared Statement of Chairman Sherwood Boehlert
    It's a pleasure to welcome everyone here this morning to the second 
in what we expect will be a long series of hearings on how the war on 
terrorism is affecting our nation's research enterprise.
    Last October, we held a hearing on so-called sensitive but 
unclassified information, which looked at ways to balance the need for 
secrecy to protect our security with the need for openness too enable 
scientific inquiry. We continue to follow that issue closely.
    Today we turn our attention to a more tangible set of issues--the 
backlog of visas for foreign students and scholars, and the problems 
that plague the SEVIS tracking system. The problems with visas and 
SEVIS are at a critical point; one Administration official has 
described the visa situation to me as a ``crisis.''
    The origins of the crisis are easy to understand. The attacks of 
September 11th made clear the potential threat posed by the abuse of 
student visas and our shocking inability to counter that threat. As a 
member of the Intelligence Committee, I take that threat seriously. The 
Administration and the Congress deserve credit for putting in place new 
and stricter protocols and for erring on the side of caution.
    But that said, the current situation is untenable.
    The visa problem is sometimes discussed as simply a problem for our 
universities that needs to be balanced against the need for security. 
But that's a distorted view. The reason for concern is that 
unnecessarily impeding the flow of students and scholars in and of 
itself can erode our national security.
    Foreign students fill our graduate programs; foreign scholars fill 
our faculty and laboratory positions. These people are a vital source 
of new ideas and perspectives, and the flow of students and scholars 
creates goodwill on which the U.S. depends and which would be difficult 
to generate as effectively in any other way.
    You know, talking about the threat to homeland security, some 
people say we need a Manhattan Project to come up with new tools in the 
war against terrorism. Let me point out that the Manhattan Project was 
not named for the birthplace of its leading participants. The U.S. has 
always been dependent on help from students and scholars who were not 
born and bred here. And that remains true today even though our 
scientific enterprise is far more robust than it was in the 1940s.
    So when we have a visa system that impedes and even discourages the 
flow of foreign students that's bad for our security. When we have a 
visa system that casts so wide a net that we can't focus on real 
threats, that's bad for our security. When we have a tracking system 
that creates undue burdens on the flow of students, that's a threat to 
our security. When we have a tracking system that can't be relied upon 
to provide accurate information system, that's a threat to our 
security.
    Now I know that the Administration is working hard to solve these 
problems especially through the still new Department of Homeland 
Security. Our effort today is to get a clearer sense of the extent of 
the problems with visas and SEVIS and how we can all work together to 
solve them. I know other Congressional committees will be looking into 
these issues as well.
    One problem we have now is that there isn't even good data on the 
extent of the visa problem. Congressman Hall and I will be sending a 
letter to the General Accounting Office (GAO) today, asking them to 
gather reliable data.
    So, as I said at the outset, this is just the first of many 
hearings on this important subject. We all need to work together to 
ensure that foreign students and scholars do not threaten our 
security--either by their presence or their absence. Thank you.

    Chairman Boehlert. Thank you very much. Mr. Hall.
    Mr. Hall. Mr. Chairman, you said it very well, and I may 
add to it a little bit, because I am concerned about the 
percentages. I am concerned from both directions. I am 
concerned about the American parent that provides tutelage and 
guidance and encouragement to a youngster to enter the field of 
science and the ability to get into the school, the ability to 
reach the graduate areas. I am concerned about those who have 
students who are near that capacity, but fall short and lose 
their seat in a college program to someone from another 
country.
    I want to be blunt about this, and I want to be plain about 
it. I am pleased to join you in welcoming our witnesses here 
today. And I want to thank the Chairman for providing the 
opportunity for the Committee to explore an important issue 
that is at the intersection of strengthening homeland security 
and ensuring the well being of the Nation's science and 
technology enterprise.
    Throughout much of our history, Mr. Chairman, a lot of 
Americans feel that the U.S. has benefited greatly from the 
infusion of scientific and engineering talent from abroad. 
While I don't doubt that, today U.S. universities still fill 
more--half or more of their graduate positions in many fields 
of science, mathematics, and engineering with foreign students. 
Many leaders in the academic world feel that without these 
students, research programs couldn't go forward. And we are 
told that about half of the graduates from these programs 
remain here, and without them, science and technology 
capabilities in the Nation would also suffer.
    I would hope that we hear testimony today on how to lessen 
that percentage by attracting our own to these fields. I--while 
many feel that the Nation clearly benefits from this position, 
we know of the presence of international students. And no one 
would deny that it is imprudent for us not to be vigilant in 
guarding our borders against those who would do us harm. I 
don't categorize those that are in the schools here as among 
that, but it is a possibility of it.
    There is evidence that some terrorists have exploited the 
student visa program, including at least one of the 9/11 
terrorists. Therefore, effective screening of visa applications 
is reasonable and necessary. The issue we are confronting here 
today is not whether we need thorough and effective procedures 
for reviewing visa applications; rather it is to find an 
appropriate balance between two important National goals. We 
benefit from attracting talented international students to the 
universities, and we benefit by nurturing scientific 
collaborations and information's exchanged with foreign 
researchers. At the same time, we have to defend ourselves 
against terrorists and use the influx of foreign students only 
to compensate for a dearth of American students, who qualify 
scholastically to keep the country in a position of scientific 
leadership.
    I realize that this is a large order, Mr. Chairman, and to 
produce this type of leadership by enticing 18 and 19-year-old 
American students, we have to prepare them better during the K 
through 12 years. This might lessen the 50 percent foreign 
participation we now experience in fields like engineering and 
others. This percentage of reliance on foreign students bothers 
me almost as much as this country with unbelievable energy 
potential production in offshore, shut-in areas, not just 
fossil fuels, but giant coal potential in the midsection of 
this country. There is no reason for us to rely on OPEC 
members, one of whom has us engaged as we meet here today.
    We need to find ways to ensure that broader security is 
applied effectively while ensuring the U.S. remains an inviting 
place for bright, foreign students to study and for scientific 
exchanges to occur with leading researchers from all parts of 
the world.
    I hope our witnesses today will help us understand how the 
current visa application and approval system is functioning or 
malfunctioning. The questions are, where are the sticking 
points and how can it be made to work better? I invite your 
recommendations for specific government actions that could 
address problems that exist within the system. And I thank the 
Chairman for calling this hearing.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    I am pleased to join the Chairman in welcoming our witnesses to 
today's hearing. I want to thank the Chairman for providing this 
opportunity for the Committee to explore an important issue that is at 
the intersection of strengthening homeland security and ensuring the 
well being of the Nation's science and technology enterprise.
    Many feel that the United States has benefited greatly from the 
infusion of scientific and engineering talent from abroad. Today, U.S. 
universities fill half or more of their graduate student positions in 
many fields of science, mathematics and engineering with foreign 
students. Many leaders in the academic world feel that without these 
students research programs could not go forward. We are told that about 
half of the graduates from these programs remain here, and without 
them, the science and technology capabilities of the Nation would also 
suffer. I would hope that we also hear testimony today on how to lessen 
that high percentage of foreign students by attracting more U.S. 
citizens to careers in science, mathematics and engineering fields.
    While many feel that the Nation benefits from the presence of 
international students, no one would deny that it would be imprudent 
for us not to be vigilant in guarding our boarders against those who 
would do us harm. There is evidence that some terrorists have exploited 
the student visa program, including at least one of the 9/11 
terrorists. Therefore, effective screening of visa applications is 
reasonable and necessary.
    The issue we are confronting here today is not whether we need 
thorough and effective procedures for reviewing visa applications. 
Rather it is to find an appropriate balance between two important 
national goals. We benefit from attracting talented international 
students to our universities, and we benefit by nurturing scientific 
collaborations and information exchange with foreign researchers.
    At the same time, we must defend ourselves against terrorists and 
use the influx of foreign students only to compensate for a dearth of 
American students who qualify scholastically to keep the country in a 
position of scientific leadership. I realize that this is a large 
order. To entice young Americans to pursue science and engineering 
careers, we must do a better job of preparing them in the K-12 years. 
In this way, we may be able to reduce the need to attract such a high 
percentage of foreign students in fields such as engineering.
    We need to find ways to ensure that boarder security is applied 
effectively while ensuring the U.S. remains an inviting place for 
bright foreign students to study and for scientific exchanges to occur 
with leading researchers from all parts of the world. I hope our 
witnesses today will help us understand how the current visa 
application and approval system is functioning, or malfunctioning. The 
questions are: where are the sticking points, and how can it be made to 
work better? I invite your recommendations for specific government 
actions that could address problems that exist with the system.
    I want to thank the Chairman for calling a hearing on this 
important matter. I appreciate the attendance of our witnesses today, 
and I look forward to our discussion.

    Chairman Boehlert. Thank you very much. And our sole panel 
today consists of very--three very well qualified, 
distinguished witnesses to share their points of view with us: 
Ms. Janice Jacobs, Deputy Assistant Secretary, Visa Services, 
Department of State; Dr. David Ward, President, American 
Council on Education; and Dr. Shirley Tilghman, President, 
Princeton University. Thank you all for serving as resources to 
the Committee. We are here to be educated. We are here to have 
a dialogue and see if we can't, working together, make some 
sense out of this rather confused situation. And we would like 
to deal with facts, too, and not emotional arguments.
    I would ask that each of you appreciate that your 
statements will appear in the record at this juncture in their 
entirety. I would ask that you try to summarize, in five 
minutes or so, your main points, which will leave us ample 
opportunity for a good exchange of questions and answers. Ms. 
Jacobs, you are up first.
    [The prepared statement of Mr. Smith follows:]
            Prepared Statement of Representative Nick Smith
    I want to thank Chairman Boehlert for holding this hearing today to 
review the implementation of new security systems for processing and 
tracking foreign students, and the impact of these systems on our 
university system and research enterprise. This is our second hearing 
examining how to best achieve an appropriate balance between the need 
to secure the homeland and our desire for scientific openness and 
exchange.
    As we all know, the world changed forever on September 11, 2001. 
With the stark realization that our homeland is not immune from 
horrific acts of terrorism, our priorities changed instantly. In the 
days and weeks that followed 9/11, we learned that the 19 terrorist 
hijackers received a total of 23 visas at five different posts, some of 
them student visas. Even more telling, six months after the terrorist 
attacks, approval notices for student visas were issued for two of the 
hijackers--Mohammed Atta and Marwan Al-Shehhi. It was strikingly clear 
that our system--with over 4,000 universities, colleges, and trade 
schools educating almost 600,000 foreign students--would need to 
undergo changes to ensure that all foreign students are better 
scrutinized, and that those who may wish to do us harm not be allowed 
to enter the country. It was also clear that there be better tracking 
of foreign students once they have entered the country.
    To its credit, the Federal Government acted immediately to respond 
to this problem. The government has strengthened the system to review 
visa applications. Also, two new laws, the USA Patriot Act and the 
Enhanced Border Security and Visa Entry Reform Act of 2002, provided 
funding for the Student Exchange and Visitor Information System 
(SEVIS), and moved the compliance deadline for this system from 2005 to 
2003. SEVIS requires colleges and universities to inventory and update 
detailed information such as names, residences, and educational status 
of all foreign students, and to make this information available to 
immigration officials. I believe these efforts, while imposing 
additional burdens on college and university administrations, are an 
appropriate and needed response to our security concerns related to 
higher education.
    Unfortunately though, these systems are still very much in the 
development stage, and are not without their share of problems. For 
example, while SEVIS has now been in operation for eight months, it has 
been hampered by numerous technical problems--such as lost information 
and other data processing errors that have had a significant impact on 
students and university research endeavors alike. These problems have 
raised real concerns that foreign students, which comprise 35 percent 
of all U.S. science and engineering graduate students, are now 
increasingly considering receiving their educations in other nations 
such as Canada and Australia where security restrictions are far less. 
Further, our foreign competitors have recognized this opportunity and 
are increasing recruitment of students that may have otherwise attended 
U.S. institutions. It is clear that if this trend continues to grow, 
the quality of university research will suffer, at least over the 
short-term.
    While we should be careful not to downplay these problems, I am 
confident that they will be resolved in a reasonable amount of time. 
This will require adequate support and guidance from Congress, the 
State Department, university organizations, and the Department of 
Homeland Security. In the meantime, I believe it should motivate us to 
place a much higher priority on increasing the number and quality of 
U.S. math and science students. Security should remain the top priority 
for the government, and we should continue to err on the side of 
caution in dealing with foreign students that pose potential risks. It 
is indeed a difficult balancing act, but with patience and persistence, 
there is no reason why we cannot have a system that ensures security in 
its handling of foreign students without sacrificing scientific 
exchange.
    I hope that today's discussion enlightens the Committee as to the 
extent and seriousness of the problems associated with the handling of 
foreign students, and I am looking forward to a productive discussion.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank Mr. Chairman, and thank you for calling this hearing today. I 
would also like to thank our invited guest for appearing.
    We have gathered here today to discuss the impact of security 
measures to control entry of foreign students and scholars into the 
United States. We all agree that foreign scientists and scholars are 
important to maintaining the vitality and quality of the U.S. research 
enterprise. In fact, almost 35 percent of advanced degrees are 
conferred upon foreign scholars resident in the U.S. for all areas of 
science and technology.
    However, because of the events of September 11, Congress and the 
Administration took action to track foreign students and more carefully 
review the applications of those wishing to study sensitive areas of 
science and technology in the U.S.
    But scientists and educators complain that consular officers are 
using vague, arbitrary standards to decide which visa applications to 
refer for security reviews, trapping legitimate foreign researchers in 
a frustrating backlog.
    These delays bother educators and scientists, who say the free 
exchange of ideas is essential to scientific discovery. They point out 
that foreign-born scientists have been responsible for many major 
advances in medicine and technology, including the kidney dialysis 
machine, the Pap smear, plastic and the atomic bomb.
    The National Academies (the National Academy of Science, the 
National Academy of Engineering and the Institute of Medicine) 
complained back in December that recent efforts by the government to 
constrain the flow of international visitors in the name of national 
security are having serious unintended consequences for American 
science, engineering and medicine.
    It is a sad day when even the research to combat chemical 
biological terrorism has been stalled by the visa delays.
    In fact, in my home state of Texas, the 44,192 foreign students at 
colleges and universities fuel Texas' economy with money is spent on 
tuition and living expenses in excess of $700 million dollar during the 
2001-02 school year alone. Therefore, foreign students are an essential 
part of our economic structure.
    Let me make this clear, educators and scientist support tighter 
screening of visitors after 9/11. However, something must be done to 
stream line the visa. Here a few suggestions to do just that:

Recommendations to Streamline Visa Processing

        <bullet> LGiven the reality of limited resources, the U.S. 
        government must closely focus its efforts and establish a 
        viable means to identify the pool of visa applicants that 
        requires special screening, so that it can process non-problem 
        applications quickly and efficiently and dedicate scarce 
        resources to addressing real security needs.

        <bullet> LA system for students and scholars already in the 
        United States who are departing for short trips outside the 
        country (conferences or vacations) should be established, 
        similar to pre-screening mechanisms that already exist for 
        other visa categories, that allows them to begin processing of 
        their re-entry documents prior to leaving the United States.

        <bullet> LRealistic time estimates for visa screening should be 
        clearly articulated, so that international educators can advise 
        their students and scholars. The current incomprehensibility 
        and seeming randomness of the visa screening process is harmful 
        to U.S. diplomatic and foreign policy interests and must not 
        become the norm.

        <bullet> LCongress has charged a number of federal agencies 
        with the task of screening potential visitors to the United 
        States. It must provide them with adequate resources to fulfill 
        that mandate. Currently, limitations in system capabilities and 
        personnel have resulted in indefinitely suspended decisions on 
        large numbers of visa applications. This situation is 
        inconsistent with U.S. foreign policy objectives and must be 
        remedied.

    Now I have a few questions for our guest.

    [The prepared statement of Ms. Lofgren follows:]
            Prepared Statement of Representative Zoe Lofgren
    Mr. Chairman, thank you for holding this very important hearing on 
the effects of enhanced security screening on foreign students and 
scholars. As a Member of Congress from Silicon Valley, I always worry 
when I hear that federal action threatens the academic and research 
community.
    As you know, my district lies in the heart of Silicon Valley, a 
community on the cutting edge of technology and scientific discovery. 
We not only depend directly upon exemplary researchers from around the 
world, but we also indirectly depend upon universities to train top-
notch students to become our future Einstein's. So when I hear 
troubling stories of foreign researchers and students experiencing 
unnecessary delays in obtaining visas or being denied visas for 
arbitrary reasons, I worry.
    Just recently, I read two articles by the San Jose Mercury News, 
one entitled ``Security Concerns May Be Shackling Science'' and another 
``Visa Restrictions Hamper Research.'' In a time when Silicon Valley is 
suffering a very serious economic slowdown, a visa program that hampers 
research and technology in Silicon Valley is the last thing we need.
    One article described the denial of a visa to a Chinese AIDS 
researcher attempting to return to his California biotech company after 
a trip overseas. Ironically, this came at a time when the President 
promised a $15 billion initiative to fight the global HIV/AIDS 
epidemic.
    The article went further to describe a very troubling visa delay. 
Despite serious concerns over unsecured Russian nuclear weapons falling 
into the hands of terrorists, Russian physicists reportedly missed a 
training program in California that would have taught them how to 
safeguard dangerous nuclear weapons--all because their visas were not 
approved on time.
    Even worse is the story of Iranian earthquake expert so worried 
about visa restrictions in the United States that he chose to go to 
Canada instead of UC-Berkeley. As you well know, UC-Berkeley is located 
in the San Francisco Bay Area where deadly earthquakes are always a 
threat.
    The tragedy of September 11, 2001 makes us understandably wary of 
foreigners who attempt to enter this country to commit and promote 
terrorism. This is why it is extremely important that we all reiterate 
our strong support for enhanced and effective security screening for 
all visa applicants.
    As a recent San Jose Mercury News editorial states, ``the answer is 
not to eliminate security checks, but to do them efficiently.'' We must 
find a way to protect our security while also doing our best to 
minimize the negative effects on our universities, businesses, and 
research institutions attempting to attract a diverse group of top-
notch researchers, students, and business associates from around the 
world.
    The implications of an inefficient visa program that promises 
bureaucratic hurdles without added security also creates problems for 
us in the foreign policy arena. I recently learned that the State 
Department is engaged in a public relations campaign to win the hearts 
and minds of Middle Easterners. Apparently, the State Department is 
spending $1 million on a radio station and a scholarship fund to 
attract students from Arab nations and to combat American 
misperceptions in the Middle East.
    But when students apply to attend an American university, they're 
finding it extremely difficult to navigate a complicated visa process 
that can often extend beyond three months. Some Middle Eastern students 
face even more difficult problems because they receive only single-
entry visas and are required to go through a new visa process every 
time they leave the country. This means it is virtually impossible for 
them to return home for winter vacation and even long summer breaks 
because obtaining a visa can sometimes take more than three months. For 
graduate students, it could mean seven years away from family and 
friends. For young seventeen- and eighteen-year-olds leaving home for 
the first time, it could mean four years away from parents and familiar 
surroundings.
    If we are truly engaged in a public relations battle to change the 
image of the United States in the Middle East, we have to follow up on 
our radio and scholarship program with a visa system that considers the 
needs of visitors without sacrificing our number one priority--
security.
    The time to act is now before we do permanent damage to our 
science, technology, academic, and business communities and before we 
permanently tarnish our image. We must create a visa system that 
incorporates enhanced security checks necessary in a post-September 
11th environment, but without the unnecessary bureaucracy that 
endangers our scientific leadership and image around the world.

STATEMENT OF JANICE L. JACOBS, DEPUTY ASSISTANT SECRETARY, VISA 
                            SERVICES

    Ms. Jacobs. Thank you very much, Mr. Chairman and Members 
of the Committee. I welcome the opportunity to testify today 
regarding the visa process for students and scholars. Visa----
    Chairman Boehlert. I can't hear what you are saying.
    Ms. Jacobs. I am sorry. Can you hear me now?
    Chairman Boehlert. Yeah, I think we are all right now. 
Thank you----
    Ms. Jacobs. Okay.
    Chairman Boehlert [continuing]. Very much.
    Ms. Jacobs. All right. Visa work has always been about 
striking the proper balance between protecting U.S. borders and 
facilitating legitimate travel. Our operating environment 
changed forever on September 11, 2001, and there is no turning 
back the clock. Security is, and will continue to be, the top 
priority in the processing of visas for international visitors. 
The State Department is committed to strengthening the visa 
process as a tool for protecting U.S. national security 
interests. We have made a number of changes since 9/11 and will 
continue to do so in response to the security needs of our 
nation and recommendations by law enforcement and national 
security agencies, and of course, the Department of Homeland 
Security. At the same time, the State Department is keenly 
aware of the need to balance national security interests with 
other strategic interests, such as promoting scientific and 
academic exchange and the overall health of our economy.
    Enhancing U.S. security means pushing borders out to our 
visa processing posts abroad. Here, I am happy to report that 
we have made enormous progress in identifying individuals who 
may present a threat to our nation through enhanced interagency 
data sharing. Since 9/11, we have added over 7.3 million new 
records, primarily FBI NCIC, which is criminal history data, to 
our Consular Lookout Automated Support System, or as we call 
it, CLASS. The TIPOFF database on suspected or actual 
terrorists has incorporated into CLASS over 73,000 entries, an 
increase from the 48,000 records that existed on 9/11/2001.
    We try to work smart. We have been big users of automated 
tools. Thanks to the work of Congress, our Machine Readable 
Visa fees have allowed us to invest in new technology. We 
continue to refine this technology and to increase connectivity 
between the Department, overseas posts, and other agencies. But 
technology can't do it all. We are working with other 
interested agencies on a rational, more targeted clearance 
process that is both transparent and predictable.
    We are in pretty good shape to find the ``bad guys'' who 
have already been identified by other agencies and who are 
included in our visa lookout system. Dealing with what we don't 
know is, of course, more of a problem. For that, we have the 
security advisory opinion process to permit other agencies to 
take a look at a case before we issue a visa.
    Before I describe in detail the system whereby we handle 
the visa requests of students and scholars whose travel has 
national security or technology transfer implications, let me 
say a word about the delays and backlogs that have effected 
foreign visitors and U.S. institutions in the past year.
    The procedures we now use to assure ourselves that students 
and scholars working in the technology area do not pose a 
threat to the U.S. are very similar to those used in the past. 
The U.S. vets these applications with law enforcement agencies, 
the intelligence community, and our own Nonproliferation Bureau 
before a visa may be issued.
    Why did the process work more rapidly in the past? For two 
reasons, first the volume of visas that require security 
advisory opinion clearances has exploded since 9/11, 
overwhelming the technical and personnel infrastructure that 
the Federal agencies, including the State Department, had in 
place to handle this work. Secondly, we cease to use working on 
a clock whereby a clearance not answered within a certain 
period of time was, in effect, a clearance granted 
automatically to the affected post that allowed that post to 
issue the visa without further reference to Washington.
    In the post-9/11 environment, we do not believe that the 
issues at stake allow us the luxury of erring on the side of 
expeditious processing. We now insist upon hearing from law 
enforcement before we issue these visas. Expanding the 
clearance universe as we did and dropping our clock would, in 
more tranquil times, have been a process put into place over 
months, if not years, while we built the infrastructure to 
accommodate the work entailed. We did not have the luxury of 
time after 9/11, so we moved as quickly as we were able to 
strengthen the visa process and thereby the security of our 
borders.
    The result was improved security but at a cost of greatly 
increased processing times. We have, as I will explain, 
provided more resources to cope with this problem, and we are 
making substantial progress, but I do not foresee a return to 
the more rapid processing we enjoyed when we thought the threat 
to our country was less than it turned out to be.
    Our first obligation in this review process is to ensure 
that no individual receives a visa who intends to do us harm or 
violate the laws of the United States. This includes 
individuals who may be coming to unlawfully obtain an export-
sensitive technology or information, especially if it relates 
to the development or spread of weapons of mass destruction or 
their associated technologies. The major events now unfolding 
in Iraq, as our military forces and our coalition partners 
endeavor to rid that nation of weapons of mass destruction, 
dramatically underscore our nation's commitment in this regard.
    At the same time, we fully recognize that the vast majority 
of visa applicants who seek to come to the U.S. for study, 
research, or temporary employment in scientific and technical 
fields are legitimate. We are keenly aware of our double-edged 
responsibilities in the area of national security and 
facilitation of legitimate scientific exchange. This is not an 
easy balance to strike, especially since the 9/11 terrorist 
attacks, but we are working every day, along with other 
agencies involved in the visa review process, to find that 
proper balance.
    Our caseload in this review process, which goes by the 
identifier of Visas Mantis, has grown substantially. Denials 
under the Mantis program increased from three findings of 
ineligibility under INA 212(a)(3) in 2001 to 30 such findings 
in 2002. At any given time, we have from 1,500 to 2,000 cases 
pending in the interagency process review.
    The Bureau of Consular Affairs Visa Office performs 
essentially a coordinating role in this clearance process. 
Cases are submitted by our visa issuing posts abroad for review 
simultaneously to us, States Nonproliferation Bureau, and the 
intelligence and law enforcement community. Each reviewing 
entity advises us if it has concerns about a particular case. 
We review the evidence supporting those concerns in light of 
the relevant ineligibility provisions of the Immigration and 
Nationality Act and advise the post processing the case as to 
whether or not a legal basis exists for denying the visa. We 
ensure consensus before releasing a response to a consular 
officer. In other words, we never advise a consular officer to 
go ahead and issue a visa in a specific case, no matter the 
sense of urgency, while there is an objection from another 
agency that has not been resolved.
    The increase in Visas Mantis referrals, as well as similar 
increases in other categories of security-related referrals, 
has seriously stressed the interagency clearance process. As a 
result, cases on the average are taking longer to complete than 
in the pre-9/11 environment. In our capacity as the 
coordinating agency, the Department has made significant 
progress in addressing these delays. We have negotiated 
agreements with other agencies, implemented a number of 
procedures to streamline the clearance process, and 
reprogrammed staff in order to decrease the turnaround time for 
Mantis clearances. We can now return clearances on cases 
raising no problems in 30 days or less.
    The Department has engaged in significant outreach to other 
agencies to eliminate long delays and to assuage the fears of 
the scientific and academic communities. The Department has had 
regular and frequent contact with the Homeland Security Council 
since its inception in September of 2001. We participate 
regularly and frequently in interagency meetings convened by 
the White House Office of Science and Technology Policy. We 
also participate in activities with members of the scientific 
and academic communities to share information on our clearance 
requirements and to learn their needs.
    I assure you, Mr. Chairman, that the Bureau of Consular 
Affairs will continue these and any other feasible efforts to 
enhance and expedite interagency review of these cases, 
consistent with our overriding obligations to protect our 
borders and prevent weapons of mass destruction and their 
associated technologies from falling into the wrong hands.
    I am submitting, for the record, a written statement that 
discusses in greater detail our role in this visa review 
process. Again, thank you for affording me this opportunity to 
discuss the Bureau of Consular Affairs role in this vitally 
important process. And I will be happy to answer any questions 
that you have on this matter.
    [The prepared statement of Ms. Jacobs follows:]
                 Prepared Statement of Janice L. Jacobs
    Thank you very much Mr. Chairman and Members of the Committee. I 
welcome the opportunity to testify today regarding the visa process for 
students and scholars.
    Visa work has always been about striking the proper balance between 
protecting U.S. borders and facilitating legitimate travel. Our 
operating environment changed forever on September 11, 2001, and there 
is no turning back the clock. Security is and will continue to be the 
top priority in the processing of visas for international visitors. The 
State Department is committed to strengthening the visa process as a 
tool for protecting U.S. national security interests. We've made a 
number of changes since 9/11 and will continue to do so in response to 
the security needs of our nation and recommendations by law enforcement 
and national security agencies, and of course the Department of 
Homeland Security. At the same time, the State Department is keenly 
aware of the need to balance national security interests with other 
strategic interests such as promoting scientific and academic exchange 
and the overall health of our economy.
    Enhancing U.S. security means pushing borders out to our visa 
processing posts abroad. Here, I am happy to report that we've made 
enormous progress in identifying individuals who may present a threat 
to our nation through enhanced interagency data sharing. Since 9/11, 
we've added over 7.3 million new records, primarily FBI NCIC (criminal 
history) data, to our Consular Lookout Automated Support System 
(CLASS). The ``TIPOFF'' database on suspected or actual terrorists has 
incorporated into CLASS over 73,000 entries, an increase from 48,000 
records on 9/11/2001.
    We try to work ``smart.'' We have been big users of automated 
tools. Thanks to the work of Congress our Machine Readable Visa fees 
have allowed us to invest in technology. We continue to refine this 
technology and to increase connectivity between the Department, 
overseas posts, and other agencies. But technology can't do it all. 
We're working with other interested agencies on a rational, more 
targeted clearance process that is both transparent and predictable.
    We're in pretty good shape to find the ``bad guys'' who have 
already been identified by other agencies and are included in our visa 
lookout system. Dealing with what we don't know is of course more of a 
challenge. For that we have the security advisory opinion process to 
permit other agencies to take a look at a case before we issue.
    The Department of State has long used specialized clearance 
procedures for the review of visa applications of individuals whose 
proposed activities in the U.S. may have security-related or other 
concerns. These programs carried out by the State Department at the 
request of and in coordination with other federal agencies. The Visas 
Mantis program is one such program related to technology transfer 
concerns. Federal agencies participating in the Visas Mantis program 
review select applications and provide the information needed by State 
to determine an applicant's visa eligibility under section 
212(a)(3)(A)(i)(II) of the Immigration and Nationality Act. That 
section provides in relevant part that:
    Any alien who a consular officer or the [Secretary of Homeland 
Security] knows, or has reasonable ground to believe, seeks to enter 
the United States to engage solely, principally, or incidentally in--

        L  (i) any activity. . .(II) to violate or evade any law 
        prohibiting the export from the United States of goods, 
        technology, or sensitive information.. . .is ineligible to 
        receive a visa.

    Prior to 1998, the Department reviewed cases for controlled 
technology, sensitive information concerns under several nationality-
based programs, e.g., CHINEX for PRC nationals, SPLEX for nationals of 
the Soviet Union and Eastern Europe. In 1998, the Department 
consolidated these nationality-based, Cold War era screening procedures 
into the Visas Mantis program. The Visas Mantis program is an effective 
tool for U.S. intelligence and law enforcement agencies to support 
consular officers in screening individuals and entities that seek to 
gain controlled goods, technology and sensitive information in 
violation of U.S. export laws.
    Most other special clearance procedures are triggered by clear and 
objective circumstances, such as applicant nationality or CLASS name 
check results. However, in cases of illegal technology transfer, 
falling within the purview of INA Section 212(a)(3)(A)(i)(II), the 
Department must rely to a great extent on the observations and judgment 
of consular officers in the field to identify applicants of any 
nationality who may be subject to this ineligibility. To assist 
officers in this difficult and vitally important task the Department, 
in conjunction with federal intelligence and national security 
agencies, regularly updates a list of policy objectives and critical 
technologies, which trigger special clearance requests.
    In deciding to submit an application for review for reasons related 
to possible illegal technology transfer, the consular officer must 
first determine whether the applicant's proposed activity in the United 
States would involve exposure to any of fifteen sensitive technologies 
included in the Technology Alert List (TAL). In deciding whether one of 
the listed TAL activities may be in violation of U.S. export control 
laws, the consular officer must review that activity in light of the 
following broad policy objectives related to technology transfer:

        <bullet> LStem proliferation of weapons of mass destruction and 
        missile delivery systems.

        <bullet> LRestrain the development of destabilizing 
        conventional military capabilities in certain regions of the 
        world.

        <bullet> LPrevent the transfer of arms and sensitive dual use 
        items to terrorist states.

        <bullet> LMaintain U.S. advantages in certain militarily 
        critical technologies.

    Second, for applicants from any of the countries designated by the 
Department to be state sponsors of terrorism, (Cuba, Iran, Iraq, Libya, 
North Korea, Sudan and Syria) consular officers are instructed to 
assume that any visit providing exposure to any of the technologies on 
the Technology Alert List will conflict with the policy objectives, and 
therefore a Visas Mantis special clearance is mandatory under these 
circumstances.
    Third, consular officers may send to Washington any case that 
appears to warrant further interagency review.
    The Visas Mantis program, therefore, provides the Department and 
other interested agencies with an effective mechanism to screen out 
those individuals who seek to evade or violate our laws governing the 
export of goods, technology or sensitive information. This screening in 
turn addresses significant issues of national security and works to 
enhance our national security. The Visas Mantis program allows all 
participating agencies to provide information and raise any particular 
concerns they may have regarding the applicant and/or the proposed 
activities in the U.S.
    The Department strives to balance this effort to protect our 
national security with our responsibility to facilitate legitimate 
travel and scientific exchange. We recognize that scientific exchange 
supporting a wide range of research and development in the United 
States is a vital component of our national security. We, therefore, 
have worked diligently and creatively to clear legitimate travelers 
subject to Mantis clearances as quickly as possible and, at the same 
time, to deter or prevent potentially inadmissible travelers from 
gaining entry to the United States.
    The Visas Mantis case load grew significantly from calendar year 
2001 through 2002. At any given moment, we have from 1,500 to 2,000 
Mantis cases pending in this interagency review process. The increase 
is attributable to increasingly vigorous interagency review of Mantis 
cases, and has led to an increasing number of refusals under section 
212(a)(3)(A)(i)(II) of the Immigration and Nationality Act.
    The Mantis case load represents only about 10 percent of all visa 
cases submitted by posts abroad for review through the security 
advisory opinion (SAO) process. SAO submissions across the board have 
risen dramatically since the 9/11 terrorist attacks. These increases 
have stressed the review process and forced some procedural changes 
which increased the amount of time needed to complete SAO reviews.
    In addition to a Visas Mantis check, some students and academics 
fall under the Visas Condor program that began in January 2002 in 
counter-terrorism purposes. In consultation with U.S. national security 
and law enforcement agencies, the Department implemented the Visas 
Condor program to ensure that nationals of certain countries of concern 
meeting certain criteria were subject to a security review.
    Some of the delays that you have heard about are the result of the 
Visas Condor, not Visas Mantis program. When the Condor program was 
first instituted, it was put on a ``clock,'' a procedure traditionally 
used in many of the clearances. If the Department had not received 
derogatory information from a cooperating agency or agencies within 
thirty (30) days of the date of the cable, then we could assume that 
other agencies had no objection to the issuance of a visa. The agencies 
assured us that they could and would notify us within that 30-day 
period. If post did not hear from the Department by the end of that 
time, it could process the case to conclusion.
    The Visas Condor program resulted in a significant increase in the 
number of cables sent to federal agencies for review. All participating 
agencies found their resources strained as they took on substantially 
more work. In the summer of 2002, in consultation with other agencies, 
the ``clock'' system was ended because it was no longer reliable. 
Agencies were having trouble meeting the 30-day period. Instead, we now 
wait for an affirmative response from agencies before approving a visa.
    These two enhancements to our security screenings--the Visas Condor 
program that added a significant population subject to security 
advisory opinions and the need for an affirmative response from the 
other participating agencies--resulted in significant delays in 
processing all security advisory opinion requests, including Visas 
Mantis clearances.
    Since last summer, each agency has taken measures to improve or 
increase resources to address these delays. The Bureau of Consular 
Affairs also worked to better improve its performance as the 
clearinghouse for compiling other agency responses and provide a 
coordinated reply to the consular officer overseas. In concert with 
other agencies we implemented a number of procedures to improve our use 
of automation and add personnel. To date these measures include:

        <bullet> LThe addition of two permanent visa specialists, two 
        retired Foreign Service Officers, and six contract employees,

        <bullet> Lthe ``detail'' of two clerical employees,

        <bullet> Lthe cross-training of other clerical staff to provide 
        overtime support,

        <bullet> Lthe improvement of case tracking methodology, and

        <bullet> Lthe improvement of automation related to data share 
        between agencies.

    In general, the Bureau of Consular Affairs has noted the measures 
taken by all participating agencies have improved response time so that 
clearances on most cases raising no problems are available to consular 
officers within thirty (30) days or less.
    The Department has engaged in significant outreach to our federal 
partners to work through problems and to improve predictability for the 
scientific and academic communities about visa processing. This 
outreach includes regular and frequent contact with the Homeland 
Security Council since its inception in September 2001, and now with 
the Department of Homeland Security. Our goal is to rationalize the 
clearance process in light of today's national security threats and re-
establish rational, transparent clearance procedures that focus on 
those applicants who present the highest risk. The Department also 
participates regularly and frequently in interagency meetings convened 
by the White House Office of Science and Technology Policy.
    The proposed Interagency Panel on Advanced Science and Security 
(IPASS) proposed by the Administration grew out of such meetings as a 
response to Homeland Security Presidential Directive 2 Section 3. The 
proposed IPASS process is meant to increase the involvement of U.S. 
Government scientific experts to work with intelligence, counter-
intelligence, and law enforcement representatives to advise the 
Department of science-related visa applications, beginning with 
students and visiting scholars. The White House (Office of Science and 
Technology Policy and the Homeland Security Council), the Department of 
Homeland Security, and the Bureau of Consular Affairs continue to 
convene meetings to work out details of the IPASS process. Members of 
the U.S. Government scientific community participate actively in these 
meetings, to the extent allowed by their level, if any, of security 
clearance.
    The Department is in direct contact with the scientific and 
academic community regarding visa policies and procedures. In various 
briefings, we have explained the basis for the new security-related 
procedures and the challenges we face in today's world of protecting 
U.S. security interests while facilitating the travel of those coming 
to the U.S. for legitimate purposes. The Department is committed to 
working towards a continued free flow of people, information and ideas 
that is the foundation of this great country. Secure borders, open 
doors, that is what we are working towards every day.
    Thank you Mr. Chairman. This concludes my statement. I would be 
happy to answer any questions.

                     Biography for Janice L. Jacobs
    Ms. Jacobs became the Deputy Assistant Secretary for Visa Services 
on October 15, 2002. Prior to her arrival, she served two years as 
Deputy Chief of Mission at the U.S. Embassy in Santo Domingo. Her 
career includes a mix of Washington, D.C. and overseas assignments, 
including working in the State Department's Visa Office, Operations 
Center, and Office of Cuban Affairs.
    Ms. Jacobs, a member of the Senior Foreign Service, joined the 
Foreign Service in March 1980 after many years of overseas experience 
as a Foreign Service dependent. She has lived in the Dominican 
Republic, Ecuador, Egypt, Ethiopia (twice), France, Mexico (twice), 
Nigeria, and Thailand. She received a BA in French and Education from 
Southern Illinois University in 1968 and a Master's in National 
Security Strategy from the National War College in 1995.
    Janice is married and has two sons, Eric and Kurt. Eric is a 
Foreign Service Officer (third generation) and Kurt is an aspiring 
actor living in Chicago. Her husband, Ken, is a senior civilian 
personnel specialist with the Department of Navy. Hobbies include 
running, swimming, and biking. She speaks Spanish and French.

    Chairman Boehlert. Thank you very much, Ms. Jacobs. Dr. 
Ward.

  STATEMENT OF DR. DAVID WARD, PRESIDENT, AMERICAN COUNCIL ON 
                           EDUCATION

    Dr. Ward. Good morning, Members of the Committee and Mr. 
Chairman. I am delighted to be here on behalf of the American 
Council on Education, which represents degree granting, 
independent and public universities.
    I have been here before, and I want to say that today I 
don't want to spend a great deal of time discussing the value 
of international exchange both of students and scholars. I 
think this committee has shown great respect and understanding 
of that issue. Secondly, I am not here to argue about the 
necessity for security through a much more enhanced visa 
granting process. Both of these--I think there is broad 
agreement. And it is a question of making it work, I think, 
rather than seeing these as alternatives.
    I would also in parentheses like to respond to Mr. Hall's 
comments about access of native students to our graduate 
programs in science and technology. My organization, in 
connection with higher education reauthorization, will address 
that issue. There is clearly a need to recruit more effectively 
from our own students, from our own high school and 
undergraduate students, as well as continuing to receive 
foreign students. That is the second issue, which I don't think 
the Committee is concerned about primarily today.
    Much has changed in this country since September the 11th. 
Many of the policies and practices by which the U.S. welcomes 
international visitors and students are being changed. We 
support these changes. The Federal Government and colleges and 
universities need to make certain that international students 
and scholars come here with only the best of intentions and 
comply with all laws and regulations. But we fear that 
inconsistent and inefficient implementation of these new 
policies and procedures makes it more difficult for these 
students and scholars to complete their research and complete 
their studies in this country.
    The Student Exchange Visitor Information System, or SEVIS, 
is the single most important step that the Federal Government 
has taken to improve its ability to monitor international 
students and exchange visitors. America's colleges and 
universities support its implementation; however, we have 
repeatedly indicated our concern that this system is being 
implemented before it was fully tested and ready for operation.
    Sadly, our concerns have been justified. SEVIS was not 
ready, and our campuses are confronting difficulties. Let me be 
more specific. There are certain technological flaws in SEVIS. 
Schools have reported frequent data losses. Some schools have 
reported that their immigration forms have printed out on the 
computers of other schools, often hundreds of miles away. Batch 
processing, which is critical to those institutions with large 
numbers of foreign students, has worked intermittently at best. 
And some students have not been able to access this feature at 
all.
    Secondly, SEVIS does not, as it was intended, provide real 
time access. The system was designed to link schools, 
universities and colleges, the State Department, and the INS in 
real time. Delays can cause confusion of consular offices and 
embassies when students arrive to apply for their visas only to 
discover that their service information is not available from 
the system at the consular office.
    INS has not provided adequate training to the full range of 
people involved. Clearly, a complex data system of this kind, 
which has both regulations to drive it and software to make it 
work in a technical sense, requires training. The INS has 
provided almost no training to campus administrators or even to 
its own staff. One campus official recently visited an INS 
regional Service Center and learned the staff did not know how 
to identify service documents and had not yet received 
training. INS then asked the campus administrators for 
assistance. Additionally, the service help desk only provides 
technical assistance about the system and is unable to answer 
questions about regulatory requirements. That, of course, 
leaves school officials with the great challenge of 
interpreting regulations without any clear guidance.
    Two other issues make this situation a little more 
worrying. There will be a dramatic increase in the number of 
new entries into the service system. And that is--and secondly, 
there are no regulations yet about the collection of the fees. 
Between today and August the 1st, an estimated one million 
additional records will need to be entered as colleges begin 
processing admissions for the fall of 2003. Since the system 
was introduced, of course, the pace is fairly slow. It will now 
pick up, because this is the period for maximum application for 
admission in September. We don't know whether the capacity will 
be stretched to the breaking point by this sudden increase in 
volume, since with low volume levels it has obviously been 
struggling.
    On the subject of the service fee, the Federal Government 
still has not published the regulations concerning how the fee 
will be collected. We understand that the fee collection 
process will be totally separate from the process by which 
students are listed in the service. And additionally, it may 
rely on traditional mail and paper receipts, undermining the 
original goal of creating a complete electronic system.
    Delays in entry into the country have become quite common. 
In the last 18 months, visa delays to students and scholars 
have become more extensive. I don't think we worry about that, 
but they become unpredictable, too. I think there are really 
two quite different issues. One can deal with predictable 
delays, which can be understood by a logjam, but if there is 
unpredictability in the system and no rationality for why one 
visa is delayed and another is not, I think that 
unpredictability is a serious problem. We have already heard 
from my colleague from the State Department that their 
procedures have obviously greatly tightened up. And many, many 
more students are now flagged, and scholars for that matter, 
who are just coming for a few weeks, are flagged because of the 
fields of study that they're involved in.
    We support that process, but we do have to recognize that 
there are significant delays involved in that. And some of 
these delays, in fact, are extreme. We do recognize that the 
State Department is working hard from its point of view to deal 
with that side of it. We are not convinced that on the SEVIS 
side we have exactly the same level of concern to solve these 
problems.
    Many of our students are also further inconvenienced if 
they wish to return home either for a death, for a marriage, 
for a brief vacation or whatever, if they are here for three or 
four years. The process by which students return home and then 
need to re-enter the United States has also put many students 
in a great deal of fear, such that they don't want to leave the 
country because of the ambiguity that they will return for an 
oral examination, perhaps only for three or four days, before 
returning to their home country. There are many stories of 
great anxiety about that.
    Some, of course, may be invited to conferences outside of 
the United States while here, maybe invited to Brazil even if 
their home country is France, England, or Sweden. This, too, is 
creating great apprehension, this great fear about leaving the 
country and then not being able to return.
    I should emphasize we do not, in any way, object to the 
review of visa applicants. We seek a visa process that is 
timely and will take more time, but it is predictable. 
Moreover, we seek a process by which existing student and 
scholar visa holders can revalidate their visas before leaving 
the U.S. for academic, health, or other sensible, personal 
reasons.
    We also have another broad area of concern, which is the 
issue of classified or sensitive courses. There are many, many 
more areas of study, which may come under a list, which would 
be prohibited for certain students from certain countries. Our 
feelings about this kind of issue is that if we have any doubts 
whatsoever, whether students from a certain country should be 
able to take a certain course, it would be better not to issue 
the visa in the first place. That kind of doubt should be kept 
outside of our borders rather than forcing the universities, in 
a sense, to select certain students out who might not, under 
certain circumstances, be able to go to certain courses. 
Imagine the identification problems of trying to deal with 
that.
    I emphasize that the Federal Government rightfully should 
decide who receives a visa to study in the United States. 
International students and scholars, who are of concern to the 
government, should not receive a visa. However, since the U.S. 
economy is unquestionably fueled by innovations in science, 
engineering, and technology, it is important that our country 
remain the destination of choice for the world's best students 
and scholars. We value them, and I think there is increasingly, 
in many parts of the world unrelated to terrorism, who are 
feeling the pain and the hurt of not having free exchange with 
their colleagues in the United States.
    I recognize that the Science Committee does not have 
jurisdiction over many of the agencies that oversee SEVIS and 
the issuance of visas for international students. However, the 
Committee could be helpful in encouraging the Federal 
Government and the agencies involved in SEVIS implementation 
and visa processing to implement several measures right now 
that would be helpful. Ideally, SEVIS should be evaluated and 
tested until all of the technical glitches have been resolved. 
But that isn't likely for security reasons, so we need a system 
that deals with the problems and tries to have a problem 
resolution rather than what, I think, too often occurs, a 
denial of the problems in the first place.
    I have several recommendations, which are in my testimony. 
And I think rather than providing them at detail at this point, 
I will stop there, have you evaluate these at your leisure, and 
I would be happy to answer any questions. Thank you very much.
    [The prepared statement of Dr. Ward follows:]
                    Prepared Statement of David Ward
    Mr. Chairman, my name is David Ward and I am President of the 
American Council on Education. ACE represents 2,000 public and private 
colleges and universities. I am testifying today on behalf of those 
institutions as well as the 32 education and exchange visitor 
organizations listed at the conclusion of my testimony.
    I have a deep professional interest in the issue that we are 
discussing today. As the former Chancellor of the University of 
Wisconsin-Madison, a major research university with 4,500 international 
students and scholars, I had the privilege of working with 
international students and scholars every day and saw firsthand the 
talents and skills they brought to my university. I am also personally 
interested in this issue--I originally came to the United States as an 
international student in 1960, earned a Ph.D. and then left, as my visa 
required me to do. I returned to the U.S. later and became a U.S. 
citizen in the Bicentennial year of 1976.
    I believe that international students and exchange visitor programs 
are enormously beneficial to the United States. They dramatically 
increase the knowledge and skills of our workforce. They boost 
worldwide appreciation for democracy and market-based economics and 
give future world leaders first-hand exposure to America and Americans. 
At the same time, international education generates billions of dollars 
in economic activity every year.
    The most important benefits of international students and exchange 
scholars cannot be easily quantified. But we know what they are. First, 
international students and visitors bring knowledge and skills to U.S. 
classrooms, laboratories, and businesses. The sum total of their 
intellectual contributions is enormous. For example, the rapid 
developments in information technology that helped fuel the economic 
growth of the 1990s benefited immeasurably from international students 
and scholars from Southeast Asia who studied at American universities 
in the late 1980s. In the same vein, a central feature of the advances 
in biomedical research that will pave the way for future gains in the 
quality and length of life are collaborative efforts between native and 
foreign-born researchers now taking place in thousands of American 
laboratories.
    Second, international students and exchange scholars help bring 
greater international understanding. In the current global climate, we 
need more and better efforts to enhance international understanding. 
One of the best ways to do this is through the everyday classroom 
discussions that one finds on college and university campuses. Candid 
discussion enhances familiarity--and familiarity leads to 
understanding. When international students and exchange visitors return 
home, they take with them first-hand understanding of our country and 
our values. Indeed, some of America's strongest supporters abroad are 
those who have spent time in this country.
    International students add diversity to college classrooms. For 
many native-born students, international students offer the first 
chance for a sustained friendship with someone born in another country. 
As the world grows ever smaller, meaningful exposure to international 
students will better prepare American students to live, communicate, 
and compete in the global economy.
    This does not mean that the economic benefits are trivial. 
According to the Institute for International Education, the nearly 
583,000 international students who visit this country purchase some $12 
billion a year in goods and services. They do this when they pay 
tuition, rent an apartment, buy a pair of jeans, order a pizza, or go 
to a movie. Of course, like everyone else, international students and 
exchange visitors pay taxes on the goods and services they purchase. If 
they are allowed to work while they are here, they also pay Federal and 
State income tax.
    According to the U.S. Commerce Department, higher education is the 
Nation's fifth largest service-sector export. In an era when many 
policy-makers and economists worry about our huge trade deficit, the 
presence of international students helps reduce it.
    In short, the benefits of international students are unambiguous 
and overwhelming. So it is no surprise that President Bush has said: 
``The United States benefits greatly from international students who 
study in our country,'' or that he has committed his Administration to 
``continue to foster and support international students.''
    Secretary of State Colin Powell--no stranger to what is in 
America's international interests--says that international education 
``encourages and sustains Democratic practices, creates a cohort of 
future leaders who understand each other's countries from the inside, 
and promotes long-term linkages between institutions here and abroad.'' 
The list of foreign heads of state that have studied at an American 
college is long and distinguished. The State Department has concluded 
that fully one-half of the world leaders who agreed to support our war 
on terrorism first came to this country as an international student or 
exchange visitor.
    The events of September 11th changed much in this country. Many of 
the policies and practices by which the U.S. welcomes international 
visitors have been the subject of examination and sustained discussion. 
A large number of changes have been put in place, including, the 
process by which international students and exchange visitors enter the 
country and are monitored while they are here.
    We support these efforts. Colleges and universities are among the 
most open institutions in our very open society. The openness and the 
freedom that campuses provide individual students and scholars is one 
of the key factors in our widely admired system of higher education. To 
maintain this openness, we need to make certain that all potential 
students and researchers come here with the best of intentions, that 
they remain in compliance with all appropriate laws and regulations, 
and that we help the appropriate authorities monitor their academic 
activities and visa status.
    But we fear that the inconsistent and inefficient implementation of 
these steps is making it more difficult to encourage international 
students and scholars to come to our country and to complete their 
studies, scholarship and research. I call the Committee's attention to 
several problem areas:

        <bullet> LElectronic monitoring of international students and 
        exchange visitors who come to the U.S. does not work as 
        promised;

        <bullet> LExtensive visa delays for students and scholars who 
        seek to enter the country have become common; and

        <bullet> LVery real questions about what students can study or 
        what scholars can investigate when they do arrive create 
        confusion.

The new federal system for monitoring International Students and 
                    Exchange Visitors does not work as promised.

    On January 1, 2003, the Immigration and Naturalization Service 
implemented the Student and Exchange Visitor Information System or 
SEVIS. This is a large and complex information technology system that 
is designed to link all U.S. embassies and consulates, all INS ports of 
entry, every institution of higher education that sponsors 
international students, and every exchange visitor program.
    We believe that SEVIS is the single most important step that the 
Federal Government can take to improve its ability to monitor 
international students and exchange visitors and we strongly support 
its implementation. However, we have repeatedly indicated a concern 
that this system was being implemented before it was fully operational. 
Last fall, at separate hearings held by the House Education and the 
Workforce Committee and the House Judiciary Committee, the higher 
education community indicated that we did not believe that the SEVIS 
system would be operational in time for smooth implementation. The 
Department of Justice Inspector General also expressed doubts about the 
implementability of SEVIS at both hearings.
    Sadly, as we feared, SEVIS was not ready and campuses are 
confronting enormous difficulties. The simplest way to characterize 
these problems is to say that the Immigration and Naturalization 
Service implemented this system before it was fully tested. Campus 
officials are now dealing with the failure to adequately develop this 
system.
    SEVIS suffers from three serious problems:
    First, SEVIS is technologically flawed. Schools using SEVIS report 
that it frequently `loses' data that has been properly entered into the 
system. Many schools report that their immigration forms have printed 
out on the computers of other schools. For example, official government 
immigration forms that Stanford University in Palo Alto, California, 
attempted to print were later discovered at Duke University in Durham, 
North Carolina; forms for Michigan State University appeared on the 
printer at Arizona State University. Most worrisome, perhaps, 
confidential SEVIS forms printed by the Jet Propulsion Laboratory--a 
secure government installation--were printed at a proprietary school in 
San Francisco. And batch processing, which schools need to submit large 
amounts of data, works intermittently at best. Some schools have not 
been able to make batch processing work at all.
    These technological flaws can have serious consequences for 
students. One local university discovered that, despite repeated 
efforts, it could not successfully reactivate the record of an 
international student from Thailand into SEVIS after the student record 
was incorrectly terminated by the INS. INS officials told campus 
personnel they would address the issue. However, INS officials visited 
the student at home and, upon further discussion, arrested her and led 
her away in handcuffs.
    Second, contrary to promises, SEVIS does not provide real-time 
access to data. SEVIS was designed to link schools, the State 
Department and the INS in real time. This is a reasonable goal for an 
electronic information system. Unfortunately, SEVIS does not yet 
provide these linkages in a timely fashion. For an extended period in 
February, no data was transmitted because the INS did not configure the 
system to transmit it and failed to do a manual transmission of the 
data for 10 days. Some embassies and consulates find that it takes a 
week or longer for them to access data entered into SEVIS. This means 
that students arrive at an embassy--sometimes after traveling a great 
distance--only to be told (incorrectly) that their data has not been 
entered into SEVIS and that they may not apply for a visa. In fact, 
their data is in SEVIS--that's the only way they could receive an I-20 
form--but the SEVIS data has not been forwarded to the consulate. The 
bottom line is the same--without timely consular access to the SEVIS 
data, a student may not apply for a visa. These delays cause confusion 
and frustration for embassies, students and schools.
    Third, the INS has not provided adequate training to anyone. 
Training is critical for the successful implementation of any new 
information technology system, yet the INS has provided almost no 
training to campus officials or even to its own staff. One campus 
official recently visited an INS regional service center and learned 
that the center did not know how to identify SEVIS documents and had 
not been provided with any training. The campus official was asked to 
help INS officials understand what they were supposed to do. Regional 
INS officials have not been adequately trained and therefore often 
provide different answers to the same questions. INS's SEVIS Help desk 
can answer technical questions about the system but is unable to answer 
regulatory questions. As a result, school officials are on their own.
    Two factors make this situation even more worrisome. First, the 
volume of information in SEVIS is about to increase dramatically. 
Between now and August 1, we conservatively estimate that an additional 
one million records--approximately 250,000 per month--will need to be 
entered in SEVIS. We do not believe there is any chance that SEVIS will 
be able to accommodate this huge surge of information and are deeply 
concerned that it will play havoc with students, colleges, 
universities, and consular and immigration offices, alike.
    Second, the Federal Government still has not published the 
regulations specifying how the SEVIS fee will be collected. Under the 
law, potential international students must be registered in SEVIS and 
they must pay a SEVIS fee. The government has not yet begun to collect 
the fee but there are indications that it plans to do so in the very 
near future. While no regulations have been published, we understand 
that the fee collection process will be totally separate from the 
process by which students are listed in SEVIS. Moreover, fee collection 
will reportedly rely on traditional mail and paper receipts and thus 
dramatically undermines the promise that SEVIS would be an entirely 
electronic system.
    We have proposed ways to simplify the collection of this fee but 
federal agencies have been unwilling to consider them. We believe that 
adding a poorly designed fee collection process to a poorly functioning 
SEVIS system is a prescription for further disaster.

Delays Entering the Country Have Become Common

    Because of the enhanced background checks and additional 
administrative procedures now being employed, it often takes far more 
time for an international student or scholar to enter the country. 
Prior to September 11, 2001, some visa applications routinely attracted 
closer examination than others. For example, some international 
students and researchers who hope to study or work in fields identified 
on the State Department's ``Technology Alert List'' have been subject 
to a higher level of scrutiny. In addition, individuals from countries 
that are known to sponsor terrorism have long received more extensive 
attention from government officials before a visa is granted.
    In the last 18 months, visa delays for students and scholars have 
become more extensive and unpredictable for several reasons. First, the 
State Department has increased the number of subjects on the Technology 
Alert List significantly. New fields added to the list include multiple 
sub-areas of the biological sciences, as well as community development, 
environmental planning, geography, urban planning, housing and 
landscape architecture. Second, last summer, the State Department 
imposed stricter procedures for visa applications flagged for review in 
the Visa Mantis process. Under the stricter procedures, a visa 
application that a consular officer refers to Visa Mantis must be 
reviewed by appropriate government agencies and must receive a security 
advisory opinion before a visa decision can be made. Prior to this 
point, some visa applications referred to Visa Mantis did not require a 
security advisory opinion. We understand that this increased level of 
scrutiny coupled with the expansion of the Technology Alert List, has 
been largely responsible for the enormous backlog of visa applications, 
estimated to be 25,000 last fall.
    International students and scholars tend to be severely impacted by 
delays in granting visas for two reasons. First, their visits are most 
typically tied to programs with specific start dates. Students need to 
begin their programs at the start of an academic term. Scholars and 
researchers need to be on campuses in time to begin research projects 
and to begin teaching at the beginning of the academic term. 
International students and researchers and host colleges and 
universities rely on a timely and predictable visa process.
    Second, international students and scholars travel outside the U.S. 
during semester or term breaks, to attend international academic 
conferences, to take care of personal affairs, or to visit family. Many 
students and scholars who have done so in the past 18 months have 
encountered enormous difficulties in re-entering our country. 
Increasingly international scholars and students already in the country 
are reluctant and refusing to travel outside of the U.S. for fear of 
being unable to return to complete their studies or research. In 
several cases, students who need only to defend their dissertation 
before receiving their Ph.D.s have found themselves unable to re-enter 
the United States. Visa delays have also made it increasingly 
difficult, if not impossible, for international scholars and 
researchers to attend short-term scientific conferences that are held 
in the United States. Having the world's best scholars attending 
international conferences in the U.S. benefits our nation in multiple 
ways. However, if significant numbers of foreign scientists continue to 
find that they are unable to enter this country in time to attend 
conferences, then conferences will be hosted in other countries 
instead. U.S. science and technology, tourism, and the economy would 
suffer as a result.
    I should emphasize that we do not in any way object to careful 
review of all visa applications. We seek a visa process that is timely 
and predictable. Moreover, we seek a process by which existing student 
and scholar visa holders can revalidate their visas before leaving the 
U.S. for academic, health, or other personal reasons. This would 
significantly reduce the impact of visa processing delays because 
students and scholars would be able to continue their studies, 
teaching, and research uninterrupted while their visas are being 
processed.

Unclear what international students can study or scholars can 
                    investigate if they do come to this country.

    Students and scholars who are granted a visa and enter the country 
now find themselves subjected to additional levels of scrutiny and 
restrictions. As noted above, the Technology Alert List that consular 
officers use in evaluating visa applicants, now encompasses virtually 
every area of contemporary science and engineering. Blanket areas like 
``civil engineering'' have now been added to the list.
    For the last year, the Administration has been working on a new 
visa review process for international students and scholars who seek to 
study in so-called ``sensitive areas'' as specified in Homeland 
Security Presidential Directive 2. Known as I-PASS (for Interagency 
Panel on Advanced Science and Security), its goal is to ensure that 
international students and scholars do not acquire `uniquely available' 
education and training in the U.S. in sensitive areas of study with 
direct application to the development and use of weapons of mass 
destruction. We have not seen the details of this proposal, but we have 
some concerns that it could further increase the number of delayed visa 
applications and impede teaching and research.
    In addition, we increasingly see new restrictions on publication of 
scientific research and on access to research and research results by 
foreign nationals. For example, usage of export control restrictions 
and talk of new categories of restricted information are growing. These 
new categories include: ``sensitive but unclassified'' and ``sensitive 
technical homeland information.'' Certainly, the results of scientific 
research with national security implications should not be in the 
public domain. It is our belief, however, that such research should be 
clearly labeled as ``classified'' research as called for under 
Administration policy. Current Administration policy on access to 
scientific information can be found in National Security Decision 
Directive 189 (NSDD 189). This policy, which is strongly supported by 
colleges and universities, clearly establishes that research is either 
``classified'' or ``fundamental.'' NSDD 189 was first promulgated in 
1985 by President Reagan and it has been reaffirmed by every subsequent 
administration. While this directive remains in effect, its meaning has 
been lost or diluted in most departments and agencies. Indeed, we fear 
that NSDD 189 has been replaced by an ad hoc approach that makes it far 
harder for campuses and scientific organizations to understand exactly 
what research security protocol the government wishes to follow.
    I emphasize that the Federal Government must decide who receives a 
visa to study in the United States. International students and scholars 
who are of concern to the government should not receive a visa. 
Speaking as a former university president and a devout supporter of 
international education and scientific research, I do not want any 
individuals on a college campus if the government has any reasonable 
concerns about them. I do not want them in our nation's classrooms, 
dormitories, laboratories, or libraries. I do not want them to have 
access to scientific equipment or even to extracurricular activities.
    The U.S. economy is fueled by innovations in science, engineering 
and technology. Given the innovation-driven nature of our economy, it 
is important that the U.S. continue to remain the destination of choice 
for the world's best students and scholars.
    Obviously in the new world in which we live, the government must 
put new security procedures and policies in place. We support these 
efforts and we have and will continue to work with the government to 
meet security needs. We understand it will take some time before new 
policies and procedures begin to operate smoothly. Some of these 
procedures appear counter-productive, unworkable, ad hoc and 
uncoordinated. As a result, costs associated with these new policies 
will be higher than desirable and necessary. We fear that some of the 
new policies and procedures may well make the Nation a less desirable 
and welcoming place for international students and scholars and this 
will force some students to choose to go elsewhere. The loss to our 
economy and our scientific enterprise will be incalculable and 
profound.
    We recognize that the Science Committee does not have jurisdiction 
over many of the agencies that oversee SEVIS and the issuance of visas 
for international students and scholars. However, we think that the 
Committee could be helpful in encouraging the Federal Government and 
the agencies involved in SEVIS implementation and the issuance of visas 
for international students and scholars implement several measures 
right now. These measures would fix a number of the current and future 
problems of SEVIS by making it the system it is supposed to be, 
reducing the number of visa delays and making it clear that openness in 
research is the policy of the U.S.:

        <bullet> LState Department consulate offices should collect the 
        SEVIS fee as a part of the visa collection fee. This maintains 
        SEVIS as an electronic system and streamlines the process for 
        the consular offices and for the international student.

        <bullet> LCampuses--specifically Designated School Officials 
        (DSOs)--should be given broader access to SEVIS in order to 
        correct clerical errors in the initial form. (For example, a 
        field of study change, correction of gender, name spelling.) In 
        one instance, a field of study change took 47 days to complete. 
        These types of changes are minor and should not require direct 
        involvement by the INS to correct.

        <bullet> LThe State Department should use the SEVIS system to 
        ensure real time access of data. Currently, the State 
        Department runs the SEVIS data through their own system instead 
        of using the secured Internet-based interface. In some 
        instances, this has caused data loss.

        <bullet> LThe Social Security Administration (SSA) should be 
        granted access to SEVIS to allow SSA officials to verify 
        information for work authorization before issuing Social 
        Security numbers to F-1 and J-1 visa holders.

        <bullet> LWith respect to openness in research, reaffirm and 
        strengthen National Security Decision Directive 189 (NSDD 189).

    Mr. Chairman, I would like to thank you and the Members of the 
Science Committee for holding this hearing on the development and 
implementation of SEVIS and the impact on education and research on 
U.S. campuses. I wish to assure you and the Members of this committee 
our strong commitment to the implementation of SEVIS. But, to do this, 
we ask that our campuses be given the tools and the regulatory guidance 
to achieve this goal while ensuring that international student and 
scholars are not discouraged from study and research in the U.S. Thank 
you for the opportunity to testify this morning.
    On behalf of:
Alliance for International Educational and Cultural Exchange

American Association of Community Colleges

American Association of Higher Education

American Association of University Professors

American Council on Education

American Dental Education Association

APPA: The Association of Higher Education Facilities Officers

Association of American Medical Colleges

Association of American Universities

Association of Catholic Colleges and Universities

Association of Community College Trustees

Association of Governing Boards of Universities and Colleges

Association of International Education Administrators

Association of Jesuit Colleges and Universities

Council for Advancement and Support of Education

Council for Opportunity in Education

Council of Graduate Schools

Council of Independent Colleges

Educational Testing Service

Hispanic Association of Colleges and Universities

NAFSA: Association of International Educators

National Association for Equal Opportunity in Higher Education

National Association of College and University Business Officers

National Association of Independent Colleges and Universities

National Association of State Universities and Land-Grant Colleges

National Association of Student Financial Aid Administrators

National Collegiate Athletic Association

National Council for Community and Education Partnerships

National Council of University Research Administrators

The College Board

United States Student Association

University Continuing Education Association

                        Biography for David Ward
    A leading spokesperson for American higher education, David Ward 
became the 11th President of the American Council on Education on 
September 1, 2001. Ward is Chancellor Emeritus of the University of 
Wisconsin-Madison, where he received his doctorate in 1963. Prior to 
becoming Chancellor at UW-Madison, Ward also served as Associate Dean 
of the graduate school from 1980 to 1987 and as Vice Chancellor for 
Academic Affairs and Provost from 1989 to 1993.
    Ward's service to higher education includes the chairmanship of the 
Board of Trustees of the University Corporation for Advanced Internet 
Development, a nonprofit group that spearheaded the development of 
Internet 2. He also has chaired the Government Relations Council of the 
National Association of State Universities and Land-Grant Colleges, and 
served on the Committee on Undergraduate Education of the Association 
of American Universities, the Science Coalition, and the Kellogg 
Commission on the Future of State and Land-Grant Universities.
    During his four years as provost of UW-Madison, Ward led the 
development of a strategic plan that improved the quality of 
undergraduate education there; added to the campus research facilities; 
enhanced the connections between the university, the city, the business 
community, and the state; and creatively combined public and private 
support for the institution. These changes gave new expression to the 
Wisconsin Idea, the venerable philosophical framework for the 
university's role in public service and knowledge transfer.
    Ward also held the Andrew Hill Clark Professorship of Geography at 
the university, served as Chair of the Geography Department from 1974 
to 1977, and was President of the Association of American Geographers 
in 1989. As an urban geographer, he pioneered research on English and 
American cities during their rapid industrialization in the 19th and 
early 20th centuries, and held visiting appointments at University 
College London; The Australian National University, Canberra; Hebrew 
University, Jerusalem; and at his undergraduate alma mater, the 
University of Leeds.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you, Dr. Ward. Dr. Tilghman.

  STATEMENT OF DR. SHIRLEY M. TILGHMAN, PRESIDENT, PRINCETON 
                           UNIVERSITY

    Dr. Tilghman. Good morning, Chairman Boehlert, Ranking 
Member Hall, and Members of the House Science Committee. I want 
to thank all of you for holding this very important hearing to 
consider the impact of the post-September the 11th changes in 
the international student and scholar visa program on research 
and education in the United States.
    In my written testimony, I had discussed our experiences 
and concerns at Princeton in some detail. In my few minutes 
this morning, I would like to highlight just a few points from 
that testimony.
    First, and most importantly, the events of the past two 
years have made all of us more aware of the need to consider 
the national security implications of our work and daily 
activities. Higher education and scientific communities have 
been responsive to the call to think carefully about security 
issues in our research laboratories. As Chairman Boehlert said 
so clearly a few minutes ago, in doing so, we are trying to 
balance two exceedingly important objectives: to minimize the 
risks that our laboratories and the materials that are 
contained in them will be used for terrorist actives, and to 
maximize the likelihood that the American scientific enterprise 
will continue to flourish, as it has for the last 50 years, to 
our great benefit as a country.
    I am not going to repeat in my remarks many of the wise 
things that Dr. Ward said about the importance of the United 
States continuing to welcome scientists from outside the United 
States to train in this country, to take advantage of the best 
scientific education in the world, and to both stay in this 
country as well as to go back to their own countries and spread 
the value of American education system, the quality of our 
scientific education to improve their lot. As I think you know, 
a third of doctoral degrees in science and engineering are 
awarded in the U.S. each year to foreign nationals as well as 
40 percent of the doctoral degrees in engineering and computer 
science earned by foreign students. I was one of those foreign 
students 25 years ago, and I have benefited enormously from the 
education I received in this country and the opportunity that I 
have had to practice science for the last 25 years in the 
country.
    Of particular concern to me is the impact of our national 
policies and procedures on our capacity as a Nation to continue 
to attract the very best students and scholars from around the 
world. These individuals, by virtue of their quality, have 
options, have opportunities to study anywhere in the world. I 
really believe that if this country is to sustain its 
international leadership role in science and technology, it 
must continue to engage the very best students and scholars 
from around the world.
    Let me briefly outline some of the concerns about our 
current procedures, many of them Dr. Ward has already 
mentioned. The first concern is with guidance that is currently 
provided by consular officials, making it almost certain that 
students and scholars with interests in science and engineering 
will experience difficulties, or at least delays, in obtaining 
visas no matter how non-threatening the work is likely to be. 
In biology, my own field, for example, it would be a very rare 
applicant who did not mention at least one of the key words or 
phrases on the cheat sheets the consular officials have been 
advised to use in conducting their interviews.
    At Princeton, we have advised our students to build in the 
time for delays, but even so, we have had a number of cases 
that have been very difficult to resolve. Other universities 
report similar delays, especially from individuals from Russia, 
China, and the Middle East who wish to study particularly in 
the physical sciences, computer sciences, and in engineering.
    In some ways, as Dr. Ward just mentioned, we have an even 
greater concern for the students who have already begun their 
studies in the United States and then find that they have 
difficulty leaving the country, either to attend scientific 
meetings, or to visit their families, and then find that there 
are extended delays in their ability to re-enter the United 
States after their visits outside the country. This has the 
complication of interrupting their academic work, and because 
many of the graduate students are also teaching, interrupting 
their responsibilities for teaching at the universities. We 
would strongly recommend that a consideration be given to re-
instituting a pre-approval or a pre-certification program that 
would allow these students to leave the country temporarily 
knowing that they will be able to return in a prompt and 
effective manner.
    The proposed new IPASS system could address many of the 
problems with the current non-immigrant visa program by 
referring very sensitive cases to individuals with appropriate 
scientific expertise that could help distinguish between those 
who are going to study in areas that are likely to be sensitive 
from those who are likely not to be studying in those kinds of 
areas. It seems that IPASS is an opportunity, but it is also a 
risk that it will, instead of expediting visas, just give an 
opportunity to add another layer of review onto the process. 
Because we have very little information about IPASS, it is 
difficult at this time to judge whether it is in fact going to 
be a helpful or an unhelpful addition to the system.
    I will not say anything about SEVIS. I think that Mr.--Dr. 
Ward has, I think, very clearly indicated the difficulties that 
individual universities are facing with SEVIS. It has been 
difficult for us to set this up. And we are a university that 
only has 1,200 foreign students all together: 350 at the 
undergraduate level, and about 850 at the graduate level. 
Nevertheless, we have had considerable expense. We have had to 
add personnel just to monitor this system. And we have run into 
precisely the same kinds of technical glitches that Dr. Ward 
has already enumerated.
    Let me conclude by re-emphasizing that the higher education 
community understands the need for increased scrutiny, and we 
welcome and wish to work with the State Department, the INS, 
and the new Department of Homeland Security to develop a more 
effective and efficient screening procedure. Since we work on a 
daily basis with international students, we are in a position 
to understand both the needs of those students and scholars and 
the vulnerabilities of the current system. We look forward to 
learning more about the new Department of Homeland Security and 
its plans regarding the student and scholar visa system, and we 
ask the Department to include us in the dialogue on these and 
other issues. Thank you.
    [The prepared statement of Dr. Tilghman follows:]
               Prepared Statement of Shirley M. Tilghman
    Good morning Chairman Boehlert, Ranking Member Hall and Members of 
the House Science Committee. Thank you for holding this very important 
hearing to consider the impact of post-September 11th changes in the 
international student and scholar visa program on research and 
education in the United States.
    The events of the past two years have made us all more aware of the 
need to consider the national security implications of our work and 
daily activities. The higher education and scientific communities have 
been responsive to the call to think carefully about security issues in 
our research laboratories. In doing so, we are trying to balance two 
exceedingly important objectives: to minimize the risk that our 
laboratories and the materials in them will be used for terrorist 
purposes, and to maximize the likelihood that the American scientific 
enterprise will flourish. America's economic, political and military 
strengths are rooted in its leadership in the worlds of science and 
technology and in the freedom of thought and expression that are at the 
core of our democracy and of our approaches to research and teaching.
    As was so clearly articulated in the Hart-Rudman report, Road Map 
for National Security: Imperative for Change, a robust system of 
research and education is our greatest defense against terrorism. The 
report calls the current investment in research and development a 
``consumption of the capital'' of the past three generations, pointing 
out that ``the U.S. need for the highest quality human capital in 
science, mathematics, and engineering is not being met.'' It goes on to 
explain that:

        L``American students know that professional careers in basic 
        science and mathematics require considerable preparation and 
        effort, while salaries are often more lucrative in areas 
        requiring less demanding training. Non-U.S. nationals, however, 
        do find these professions attractive and, thanks to science, 
        math and technical preparation superior to that of many 
        Americans, they increasingly fill American university graduate 
        studies seats and job slots in these areas.''

    So, while we make national and institutional efforts to attract 
American students to careers in science and work to improve K-12 
education to produce more Americans who have the capabilities necessary 
to excel in science and mathematics, we turn to international students 
and scholars to fill the widening gap between supply and demand for 
U.S. scientists and engineers. These foreign scientists and scholars 
make many critical contributions to the American scientific and 
education enterprise. They bring a wealth of knowledge and experience 
to our colleges and universities and they enrich the cultural diversity 
of our campuses. Given the global nature of business, the economy, 
education and the scientific enterprise, cultural diversity on our 
campuses pays important dividends to our entire society; it is 
imperative to the future success of our graduates and the international 
leadership and stability of our nation.
    Foreign-born scientists have, for more than 50 years, helped the 
U.S. achieve the preeminence in science and technology that has led to 
our strong economic growth and long-term national security. Almost 20 
percent of the distinguished scientists and engineers who are members 
of the National Academy of Sciences, and more than a third of U.S. 
Nobel Laureates, are foreign born. I, too, am a foreign-born scientist, 
having been raised and educated in Canada prior to my graduate studies 
at Temple University. According to the 2002 Science and Engineering 
Indicators, nearly a third of the doctoral degrees in science and 
engineering awarded in the U.S. each year go to foreign nationals, with 
well over 40 percent of the doctoral degrees in engineering and 
computer science earned by foreign students. Two-thirds of foreign 
students who receive a Ph.D. in science or engineering stay in the 
U.S., taking positions in academia and industry, and nearly 40 percent 
of the current U.S. engineering faculty is foreign-born.
    Despite the important contributions that foreign students and 
scholars have made and continue to make to U.S. advances in science and 
technology, we are all painfully aware that at least three of the 19 
September 11th hijackers were attending U.S. flight schools on student 
visas when they committed their heinous acts. And we know from the 1993 
bombing of the World Trade Center that others exploited weaknesses in 
the student non-immigrant visa program and were in this country on 
expired student visas when they committed their crime. In the wake of 
the September 11th attacks, there has been increased oversight of the 
student and scholar visa program resulting in new legislation and 
regulations in this area.
    Most notable among the changes in the student/scholar visa program 
are: 1) expansion of the Technology Alert List (TAL) to include the 
biological sciences and urban planning as Critical Fields of Study; 2) 
guidance to consular officers that restrictions on the export of 
controlled goods and technologies (the TAL) apply to nationals of all 
countries and not just to those who are from state sponsors of 
terrorism; 3) guidance that consular officers are not expected to be 
versed in all fields on the TAL, but should ``listen for key words or 
phrases from the Critical Fields list'' while interviewing applicants; 
and 4) elimination of time limitations on decisions by the State 
Department to suspend the processing of a student visa request. Each of 
these changes has increased the number of cases that are referred to 
the State Department and other federal agencies for additional 
screening and security approval, and the increased case load has 
resulted in prolonged processing time for nearly all student visa 
applications.
    While I understand the reasons behind these changes in regulations 
and enforcement, I am concerned about the lack of clarity in the 
regulations and the lack of training for consular officers to interpret 
them. For example, an October 2001 cable encouraged consular officers 
to post ``cheat sheets'' at interview windows so that staff can become 
familiar with the contents of the Critical Fields List. Consular 
officers are reminded that ``restrictions on the export of controlled 
goods and technologies apply to nationals of all countries'' and are 
told directly that they are not expected to be versed in all the fields 
on the list. Rather, they should ``shoot for familiarization and listen 
for key words or phrases from the list in applicants' answers to 
interview questions.''
    In the category of chemical, biotechnology and biomedical 
engineering, for example, the Critical Fields List notes that ``the 
same technologies that could be applied to develop and produce chemical 
and biological weapons are used widely by civilian research 
laboratories and industry'' and that ``advanced biotechnology has the 
potential to support biological weapons research.'' The list then goes 
on to name nearly every conceivable field and subfield within biology 
so that it would be almost impossible for a foreign national to 
describe his or her area of study without using several of the terms on 
the list, including biochemistry, bacteriology, microbiology, growth 
and culturing of microorganisms, genetic engineering, recombinant DNA 
technology, fermentation technology and immunology. The non-specific 
nature of this list and the obvious lack of expertise and training 
among consular officers raise serious concerns about the efficacy of 
this program and about our future capacity as a country to attract 
foreign graduate students and scholars to science and engineering 
programs.
    While the higher education community fears that increased screening 
requirements and delays in the visa application process will have a 
significant negative impact on the recruitment and retention of foreign 
students and scholars, a look at the current data reveals that beyond a 
few difficult cases, the business of higher education has not yet 
changed significantly as a result of changes in the visa program. At 
Princeton, international students have accounted for approximately 43 
percent of our total graduate student population last year and this 
year. (Since the size of our graduate student population has increased, 
so too has the number of international students.) Our undergraduate 
international student population has also increased over the past few 
years, from 6.0 percent in 2001 to 6.9 percent in 2002 and 7.5 percent 
in 2003. While we have had some difficulties at the undergraduate 
level, these students generally are not subjected to the same level of 
scrutiny as graduate students or scholars when applying for visas.
    A recent survey of Ivy League universities revealed that some 
institutions experienced slight decreases in international graduate and 
professional student populations between 2001 and 2002, while others 
experienced slight growth. Even among those reporting decreases, it is 
hard to know how much is the result of real or perceived difficulties 
in obtaining visas. These data suggest that while individual students 
almost certainly have experienced difficulties--or at least delays--in 
obtaining visas, the overall number of international students at these 
institutions has remained relatively stable.
    At Princeton, like many other U.S. universities, we find the 
largest concentration of international students in the sciences and 
engineering, along with a handful of other departments (in our case 
Economics and our Woodrow Wilson School of Public and International 
Affairs). In fact, Economics has the second largest concentration of 
international graduate students, following only Electrical Engineering 
and just ahead of Chemistry. Our international student population in 
the life sciences is relatively low (roughly 20 percent), but this is 
largely because of citizenship requirements for NIH graduate training 
grants, the largest source of support for our graduate students in the 
life sciences.
    In general, Princeton has responded to changes in the visa 
application process by instructing international students to apply 
early and build in time for delays. Still, we have had a number of 
cases that have been particularly difficulty to resolve.
    During the 2002-2003 academic year, two undergraduate students had 
difficulty getting their F-1 visas, but ultimately did receive them 
(although after the academic year had started). Among our graduate 
students, one engineering student was delayed by a semester (requiring 
an exception to our Fall-only admissions practice) and an Iranian 
Visiting Student Research Collaborator in chemical engineering has been 
waiting for over four months for a visa. Among our international 
scholars, a Russian and a Libyan-born British engineer experienced 
delays of several months in obtaining visas and a Russian physicist who 
applied for his visa in mid-January is still waiting for permission to 
enter the U.S. An Iranian chemist who applied for a visa in October 
never succeeded in obtaining his visa. Other universities around the 
country report similar delays for some of their students or scholars, 
especially among individuals who are from Russia, China or the Middle 
East and who wish to study in the physical or computer sciences or 
engineering.
    In addition to students and scholars who must endure prolonged 
delays in getting their visas, institutions also have been coping with 
students and faculty who are already in the U.S. but who leave the 
country to attend professional meetings or family events abroad. These 
individuals are experiencing prolonged waiting times (six weeks to 
several months) when they try to secure the necessary visa to re-enter 
the U.S. During the recent winter break there were four engineering 
graduate students from Princeton who traveled abroad and had difficulty 
re-entering the country. Among the four, one (a Chinese student in 
physics) has returned, while three (a Malaysian electrical engineering 
student, a Chinese mechanical engineering student, and a Chinese civil 
engineering student) are still awaiting their visas to return. Our 
colleagues around the country indicate that they, too, are experiencing 
similar difficulties.
    These cases of delayed re-entry are even more problematic than the 
delays experienced by ``first-time'' students and scholars because 
students or scholars who have already been in residence are generally 
scheduled to teach classes or continue ongoing research upon their 
return. Also, questions related to salary and benefits arise when 
students or scholars experience prolonged delays in obtaining their 
return visa, especially when the student or scholar is being paid and 
receiving benefits through federal research grants. For example, an 
international scholar may leave the country to attend a four-day 
meeting abroad, only to find that his or her re-entry is delayed by 
more than six weeks while the re-entry visa application is being 
processed. The individual may be able to use several weeks of vacation 
leave to cover time away from work, but the delay often exceeds the 
accumulated leave by many weeks. The most troubling cases involve 
international scholars detained outside the U.S. while their families--
often including spouses who do not have permission to work in the 
U.S.--await their return in the U.S. These difficulties are exacerbated 
if salary must be withheld and benefits interrupted as a result of the 
re-entry delay.
    In earlier times, a university could apply for advance pre-approval 
for international students and scholars who would be traveling abroad 
but then re-entering the U.S. This pre-approval allowed the student or 
scholar to undergo security clearance before he or she left the U.S., 
thereby minimizing the waiting time during the re-entry approval 
process at the foreign consulate. A similar pre-approval or pre-
certification process for foreign students or scholars already in the 
U.S. would help enormously in reducing the re-entry waiting period and 
in providing scholars with much greater confidence about their ability 
to re-enter the U.S. after they fulfill their professional obligations 
by participating in scientific meetings and collaborations abroad.

H1-B Visas

    Another area in which the university has been forced to change its 
practices and policies to accommodate prolonged screening and approval 
processes is in the H1-B visa program. Following September 11th, the 
processing time for H1-B visa applications has grown to four or five 
months. This means that hiring decisions and contract extension 
decisions have to be made far in advance to ensure that the visa will 
be processed in time for an H1-B worker to enter or stay in the U.S. 
Rather than make hiring and extension decisions based on our 
institutions' needs at a particular time or based on an informed 
performance assessment of an individual, we have to anticipate our 
needs and an individual's performance in advance so that we can allow 
adequate time for processing the visa. The INS does provide for 
expedited H1-B visa processing when a $1,000 premium processing fee is 
paid, but this fee strikes many in the higher education community as 
unjust and inappropriate. Moreover, this practice extends the waiting 
period for those who cannot or choose not to pay $1,000 for premium 
processing.

IPASS

    In May 2002, White House officials proposed a new international 
student and scholar screening program that would create a panel, the 
Interagency Panel on Advanced Science Security (IPASS), to screen some 
graduate students, post-doctoral fellows and scientists who apply for 
visas to study ``sensitive topics. . .uniquely available on U.S. 
campuses.'' The panel would include representatives from the major U.S. 
science agencies as well as the State, Justice, Commerce and Homeland 
Security Departments. IPASS could solve some of the problems and 
deficiencies in the current non-immigrant visa program. For example, an 
IPASS panel made up of individuals with scientific expertise could 
better evaluate the potential for technology transfer than a non-
scientist consular officer who is relying on a broad, uninformative 
list of terms to make that decision. Secondly, by sending the most 
difficult or questionable applications to IPASS, consular officers 
could process the less questionable applications more quickly, thereby 
reducing the backlog and delays for the majority of applicants. The 
creation of IPASS also provides an opportunity for the new Department 
of Homeland Security to work with scientific agencies and, we hope, 
institutions of higher education to develop a student and scholar visa 
screening program that could better differentiate between those with 
malicious intent and those who would contribute productively while in 
the U.S. We look forward to conversations with the new Department of 
Homeland Security on this and other issues in the near future and hope 
that IPASS will provide an opportunity for constructive partnership.
    On the other hand, IPASS could add yet another layer of bureaucracy 
to an already burdensome process and the visa backlog could grow even 
longer. Even though the IPASS system was announced nearly a year ago, 
details of the program have not yet been released. Not only are 
university officials waiting to see what IPASS holds for them, but 
foreign students and scholars are similarly concerned about what 
restrictions and regulations this new program might entail. The absence 
of information about IPASS could dissuade excellent international 
students from applying to U.S. institutions for fear that this new 
system will impose additional burdens and delays. We know that other 
countries are working hard to develop higher education systems that 
mirror the U.S. system, and the more difficult we make it for highly 
desirable students and scholars to obtain American visas, the greater 
the likelihood that the ``best and brightest'' students and scholars 
throughout the world will elect to study and work in other countries.

SEVIS

    The Student and Exchange Visitor Information System (SEVIS) is the 
web-based system that is being used to meet the Immigration and 
Naturalization Services (INS) information reporting and tracking 
requirements for foreign students. Although we have anticipated the 
system since 1996 when Congress directed the INS to develop an 
electronic system to collect data on foreign students, the 
implementation of the system was fast-tracked in response to the USA 
PATRIOT Act (P.L. 107-56, October 26, 2001), which required full 
implementation of the system by January 1, 2003. While Princeton is 
fully supportive of SEVIS and the transition from an outdated paper 
tracking system to an electronic format, there seem to be a number of 
serious bugs in the system.
    The March 2003 report issued by the U.S. Department of Justice 
Office of the Inspector General provides an informative review of the 
SEVIS program and outlines the major difficulties associated with full 
implementation of the program. Rather than repeat that discussion, I 
will talk about our own experience in implementing SEVIS and using the 
system to track and report on international students and scholars.
    In order to comply with the requirements of SEVIS, Princeton has 
spent over $38,000, including $15,000 to purchase software to 
facilitate batch transfer of data, $5000 for a new server, and 
thousands of dollars more for maintenance agreements, test servers and 
added personnel costs. While we thought that the implementation of 
SEVIS would be a ``one time'' cost, we are actually finding that SEVIS 
is far from being ``plug and play'' technology and we are seeing rising 
personnel costs associated with using the system. Implementing SEVIS on 
our campus required weeks of effort on the part of our Office of 
Information Technology, our Office of General Counsel, and our 
undergraduate and graduate international student services offices. 
Eventually, we had to assign a technical expert from our Office of 
Information Technology to focus primarily on maintaining our SEVIS 
reporting system.
    Although the initial SEVIS program was fraught with software bugs 
and glitches, INS has been working hard to develop patches to fix the 
programming problems. But every time INS develops a new patch for its 
software, we have to wait for our batch processing software vendor to 
develop a corresponding patch that we must then install. At some point 
we anticipate that an upgrade will be necessary to the SEVIS system and 
that we will have to make an additional purchase of upgraded batch 
processing software.
    Beyond cost, the implementation of SEVIS has been extremely 
frustrating to the people on our campus who work with international 
students and scholars. For lack of a better word, the SEVIS system is 
``quirky,'' especially when the user volume is high (afternoons are the 
most difficult since both East Coast and West Coast institutions are 
using the system). While the paper INS forms previously required 5-10 
minutes to complete, the SEVIS system can take up to 30 minutes per 
individual, especially on days when the program is running slowly. 
Sometimes the system kicks the data entry person out just as he or she 
is about to complete the web-based form, and all of the information is 
lost. At other times the data entry person is interrupted by a phone 
call or a student while entering data and the system automatically logs 
the user out, requiring the user to log-in again and re-enter all of 
the data. Other institutions have reported difficulties retrieving 
their institutional data from SEVIS, sometimes receiving another 
institution's data during a retrieval attempt.
    Beyond system difficulties, SEVIS also has some substantive 
deficiencies in that it is missing fields and options that correspond 
to certain INS policies and regulations. For example, institutions are 
allowed to provide a J-1 scholar with an extra six-month extension as 
long as INS is notified of the extension. However, in the SEVIS system 
institutions are required to request authorization of the extension 
from the State Department. Since the SEVIS procedure is inconsistent 
with current INS policy, either the policy must be changed or the SEVIS 
system must be corrected so that our staff know how to proceed. Also, 
while SEVIS provides a way to report practical training experiences for 
F-1 visa holders, there is no similar reporting field in the J-1 
program for students participating in academic training experiences. 
Finally, there are some reporting functions that cannot be transmitted 
to INS as part of a batch data transmission due to gaps in the SEVIS 
software system. Information about transfer students, for example, must 
be entered manually for each student and cannot be transmitted to INS 
as part of a batch data transfer. While Princeton has no transfer 
students, we appreciate the hardships imposed by this software gap on 
institutions that do have a large transfer student population.
    SEVIS provides customer support through users' guides and a help 
desk, but both have deficiencies. Our staff finds the F visa manual to 
be quite good, while the J visa manual is poorly written and missing 
key information. The help desk operates from 8 a.m. to 8 p.m. EST, but 
since there are only 32 people staffing it, the wait time can exceed 30 
minutes. Beyond that, the help desk can only answer technical questions 
related to programming problems and cannot provide advice in the area 
of policy, regulations or procedures. Questions of this sort must be 
directed to the State Department, but sometimes the State Department 
staff members are unfamiliar with the capabilities of the SEVIS system. 
Since the most difficult questions have both policy and programming 
elements, the help desk should be staffed by individuals who are 
knowledgeable not only about the SEVIS software, but also about INS 
regulations and requirements.
    In summary, I want to re-emphasize that the higher education 
community understands the need for increased scrutiny of those applying 
to enter our country on student and scholar visas. We would like to 
work with the State Department, INS and the new Department of Homeland 
Security to develop a more effective and efficient screening procedure. 
Since we work with international students and scholars every day, we 
are in a position to understand both the needs of students and scholars 
and the vulnerabilities of the current system. We look forward to 
learning more about the new Department of Homeland Security and its 
plans regarding the student and scholar visa system and we ask the 
Department to include us in its dialogue on this and other issues. We 
commend the State Department for its work in this area and are 
encouraged to hear that the Department is adding personnel and re-
examining its procedures in an attempt to reduce the backlog and 
expedite visa processing while maintaining high security standards. 
While the backlog troubles us, we know that consular officers and State 
Department officials have experienced dramatic increases in workload 
and we appreciate their current efforts to reduce the backlog and 
expedite visa processing while improving national security.
    Thank you. I welcome questions regarding my testimony.

                   Biography for Shirley M. Tilghman
    Shirley M. Tilghman was elected Princeton University's 19th 
President on May 5, 2001, and assumed office on June 15, 2001. An 
exceptional teacher and a world-renowned scholar and leader in the 
field of molecular biology, she served on the Princeton faculty for 15 
years before being named President.
    Tilghman, a native of Canada, received her Honors B.Sc. in 
chemistry from Queen's University in Kingston, Ontario, in 1968. After 
two years of secondary school teaching in Sierra Leone, West Africa, 
she obtained her Ph.D. in biochemistry from Temple University in 
Philadelphia.
    During postdoctoral studies at the National Institutes of Health, 
she made a number of groundbreaking discoveries while participating in 
cloning the first mammalian gene, and then continued to make scientific 
breakthroughs as an independent investigator at the Institute for 
Cancer Research in Philadelphia and an adjunct associate professor of 
human genetics and biochemistry and biophysics at the University of 
Pennsylvania.
    Tilghman came to Princeton in 1986 as the Howard A. Prior Professor 
of the Life Sciences. Two years later, she also joined the Howard 
Hughes Medical Institute as an investigator and began serving as an 
adjunct professor in the Department of Biochemistry at the University 
of Medicine and Dentistry of New Jersey-Robert Wood Johnson Medical 
School. In 1998, she took on additional responsibilities as the 
founding director of Princeton's multidisciplinary Lewis-Sigler 
Institute for Integrative Genomics.
    A member of the National Research Council's committee that set the 
blueprint for the U.S. effort in the Human Genome Project, Tilghman 
also was one of the founding members of the National Advisory Council 
of the Human Genome Project Initiative for the National Institutes of 
Health.
    She is renowned not only for her pioneering research, but for her 
national leadership on behalf of women in science and for promoting 
efforts to make the early careers of young scientists as meaningful and 
productive as possible. She received national attention for a report on 
``Trends in the Careers of Life Scientists'' that was issued in 1998 by 
a committee she chaired for the National Research Council, and she has 
helped launch the careers of many scholars as a member of the Pew 
Charitable Trusts Scholars Program in the Biomedical Sciences Selection 
Committee and the Lucille P. Markey Charitable Trust Scholar Selection 
Committee.
    From 1993 through 2000, Tilghman chaired Princeton's Council on 
Science and Technology, which encourages the teaching of science and 
technology to students outside the sciences, and in 1996 she received 
Princeton's President's Award for Distinguished Teaching. She initiated 
the Princeton Postdoctoral Teaching Fellowship, a program across all 
the science and engineering disciplines that brings postdoctoral 
students to Princeton each year to gain experience in both research and 
teaching.
    Tilghman also has participated in teaching and other programs for 
alumni on campus and across the country on such topics as science and 
technology in the liberal arts curriculum, behavioral genetics and the 
human genome project.
    A member of the American Philosophical Society, the National 
Academy of Sciences, the Institute of Medicine and the Royal Society of 
London, she serves as a Trustee of the Jackson Laboratory, a mammalian 
genetics institute in Bar Harbor, Maine. She has also been a trustee of 
Rockefeller University in New York, Cold Spring Harbor Laboratory on 
Long Island, a member of the Advisory Council to the Director of the 
National Institutes of Health and a member of the Scientific Advisory 
Board of the Whitehead Institute for Biomedical Sciences at the 
Massachusetts Institute of Technology.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Boehlert. Thank you very much. You know terrorism 
wasn't invented on 9/11 in New York and Washington. It has been 
around for a long time. Unfortunately, up until then, we 
escaped it on our shores, but it has been a fact of life in so 
many other nations for a long time. How are they coping with it 
in terms of student visas, visiting scholars? Do we have any 
comparative analysis? Dr. Ward and Dr. Tilghman, do your 
visiting scholars report that it is so much more complicated 
here than it might be in Germany, or the United Kingdom, and 
Japan, etcetera, etcetera? Could you address that question?
    Dr. Ward. Yeah. I mean, I think most other nations have 
systematic arrangements and good data systems. I think the 
problem is that the scale is so different. The scale is 
manageable. We have a horrendous scale of immigration. Remember 
the visas that we are talking about are only 1.6 percent of all 
visas issued in the United States, but all of those visitors 
visas, too. So the sheer scale of visa processing is enormous.
    The second thing I would argue is our system had broken 
down before 9/11. When I came to this country in 1960, it was a 
very effective screening process, which worked well between the 
State Department and INS. But during the period of the '80's, 
either because of under-funding, because of preoccupation with 
drug trafficking, will illegal immigration, INS was really not 
focusing on student visas, so it was a very badly broken system 
before 9/11 and needed to be improved. So it is A, scale, and 
in other countries, the scale is smaller. And B, they are never 
broken down. Our system had broken down irrespective of 9/11, 
and its scale is just so staggering. And to recreate it, the 
scale is proving to be a bigger problem than we expected.
    Dr. Tilghman. I agree with what Dr. Ward said.
    Chairman Boehlert. Let me ask you, Ms. Jacobs, for most 
visa processors that--is their first assignment abroad 
someplace? What is the buzz within the consular office 
community? Are they being excessively cautious now because of 
some potential personal liability?
    Ms. Jacobs. I think it would be safe to say that after 9/11 
that consular officers in the field are perhaps more cautious 
than they were in the past. I think that that same thing 
applies, though, back here at home with the agencies reviewing 
these cases. I mentioned in my testimony that the number of 
refusals for technology transfer grounds has increased. But I 
think it is fair to say that in the post-9/11 environment that 
consular officers looking at the Technology Alert List that we 
give them, looking at the sort of definitions that we give them 
to guide them, because these are not scientific experts, and we 
do have to give them some kind of guidance on what they should 
be looking for. I think that if they have a question about a 
case, that they probably do refer it back to Washington. We 
are, as you know, under a lot more scrutiny after 9/11. And I 
think that the consular officers in the field are feeling that 
and feel that they have an obligation to do that.
    Chairman Boehlert. Do you have any specialized training you 
have added to their program?
    Ms. Jacobs. They get training on this as they go through 
our consular training class on all of the different grounds of 
ineligibility under the Immigration Act. And they do spend some 
time talking about this and the Technology Alert List and what 
it means. Let me just say that officers, and many of them are, 
as you said, sir, first tour officers. But at the larger posts, 
at least, many of them do have people there that they can talk 
to if they have a science attache. There may be others at post 
that they can talk to about a case, if they do have questions, 
which might eliminate the need to send something back here for 
a clearance. But I would say that certainly the numbers coming 
back for clearances, at this point, the numbers have increased 
over the last 16 to 18 months.
    Chairman Boehlert. If they have a science attache. That is 
another story for another day. We shouldn't have an embassy any 
place in the world that doesn't have a science attache for a 
whole lot of reasons, but that is another subject for another 
day.
    What is your prognosis for the backlog?
    Ms. Jacobs. I think the backlog is the result of a number 
of things that happened, more or less, at the same time. I 
think the fact that we had to implement a lot of these security 
procedures on very short notice. As I mentioned before, in 
ordinary times, we would look at a problem and try to do things 
slowly so that they make sense. After 9/11, we were under a 
great deal of pressure to implement a lot of security measures 
very quickly. And the--I think the resources of all of the 
Washington agencies involved in this process were strained. I 
think that most of the agencies have now at least added 
additional resources. There are, I think, a lot of automation 
issues, a lot of, perhaps, outdated technology issues that come 
into play. But I think the simple answer is that we simply--the 
infrastructure was not there at the beginning to handle this. 
We are sorting through it now. I think we are doing much 
better. But there is a group of cases from, I want to say, 
early summer of last year where a lot of cases were held up 
because of changes of--in procedures, changes in personnel, and 
we are still dealing with a certain number of cases from that 
time period. But the cases that are coming in today, especially 
the Visas Mantis cases, if there is no problem, if we have no, 
you know, negative information from another agency, we can get 
those processed within 30 days.
    Chairman Boehlert. So you feel we are making significant 
progress?
    Ms. Jacobs. I think we are making progress. I--in some 
areas, I think it is significant. In others, we still have a 
ways to go.
    Chairman Boehlert. My time is up, but I will have a second 
round of questions. Mr. Hall.
    Mr. Hall. Ms. Jacobs, I don't have any problem with your 
problems. I want you to be thorough. And I lived in a day and 
time when your State Department, my State Department, moved the 
Japanese away from the West Coast here. Perhaps if they had had 
the information that we have today about computers or had Tom 
Ridge leading the Homeland Security with the information that 
he has, much of that would have been done more on a personal 
basis, rather than on just categorizing everybody with the same 
sweep of the same brush.
    Today, you have a delay. There is no question about that. I 
don't think there is any question that it is 9/11 spawned that 
that caused us to be in terror. And Roosevelt, back in that day 
and time, said the only thing we had to fear was fear itself. 
Well, we live in fear today in this country. We live in fear, 
because our government tells us at any moment that we might be 
hit again with an act of terrorism. And of course, we have to 
believe that. I would like to believe what we are doing is 
working, because they look at my card twice, get the dogs after 
it once, then the mirror, and then they make me show my ID. And 
we have not had an event since that time, so perhaps you and 
your State Department are doing a great job for us. I hope 
that, and I believe that, and I want to believe that.
    But I must ask you that is this situation the result of new 
policies, the slowness there, or procedures that have been 
instituted after 9/11? Obviously they are.
    Ms. Jacobs. Yes, I--primarily because of all of the new 
procedures that were implemented after 9/11, just the sheer 
volume----
    Mr. Hall. Yes.
    Ms. Jacobs [continuing]. Of cases coming back now for 
review.
    Mr. Hall. And as the Chairman suggested, we have been 
terrorist friendly for probably the last 15 or 20 years here, 
or maybe longer than that. So that places a terrific burden on 
you. And but are we seeing a temporary effect as the system 
adjusts to the new ground rules that you all are setting out, 
or is this likely to become a permanent situation?
    Ms. Jacobs. We are doing everything we can to keep this 
from being a permanent situation. The State Department really 
is committed to trying to balance the responsibilities that we 
have to protect borders, but also to facilitate legitimate 
travel. And we certainly--we have met with the scientific and 
academic communities. We have talked about this. We really do 
understand their concerns. I don't think anyone involved in 
this process wants this to be a permanent situation.
    Mr. Hall. Then if it is not--if it is temporary, of course, 
we would want to know what steps are being taken to streamline 
the visa requests and all of that and to rush it up. I am not 
doing that. That is not my hope nor my goal for you. I am glad 
that it is permanent, because I think it is going to be 
permanent. I think we can learn that from another country that 
has that permanent situation today. If it is permanent, has an 
assessment been made of the tradeoff between increased security 
and potential harm to the research and innovation capabilities 
of the Nation, or I guess maybe I could ask it another way. Dr. 
Ward told us what he wasn't going to go into, but let me tell 
you what I do want to go into. How can we lessen the classroom 
seats that are occupied by foreigners today and yet keep our 
nation abreast in the field of technology and science along 
with the intervention of the State Department and the 
guidelines you are setting forth? Are you carrying that--are 
you putting that in your computer as you go?
    Ms. Jacobs. Well, we are responsible for processing visas 
in accordance with the Immigration and Nationality Act.
    Mr. Hall. And with the rules we make up here in Congress.
    Ms. Jacobs. And you know, if someone is ineligible under 
one of the grounds of the Immigration and Nationality Act, then 
yes, we have the ability to deny the visa. But we wouldn't be 
able to deny a visa just to slow down the process.
    Mr. Hall. Well, Dr. Tilghman indicated that she was not 
upset with the percentage of foreign participation. I am and 
many Americans are. Many Americans who have sons or daughters 
that they think are qualified can't get in because those seats 
in those classrooms are occupied by foreigners. And surely, 
that is of some benefit to this country. I understand that. I 
understand it is a--we send students there. They send students 
here. I think 50 percent in the field of engineering is 
unreasonable, and I think that is a goal we ought to be trying 
to--a spear that we ought to be trying to blunt. And I hope the 
State--I thank you for what you have done in the State 
Department, and I don't disagree with your progress. I don't 
disagree with the time it is going to take. I want you to be 
thorough. I yield back my time.
    Chairman Boehlert. Thank you very much. The Chair 
recognized the distinguished Chairman of Subcommittee on 
Research, who has a vital interest and support in the subject. 
Mr. Smith.
    Mr. Smith of Michigan. Mr. Chairman, thank you, and Mr. 
Hall, for having this hearing. We have had sort of some 
questions in our Subcommittee on Research as we reauthorized 
the National Science Foundation. And as we discuss the 200 
million authorization to try to do a better job with our math 
and science students in this country. So sort of following up 
on Mr. Hall, you know, in the long-term, it seems like each one 
of our universities would consider it a priority to try to 
figure out what we are doing wrong or what we could do better 
in terms of our math and science interests and education from 
the four-year-old on up to the time they graduate from high 
school and go into college and sometimes get thrown out. 
Particularly, I mean, we have some of the great people in 
Michigan and other states, Dr. Tilghman, were foreign students 
that graduated and decided to stay in this country are, at 
Michigan State University, our Dean of Physics and Engineering, 
I think it is called, is--was a foreign student that came and 
did research. So I want to ask the question, Ms. Jacobs, on--
after they finish their doctor's degree, then I am told there 
is extra pressure for them to leave the country. And how does 
that play into consideration of flexibility in the Department--
in your Department?
    Ms. Jacobs. The student visas are considered a non-
immigrant visa, which means that for most of those applicants, 
there is a statutory presumption that they are intending 
immigrants until they present sufficient evidence to the 
consular officer of--that they are going to leave the United 
States after their authorized stay. And so that provision does 
apply to students. And so when they come in for their student 
visas, one of the things that the consular officer has to take 
a look at is this person going to come back after completing 
the studies in the U.S. As you can imagine, that is no easy 
task. Things change when people get here, etcetera. But it is 
something that the consular officers do have to look at. And if 
there is----
    Mr. Smith of Michigan. But do I understand you to say what 
they are looking at is do you promise to leave this country 
after you finish your education sort of----
    Ms. Jacobs. They would. Yes, they would look at that. They 
would try to look at within the context of the local, you know, 
economic social conditions. You know, is this person going to 
be able to, you know, study this particular field and then come 
back and, you know----
    Mr. Smith of Michigan. What do you mean come back? Come 
back where?
    Ms. Jacobs. Go back home to find a job.
    Mr. Smith of Michigan. See, I want to look at it a little 
more selfishly. If these are exceptional individuals that can 
help us either in the university level or in research and in 
commerce, I would like to keep them here.
    Ms. Jacobs. Many of them are able to stay. They are able to 
find a way to adjust to another status. Some of them marry 
American citizens, which allows them to stay. I mean, there are 
a number of things that can happen, but until that----
    Mr. Smith of Michigan. Well, Dr. Ward, can you--maybe you 
need to help facilitate those marriages.
    Ms. Jacobs. But----
    Mr. Smith of Michigan. Put your mike on.
    Dr. Ward. Oh, sorry. On the--I married a U.S. citizen, too, 
so I suppose I am an example of this. But I came on an exchange 
visitor visa, and that had a statutory necessity to leave. So 
I--just there are some visas where there is virtually no 
negotiation about leaving. On a student visa, I think under 
certain circumstances, the employer can make a case that the 
student can stay. So there are--it depends on the particular 
visa the foreign scholar comes in on.
    Mr. Smith of Michigan. Is that right, Ms. Jacobs?
    Ms. Jacobs. Yes. There--as I said, there are ways for 
people who come in with student visas to say. And with the 
exchange visitors, Dr. Ward is correct. There are certain 
categories of those exchange visitors that do--are supposed to 
go home for at least two years after their program----
    Mr. Smith of Michigan. 4,000 schools that now are educating 
600,000 foreign students. It seems like that message should be 
so very clear that we have got to do a better job in this 
country of exciting our students in science and math rather 
than simply continuing our dependence, if you will, on foreign 
students and--yes, Dr. Tilghman.
    Dr. Tilghman. You know, in--and Mr. Hall is about to leave, 
but I was about to both agree and disagree with him on the 
issue that he raised and that you are raising, Mr. Smith. I 
couldn't agree more that we are not doing a good job as a 
country at science education at exciting the young, K through 
12. I think it is scandalous, actually. And I think it--the 
direct result of this is not--is that foreign students compete 
very effectively for spaces in our class. I mean, this is a 
meritocracy. When we do admission into graduate school at 
Princeton and at many other research universities in this 
country, we are selecting the very best qualified, most 
excellent students that we can find. And the fact of the matter 
is, because of the quality of the science education that is 
occurring in this country, foreign students compete very 
effectively for those places. It needn't be so, but it is so 
right now. So when you and Mr. Hall are focusing on why are we 
admitting so many foreign students, the answer is because they 
compete well for the places. They are of extraordinary high 
quality. I think it goes all the way back to K through 12 
education.
    Chairman Boehlert. Your time is expired, but you are 
exactly right, and this committee takes great pride in 
recognizing the miserable performance of the United States of 
America in educating young people, K through 12, in science in 
math and inspiring them. And so if you had to depend 
exclusively on domestic students to fill your graduate schools, 
you would have an awful lot of empty seats. And one of the 
alarming trends right now used to be, and I will just pull this 
figure out of thin air, but it illustrates the point. It used 
to be that about a 70 to 30 ratio, the graduate students that 
came to the United States from abroad got their Ph.D.s, 70 
percent went back home. 30 percent stayed. Now it is just the 
reverse. You know what, that is cause for alarm. That is cause 
for real alarm. With that, the Chair recognizes Ms. Eddie 
Bernice Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, and Ranking 
Member. Let me thank the witnesses for coming and express my 
appreciation for both Dr. Ward and Dr.--the President of 
Princeton for giving your talents to this country. We are a 
nation of nations. I looked around this room trying to see if I 
could find any Native Americans, and I don't think I see any.
    I understand what we are talking about, and I think that 
the challenge is with our education system, because it really 
is a sad day when we use visas to make sure that we don't have 
any terrorists aboard. We have had terrorists in this country 
all of my life that were not foreign-born, and so we have got 
to do a better job on the other side of the issue. I have real 
problems with the visa time span, because I have a district 
that is probably the most diverse in the Nation. And we have a 
lot of H1-B Visas, a lot of students, just from all over. And 
it is absolutely inefficient in what they have to deal with and 
standing in these lines and getting visas and trying to get a 
citizenship. Efficiency is not noted as anything that I can 
give any compliment to when the INS had control of it. I had to 
visit several times myself to see what the problem--three and 
four years, that is too long. And I don't believe that we would 
have as much research since 85 percent of the researchers in 
this country are foreign-born. That is not their fault. It is 
ours, and we must do a better job.
    I really do support some type of screening, but we can not 
get it until we get more efficiency. We need more people in the 
area, and we need more skill of the people that are in the 
area. I am grateful to both of you for coming and adding to our 
education system. I don't know who would be President of 
Princeton if you weren't there, and you are not American-born. 
I am very--I have such a personal experience with this in my 
district, that this is really kind of disturbing to me. I have 
a lot of people who have been profiled since 9/11. If we had 
more efficiency, I think it would not have been 9/11 in that 
fashion. So I think the responsibility really does rest with 
us. And I am not for holding students back if they are 
efficient, but I am for better preparation of students so they 
can become efficient. And I think I can speak with authority 
being black-skinned. If they had the right opportunities, they 
would qualify. When we put students in special situations and 
they have an opportunity to learn, they learn.
    So my question would go to the State Department. Will the 
State Department work to ensure that the memorandum or 
understanding between the Department of State and the 
Department of Homeland Security reflect the proper balance 
between the need for security and the need for openness? We are 
a Nation of nations.
    Ms. Jacobs. We are certainly working toward that as we 
discuss the MOU with the Department of Homeland Security. Let 
me just add that there are a number of other agencies involved 
in this visa review process, and we have talked to all of them 
about the need for a more rational, a more predictable 
clearance system so that we can stop the delays that we are 
having.
    Ms. Johnson. Thank you very much, Mr. Chairman. I 
appreciate you holding this hearing.
    Chairman Boehlert. Thank you. I understand in my enthusiasm 
I misspoke a moment ago. What I meant to say was that of the 
foreign-born students who come to the United States and get 
their graduate degrees, it used to be that 70 percent would 
stay here and 30 percent would go back home. Now it is almost 
reversed, which is creating a real alarming deficiency right 
here in the United States. We are trying to address that, 
starting with K through 12 with the science and math 
partnership, which was an initiative of this committee, 
starting with the other partnership program. We are working 
with our great universities to provide incentives for you to 
increase the number of students in the science, math, and 
engineering disciplines. It--this is a national security 
problem of monumental proportions, and most people are not 
getting a heck of a lot of attention outside the campus 
community and the Corporate America, which recognizes that we 
have some real unmet needs, and we have got to do something to 
address that.
    Dr. Gingrey. Oh, sorry. Mr. Rohrabacher is here. We can't 
skip the distinguished Chairman of the Subcommittee----
    Mr. Rohrabacher. Thank you very much. And considering that 
I am again going to be the proverbial skunk at the lawn party 
that I think I would like to get this into the discussion a 
little earlier. No, this is not a meritocracy for our students 
to be competing with foreign students. American people pay a 
lot of their tax dollars into the education institutions that 
we are talking about. Their students--you know, their children 
do not have to compete on an equal basis with people from 
overseas who do not pay taxes for educational institutions, 
thank you. Fifty-four percent of all of the Ph.D.s in science 
and mathematics and engineering in this country go to non-
nationals.
    Now we are all talking about this being a big problem, and 
that is a big problem. But just suggesting, ``Oh, we have 
failed. Let us spend more money on the education level of K 
through 12,'' is not the answer. And you have to take a look at 
the science and the--of mathematics and--or excuse me, 
economics that has led to this. And it is not just a lack of 
training at the bottom level. We have a perverse incentive 
system in this country. We have a perverse incentive. If 
somebody gets a degree in--a BS in science and somewhere or 
engineering or--and one of these areas, mathematics, they can 
be gobbled up at a very good pay level by private industry. And 
it does not--it works against them in making a decision to go 
on to get a Ph.D. and to further their education.
    What happens with the foreign students, on the other hand? 
In some other country, the pay that they are going to get with 
a BS degree is going to be far less than what they will get if 
they continue their education. And in fact, if our students 
continue their education, they get very little help. They end 
up with a truckload of debt. And these foreign students often 
have some of the--some of their fees that our own students have 
to pay waived or taken care of by different grant situations. 
We have got to change that economic situation. It is just not a 
matter--I mean, I--every time--I have been here for 15 years, 
and every solution is, ``Let us spend more money for lower 
education.'' Well, that is not an easy answer here. We have got 
to come up with some other things. I would suggest--for 
example, my office is looking into the idea of suggesting that 
people who go on to get their graduate level degrees and their 
Ph.D.s in science and engineering should, perhaps, have that 
paid for by the government in exchange for working for the 
government for every year we help them through school. I mean, 
NASA could help that, Mr. Chairman. NASA could use that very 
much. And thus we could bring down--the idea, the goal should 
be bringing down that 54 percent so that Americans are filling 
those slots. And again, I don't look at it as meritocracy. We 
have many students here, foreign students, who come from non-
Democratic countries, who are potential adversaries of the 
United States.
    Let me ask Ms. Jacobs, are we training, are we allowing 
students from Pakistan and India into the United States to get 
Ph.D.s so they can be equipped to make nuclear weapons? I think 
the answer is yes, is it not?
    Ms. Jacobs. Those are just the types of people that would 
be subject to the--one of the clearance processes that I talked 
about.
    Mr. Rohrabacher. Well, my guess is--well, up until now, 
that has not been the case. And I hope that is corrected. But I 
know that there are people from Communist China--there are 
scientists swarming over Los Alamos lab, and many of them--when 
the Chinese start building rockets efficiently enough to hit 
any American city, we can start blaming this open exchange that 
we have had between scientists and our universities. Now there 
is a national security relationship here that really needs to 
be looked at. And I think that it goes far beyond--I mean, we 
like to give us this easy answer about spending more money for 
kids in the lower grades, and that is just not where it is at.
    Let me mention a couple of other things to you here. Ms. 
Jacobs, in the past, there has been no verification, is this 
correct, whether--we know the students are coming in, and you 
are talking about the backlog of students coming in, but what 
about the students going out? I am more interested in the legal 
immigration problem, which we have got in California, where 
students of all kinds come in and then we don't even know--
legally, and then we don't know if they have come back, is that 
right?
    Ms. Jacobs. I think for the most part, that is correct. The 
new Department of Homeland Security is developing an entry/exit 
system to track people coming here and also this new SEVIS 
system for tracking students should help in that regard.
    Mr. Rohrabacher. So just a note that we--our system, as it 
is working right now, a student can come in from a country that 
has many potential terrorists and maybe a country that is 
friendly itself, the government is friendly, let us take Egypt 
where we know that they have got some radical Islamic people 
there. And they could come in on a student visa, and we 
wouldn't even know if they left, as it stands right now, isn't 
that correct? We need to correct that, Mr. Chairman. And that 
is--I think some of the folks who flew the planes into the 
buildings fit into that category. So again, let me just 
reiterate--I will just say that our goal should be to make sure 
that Americans are filling these slots in our higher 
universities, getting the Ph.D.s in science, and let us try to 
make it economically possible for them to do so. And I am 
certainly--I know that the Chairman has paid a lot of attention 
lately to the NASA requirements that we need to get top quality 
people in NASA, younger people. Maybe we can work that in a way 
that will help these young people get their education.
    Chairman Boehlert. Thank you very much, Mr. Rohrabacher. We 
will have another discussion another day about K through 12 and 
the critical importance of investing more there, but I am glad 
to see you have signed up in support of our scholarship program 
to incentivize science, math, and engineering majors in college 
to----
    Mr. Rohrabacher. I would note that I have cosponsored that 
with you.
    Chairman Boehlert. Public education. And I am glad to see, 
and I will tell Dr. Caldwell that we have signed you up, too, 
for increasing the NSF fellowship stipends, which are 
desperately needed.
    Mr. Rohrabacher. But we need some government service in 
exchange for that.
    Chairman Boehlert. And you and I are working on something 
with NASA that will provide scholarships just along the lines 
you are talking about. So this is a very complex issue. And it 
requires a multitude of approaches to solve the problem. But we 
can't ignore a very basic fact of life: in international 
studies, when our youngsters in the fourth grade are compared 
with their counterparts around the world in science and math 
proficiency, they do about average. By the eighth grade, they 
begin to fall back, and by the twelfth grade, sad to say, we 
are down around 14 per 50. That is not good enough. If we don't 
start with the youngsters at the beginning and inspire them and 
incentivize them and provide the best possible faculty, then we 
are never going to get them to fill those vacant chairs at our 
great universities like Princeton. Princeton would welcome an 
overflow of applicants from American citizens who want to come 
to the Ivy hallowed halls of that great campus. Unfortunately, 
they are just not getting enough applicants. With that, Mr. Wu.
    Mr. Wu. Thank you, Mr. Chairman. Before I get to my 
question, I share with my good friend from California a deep 
concern about national security and having the best students 
possible that we can in America and providing every educational 
opportunity we can for Americans and for people from around the 
world. I do have to say, however, that this requires a balance, 
and it requires a careful balance. And when we go overboard in 
a search for security, sometimes we damage our own national 
security. If it had not been for the steps that Germany took in 
the 1930's and Italy took in the 1930's, we would not have been 
able to get the very able scientists that we did get in our 
nuclear program, the Manhattan Project. And that was thanked 
substantially to social programs, shall we say, in Germany and 
Italy and elsewhere in Europe, which were countered to their 
own security interests and thank God, which were helpful to 
ours.
    We are not strangers to being harmful to our own national 
interests. The Chinese scientist, who is the father of the 
People's Republic of China's rocketry program, was in the 
United States and was driven out of the United States by 
McCarthyism and was of great assistance--has been of great 
assistance to the rocketry program in the PRC. That was an 
unfortunate step, which this country took, and I would hate to 
see that we engage in a pattern of conduct now, out of fear, 
which would damage our national interests and help our 
adversaries. It takes a careful balance, and I would encourage 
this committee, this Congress, to proceed with that kind of 
balance.
    I just want to put in one plug for a bill, which 
Congressman Cox of California, and I submitted together in the 
last Congress on H1-B Visas. And it addresses some of the 
concerns, which the gentleman from California mentioned, which 
is to give additional educational opportunities to students who 
are already here in the United States. As businesses bring in 
new individuals on H1-B Visas, the bill would require them to 
pay a fee to universities in an amount equivalent to the then 
authorized amount of a grant for purposes of financial aide for 
students in the United States. So the system is bring one in 
now for a temporary fix, help educate someone here for a long-
term fix. And we intend to bring this legislation up again. I 
think it is something that is positive--a positive step forward 
in the H1-B program.
    My question for the panel has to do with the appropriate 
body for enforcement of our immigration laws, because it is my 
concern that educational institutions are, in many respects, 
uniquely unsuited as enforcement agencies. I think that they 
have to cooperate in providing information, and that is 
necessary and proper, but it seems to me that other agencies, 
law enforcement agencies, the newly reconstituted INS--when I 
was young and first in America, we used to go down and report 
at the post office. But some form of commonly available 
reporting site that is used to handling law enforcement and 
processing papers seems to be a more appropriate place for 
enforcement. I would like the panel to respond to that, please.
    Ms. Jacobs. I would just say that I completely agree with 
you, and I think most universities are very loath to put 
themselves in a position where they would be in the enforcement 
business. What we can do is provide all of the information that 
the enforcing agency needs, but for us to actually do the 
enforcement I think it would be virtually impossible.
    Dr. Ward. Yeah, I would agree with that. It is obviously 
the State Department should defend our borders in the way that 
is being described here and that the INS should deal with any 
infractions that occur from a policing point of view in the use 
of the visa. The area that we have actually expressed the 
deepest concern is being the idea of prohibiting certain 
students from certain countries from going to certain courses 
on our campuses. And the practicality of trying to do that, and 
many of us have simply said, ``Look, we regret having to do 
that. We would much rather these students not arrive in the 
first place if we are being forced to police which classes they 
go to.''
    So I agree, but I also think that one of the challenges 
here is to be slightly upbeat, if SEVIS would work, quite 
frankly, it would be an absolutely dramatic improvement, 
because we have the State Department, universities, and INS 
appropriately connected. This is an interagency communication 
challenge. And many of these delays are where we have got 
different entities trying to communicate with each other, some 
of them doing a good job, some of them doing an indifferent 
job. And I think the real challenge here is the system is--the 
system was broken before 9/11. We are trying to recreate a 
system. We need to recreate a system, but it is a very 
complicated process, and the expectation is of a perfect 
outcome in less than nine months of planning I think was 
greater than we should have anticipated. What I hope is that we 
can have a dialogue as a result of these hearings, particularly 
I think with Homeland Security, where I think many of the 
problems really lie, so that the scientific community and the 
security community can come together to talk to each other to 
solve these problems. The communication structure is currently 
not working well.
    Mr. Wu. Thank you.
    Chairman Boehlert. The gentleman's time has expired. Mr. 
Gilchrest. You have got a couple--we have got six minutes and 
50 seconds left, so----
    Mr. Gilchrest. I will do it in one minute, Mr. Chairman.
    Chairman Boehlert. Mr. Gilchrest, you are recognized.
    Mr. Gilchrest. When the students go here in the United 
States and they get a break, they want to go home for a 
holiday, for a funeral, or whatever, it has been my experience 
that that is very difficult. But there seems to be no real 
clear statute, because sometimes we get them back just by a 
phone call either to Vermont, I am from Maryland, or to 
Baltimore. So is there a very specific and do we need to fine 
tune that so it is a little bit more clear if they go home for 
a break or they go home for some special event, they can come 
back because they are still attached to the university?
    Ms. Jacobs. One of the things that we are trying to work 
out with the other agencies involved in these clearances is a 
way to make those clearances valid for a certain period of 
time, so that would allow us that----
    Mr. Gilchrest. I see.
    Ms. Jacobs [continuing]. For people to go and----
    Mr. Gilchrest. That is good.
    Ms. Jacobs [continuing]. Come back.
    Mr. Gilchrest. When someone applies for a visa to come to 
the United States and have to show, you know, a tourist visa or 
some other type of visa, they have to show that they are 
financially able back home, otherwise they don't want them to 
come into the United States with that visa. Does the same thing 
apply for a student visa?
    Ms. Jacobs. For student visas, what we are primarily 
looking for is to make sure that they have the funding to cover 
the educational costs in the U.S. But we would also be looking 
for other indications of ties to that country that would--
    Mr. Gilchrest. Sure.
    Ms. Jacobs [continuing]. Have them go back home after their 
studies.
    Mr. Gilchrest. We--the--I guess I am not going to ask any 
more questions about the SEVIS program, but I guess if we can 
get that thing a little bit more efficient, my staff tells me 
it is a disaster. So I guess that means there is a little bit 
something wrong with it. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you, Mr. Gilchrest. We have to 
recess and answer a call to the House. And Dr. Tilghman, I 
understand you have to depart. I would ask you and Dr. Ward, we 
are going to give you a written assignment. We can do that on 
occasion. But----
    Mr. Hall. Can I make a statement to Ms. Tilghman?
    Chairman Boehlert. In one moment you can. We would like to 
ask you what you think on a practical basis we can do to 
improve the visa situation. And then when we get what you give 
us, we are going to share that with Ms. Jacobs and have her 
respond. And we will share the response with you. The Chair 
recognizes the distinguished gentleman from Texas, Mr. Hall.
    Mr. Hall. From a standpoint of levity, I would say to all 
three of you who are very intelligent and very educated, I have 
read your background, I respect you and admire you. I just 
don't like you, because you are the very type that almost 
busted me out of school, because they graded on the curve.
    But Ms. Tilghman, I go through Princeton--I didn't go 
through Princeton, but I go through Princeton about once a week 
on my way to McKinney, Texas, just about five miles north of 
Princeton. God bless you and thank you.
    Chairman Boehlert. Thank you all very much. We will be in 
recess for approximately 15 minutes. Ms. Jacobs, Mr.--Dr. Ward, 
can you stay?
    [Recess.]
    Chairman Boehlert. We will resume. Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you very much. I almost 
went out of turn just before we broke to vote, but I am kind of 
glad that Mr. Rohrabacher went first, and he described himself 
as the skunk in the lawn party, and I was going to play that 
role. And I appreciate his comments.
    Dr. Ward, and also the President of Princeton, maybe she 
had to leave, you know, I want to mention a couple of things 
and then ask for anybody's comment, particularly maybe Dr. 
Ward's. But I think the Ranking Member, Mr. Hall, was right on 
point in regard to the issue of the percentage of students in 
our universities that are foreign, a preponderance, really, of 
students. And Mr. Rohrabacher spoke to it as well. You know, 
what I am concerned about is that the--our universities, for 
different reasons, maybe it is athletic in some instances where 
students, foreign students are recruited. And they take 
positions that maybe our United States citizens students, whose 
families, for generations, have been paying taxes and working 
hard and going through our state--our public education system. 
And yet they may just be a step away, just a step below some of 
the applicants that we are talking about here, the brightest 
and the best that are coming from other nations.
    I suggest to you that, not to get too much into athletic 
analogies, but if our university football teams, the starting 
line on offense, if they average 290 pounds each rather than 
330, or all of the skilled players could run the 40 in 4.6 
rather than 4.4, we, the spectators, would hardly note a 
difference. Now my son went to a petty school just down the 
road from Princeton University, but he was not able to get in 
Princeton, and it may be that he was just a step away. But he 
has gone on and been a very successful graduate of Georgia 
Institute of Technology, and I am proud of that. But I--my 
point is, you know, I think the concern that Dr. Tilghman and 
Dr. Ward have expressed about the brightest and the best and 
the difficulty in getting them quickly into our universities 
needs, at this point in time, to take a back seat to our 
concern about national security.
    And I, as a Member, am not particularly concerned that 
there is a little bit of more red tape and a little bit longer 
waiting period, and that the universities who recruit these 
students, and sometimes student athletes, for their own 
purposes, have to spend a little bit more time on due diligence 
to make sure that they are abiding by the INS rules or 
whatever. So I think that it is almost like 15 years ago when 
we had a great concern about healthcare in this country. And 
all of a sudden, we had 180-degree swing from indemnity plans 
to managed care and HMO. Gradually, that pendulum is shifting 
back, the patient bill of rights and other concerns over 
abuses.
    I would say to the--those who are concerned about the 
waiting time and the red tape, it is time for a little 
patience. You know, we are at a point in time in this country 
where our security is more important that your convenience. And 
I know that is a bit of an overstatement, but I would just like 
to throw that out there. As I say, I realize I am a bit of a 
skunk at the lawn party, but I would like to hear your comments 
on that.
    Dr. Ward. I think your comments are well taken. And I think 
I have stressed in all my testimony this issue of balance and 
that we are not really complaining about security but that the 
SEVIS system, which we have supported consistently in higher 
education, is not working well. And that is our concern that if 
it is just perverse ineffectiveness that is part of our 
security blanket, that is not a good idea. Let us make it work 
well. So our complaints here are not about the necessity of 
security, which we agree with, but the way it is being 
implemented just seems to be unpredictable, which I think is a 
problem, and sort of lax in the tradition of a businesslike 
attitude in trying to do it. So I agree that patience, in terms 
of delays under security are reasonable.
    I think it is the unpredictability and what seems to many 
of us, perfectly fixable, manageable, businesslike practices 
that could be brought to bear on this, and then perhaps also 
improve communication between different agencies. I think, for 
example, higher education does seem to have worked out a 
communications structure with State and with the Office of 
Science and Technology Policy. It has been much harder for us 
to develop one with INS where we understand what is being 
expected of us. Sometimes the regulations are so unclear that 
we don't know how to behave in a way that INS would want us to 
behave. So I would agree that there has got to be some patience 
and there will be some delays, but I think the experience of 
SEVIS and the need to improve SEVIS is really almost 
independent. In fact, if it was improved, it might be better 
for security.
    On your second point about foreign students, I do want to 
stress that in aggregate, they actually pay for themselves that 
while some do come and receive support, usually the very best 
of them, and who often could go to other countries, as you 
probably know. We often compete for the best with the European 
Union, Australia, and New Zealand. And there is a marketplace. 
And in fact, that marketplace may begin to resolve our problem, 
because there is no question that Australia is now subsidizing 
many of the foreign students who once came here, and in some 
cases, actually paid their way.
    So there is now an international market developing in 
trying to get access to highly qualified, undergraduate 
scientific talent where the U.S. will no longer have a virtual 
monopoly on it. So we have to--that is something that we can 
weigh, and it may be a good thing for those who want to see, 
you know, more access for Americans. It could be a bad thing in 
terms of access to quality out there.
    But I do want to stress that in the aggregate, the--we make 
money on foreign students. It is not--the taxpayer is not 
paying for this. There is a billion-dollar gain to the economy, 
not only through the tuition they pay for the services they 
render, the business of their parents, and it is, I think, 
around a $12 billion industry. The foreign student is an 
industry. So while that doesn't justify the access of 
foreigners versus domestic students, it is wrong to assume that 
the taxpayers are picking up the bill. In fact, the $12 billion 
input to the U.S. economy, I am sure, makes it, in fact, an 
industry. And that is why Australia wants it.
    Dr. Gingrey. You--I didn't explain it very well. You may 
have missed my point. I know you are making money off of them. 
There is no question about it. You are talking about grants to 
the universities or you are talking about trips to the NCAA 
Final Four. You are making money of them; there is no question 
about that. But my point is that these American students, the 
United States citizens who have been paying the taxes and that 
went to our public schools and, you know, they miss the 
opportunity. I am not--I wasn't suggesting that it wasn't--the 
program wasn't paying for itself. Indeed it is. I am sure in 
the athletic programs, in particular, it is all about the 
program paying for itself with these investments in foreign 
athletes.
    Dr. Ward. Well----
    Chairman Boehlert. The gentleman's time has expired. Ms. 
Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. First, I would like 
to ask unanimous consent to put in the record an editorial and 
news article from the San Jose Mercury News about this very 
subject that I think Members will find interesting.
    Chairman Boehlert. Without objection, so ordered.
    [See Appendix 2: Additional Material for the Record for the 
information referred to.]
    Ms. Lofgren. You know, in many ways, listening the to 
questions and answers reminds me that this issue is a little 
bit like the elephant. It depends on which part of the body you 
are touching, because there are differences between the types 
of foreign students that are coming here. Clearly, the foreign 
students who were terrorists at the flight schools were one 
category of students. There are fly-by-night university, there 
is mediocre university, and then there is the MIT engineering 
department. And they attract different types of students from 
around the world.
    What I would like to focus in on, and I was glad, Dr. Ward, 
that you mentioned that this is actually a moneymaker for 
American schools. I mean, I am a taxpayer. I have got two kids 
going to college--or my son is just about to join, but the 
foreign student tuition is very high for state schools. And the 
University of California makes money off of their foreign 
students. But I have a concern that we are losing out at the 
very highest level of quality students, the students who have a 
rare intelligence who are recruited by MIT, by Stanford, by 
Harvard, by universities in the EU. They don't need to come 
here. They can go other places. And if they go other places, 
that has implications for our economy that are not good ones. 
If you take a look at Silicon Valley, where I am from, and go 
into any of the cutting edge technologies, it is a virtual UN 
of the smartest people that have been produced by their various 
countries. And we were lucky that they came here to become 
Americans with us and get their inventions patented and get the 
economy moving. That is a lot different than, you know, a 
roomful of people punching out code in the back room that are 
more or less fungible. I am talking about those rare 
individuals. And because of our old visa, which is--needs to be 
updated, in my judgment, those outstanding individuals get 
lumped in with everyone else on H1-Bs when in fact it is a 
category that is different.
    I am concerned about the delays. I am concerned about 
inefficiencies in this system. And I have long believed that if 
we had better technology, we would be able to get ahead of some 
of this--these issues. So Ms. Jacobs, I am interested, if you 
could go through--do you have--do your officers have access to 
SEVIS online in their--out in the field in the various 
consulates?
    Ms. Jacobs. They have access to SEVIS, all of the data that 
INS--the former INS puts into SEVIS is given to our consulate 
posts abroad. We do that through an interface that we have that 
includes information on all of the visas that we issued or 
denied around the world. But yes, when that information is 
given to us, it gets out to the field.
    Ms. Lofgren. And that is--and they have access to their 
own--in their own computer terminal in their consulate offices? 
That is good. Is there any paper given? If I am a student, and 
I am coming in to get my F1 Visa, am I--is there any paper 
exchange or is it all online?
    Ms. Jacobs. Most of it is online. Actually, the main 
purpose behind SEVIS is for us to verify the documents that the 
student presents. We can check that to make sure that, yes, the 
school issued that I-20, yes, this is the person it was issued 
to. That is the main purpose. So it is a little bit of both.
    Ms. Lofgren. Now the INS is still creating paper records on 
some of these visa issues. How do you interface with the INS 
when they are creating actually microfiche or paper records?
    Ms. Jacobs. We share--this database I was talking about is 
actually shared with immigration at the ports of entry, so that 
when these students come in, if they need to be checked again 
for some reason, the people in the secondary can actually pull 
up that information right on their screens to check to make 
sure, yes, this--the visa was issued to this person.
    Ms. Lofgren. But it is no database if it is a paper record 
that you can--how do you cope with that issue when the INS is 
producing paper or microfiche?
    Ms. Jacobs. Well, to the extend that we can automate things 
and share it with them, I think that is pretty much how we are 
addressing it right now.
    Ms. Lofgren. I see. I have a concern and a question. I--
last summer, Chairman Sensenbrenner and I, different--separate 
days, went over and met with Ph.D. candidates in engineering at 
Stanford, and they were great kids and really smart. And they 
said, ``You know, we are here, too. We want to be safe. So we 
don't know why you want to investigate us, but fine, 
investigate us. And we will go in, and we will meet with 
whoever you want and tell you everything, but can we get a visa 
so we can go back and forth?'' Because they can't go to 
conferences in Germany. They can't go anywhere, because they 
will get stuck abroad if they are from the Middle East. And 
actually I think these kids were so far into their Ph.D.s that 
they will probably stay, but we are going to lose those--their 
younger brothers and sisters to competing universities in 
Canada or Europe. Can you envision a system where you can 
take--you could review students and really get a level of 
confidence and then pre-approve them or give them a multiple 
entry visa so that you know you wouldn't have to worry about 
that group?
    Ms. Jacobs. Many of them, actually, I think, do have 
multiple entry visas, but for the ones that are subject to 
these----
    Ms. Lofgren. Well, these were--many of these were from--
Iranian students.
    Ms. Jacobs. Uh-huh. One of the things that we are trying to 
work out with the other agencies that are involved in this 
process is to see if we can't make those clearances valid for a 
certain period of time, so that that would allow the students 
to do just that, to go back and come--return.
    Ms. Lofgren. If I would, there is another problem, which is 
many of these students have been here as undergraduates as 
well, and actually, there is nothing to find out about them in 
Iran. I mean, the only--you know, it is domestic. If you want 
to look at them, every contact and every--they have grown up in 
America as students. And doing the study in their home country, 
where they were born, really yields no information whatsoever 
about them. So really, we are not even safe the way we are 
approaching this. I thank the Chairman for his diligence.
    Chairman Boehlert. Thank you very much. The Chair now 
recognizes Dr. Bartlett, who will assume the Chair, and for his 
five-minute question period.
    Dr. Bartlett [presiding]. Thank you very much. There is an 
old adage that says it is an ill wind that blows no good. And I 
would like to mention a positive aspect of the problem that we 
are talking about today, and that is the fact that I guess more 
than half of the students in these technical areas are not 
citizens of this country. This represents, of course, an 
enormous vote of confidence of the world in the quality of our 
educational institutions, does it not? There are lots of 
educational institutions they could have gone to. They chose to 
come here. So that is a real positive aspect of this.
    But I would hope that our schools would be so crowded with 
our own qualified students that we would say, ``Gee, thanks for 
applying, but there is no room for you here. You need to go 
somewhere else,'' and that is not the case. And I would like to 
talk about that for just a moment. As our nature of industrial 
power, as you know, we spend a smaller percentage of our GDP on 
basic research than any other power. We also spend a smaller 
percentage of our money on R&D than any other major economic 
power. The fact that most of the students in these departments 
are foreign students is, in the short-term, a threat to our 
economic superiority. We will not continue to be the world's 
premiere economic power if we don't turn out the world's best 
scientists, mathematicians, and engineers in adequate numbers.
    I worked eight years for IBM. I left there, and they help 
me set up my own company in 1975, so that tells you when this 
happened. But we were concerned at IBM that we were going to 
lose our superiority in computers, and the United States was 
going to lose its superiority in computers if things didn't 
change to Japan for a very simple reason. Every year, Japan was 
turning out more and sometimes better scientists, 
mathematicians, and engineers than we did in large enough 
numbers that there is no way we, at IBM or the United States as 
a whole, could continue to hold the edge in computers if that 
continued to be true. In the longer run, this is another type 
of national security threat.
    The major reason for being here today is to talk about the 
national security threat that is presented by students who 
might apply to our schools. But in the long run, we will not 
remain the world's superior--supreme economic power. We will 
not remain the world's only superpower if we do not turn out 
the world's best scientists, mathematicians, and engineers in 
large enough numbers. So I am very concerned that for the 
short-term our economic superiority is at risk with the longer-
term our military superiority is at risk.
    Now you tend to get what you appreciate. And in this 
country, the young people that go into these pursuits are 
really not appreciated. The pretty girls won't date them. They 
are called ``geeks'' and ``nerds'' when I was going to school. 
And I have a Ph.D. in science, so I can speak from personal 
experience. When I was going to school, we were called 
``squares.'' I guess that is an old term now. But you know, 
when the White House will summon a group of superior of 
science, mathematics, and engineering students to the White 
House to reward them the way we call a winning athletic team to 
the White House, then I will believe that we are sufficiently 
appreciating of these young people, which are really enormously 
important to our future.
    And my concern is what do we need to do in this country to 
capture the imagination of our people and inspire our young 
people to go into careers of science, math, and engineering. 
For far too many years now, our young people have chosen to go 
into careers where, at a minimum, you--a few people in those 
pursuits could be considered commensals on our--with our 
society. But they soon become parasitic, and I think today they 
are clearly parasitic in our society. And these two pursuits 
into which most of our bright young minds are going are 
political science and law.
    Now you know, we need some really good people in political 
science and law, but we sure as heck need a whole lot of really 
good people in these engineering and scientific areas. What can 
we do to capture the imagination of our people and inspire our 
young people to go into these pursuits?
    Dr. Ward. That is a question for me. I think that there are 
multiple answers. One of them, I think, clearly is what I was 
hearing earlier, some incentives by--from scientific employment 
that if you provide incentives for undergraduate, particularly 
undergraduate. The big breakdown is high school and 
undergraduate science education. Right at the beginning we seem 
very strong. Right at the end we seem very strong. Even, in 
spite of being significant numbers of foreign students, the 
native students are also very good in those classes. So the 
real issue is there is a supply breakdown. And my view is that 
I think there is obviously the powerful symbolism of governors, 
leaders of industry, recognizing scientific and technological 
talent. But maybe real money would help. And I think it is at 
the undergraduate level. That is where the breakdown occurs to 
help people who have a tough time with calculus, a tough time 
with physics and chemistry, and maybe move off to areas that 
seem, to them, extensively a little easier. There has got to be 
an undergraduate science incentive program, and perhaps also 
summer programs for high school students in the sciences. So 
there has got to be something which deals with this pipeline 
where in the rest of the world, they manage to maintain a 
larger number of people committed to mathematics, physics, 
chemistry and to a less degree, biology than we are really able 
to do in our system. And yet, at the outcome and at the 
beginning, we are fired. And so I think it is a matter of 
incentives that are needed.
    Dr. Bartlett. Thank you. You tend to get what you 
appreciate, what you reward. And I think that we need to show 
these young people that not only is there a good job available 
to them, but we really appreciate them in our society. I don't 
think we are doing a very good job of that now. I just had a 
son who graduated with a Ph.D. in chemical engineering from 
Carnegie Mellon, so you know, I went through it a generation 
ago, and now he has just gone through it. And so I am pretty 
familiar with what goes on in these schools and spent 24 of the 
best years of my life teaching.
    Let us turn now to our next questioner, Mr. Bell.
    Mr. Bell. Thank you very much, Mr. Chairman. I would like 
to echo the statements of some of my colleagues who have spoken 
previously, specifically Eddie Bernice Johnson of Dallas, who 
sees this whole situation regarding visas and people having 
trouble getting back into the country as a very serious problem 
for her district, which is located in Dallas. Ms. Jackson Lee 
and I both represent areas in the Houston area, and it is a 
very serious problem in our districts as well.
    I see this as sort of the situation of the pendulum 
swinging, necessarily so, after September 11. Our world did 
change. New security precautions had to be put into effect, and 
I think all of us understand that. But what we are seeing now 
in the Houston area is a situation where the pendulum has, 
perhaps, swung too far, and we need to take steps to correct 
it. I agree with Dr. Ward that the expansion of the Technology 
Alert List has contributed to a serious backlog of visas. I 
think you mentioned in your statement an estimated 25,000, and 
Ms. Jacobs, if you have any reason to differ with that later, I 
will certainly give you an opportunity.
    But what is even more troubling, to me, is the number of 
students and researchers who travel outside of the United 
States, as we have heard today, albeit for academic, health, or 
personal reasons and then encounter great difficulty re-
entering the country. This delay in visa renewal and 
adjudication not only hinders critical scientific research and 
progress, but it effects the patients under the care of these 
stranded physicians.
    I want to draw your attention to a specific instance. Back 
in the Houston area--we have heard several specific instances 
from different parts of the country today. Let me draw you to a 
situation in Houston, which occurred at the University of Texas 
Health Science Center. As we speak, there are two young doctors 
stranded and unable to return to the University of Texas after 
visiting relatives, one in Pakistan, and the other in Iran. And 
as I understand it, the delay is due to ``administrative 
processing''. Now I am still unclear as to what 
``administrative processing'' means. Ms. Jacobs, again, I am 
going to give you a chance to explain that a little bit later. 
But it sounds like a great deal like bureaucratic 
Neverneverland, one of those places that--a place a person goes 
and never really gets a serious answer as to why their 
application is not being processed.
    UT and the Baylor College of Medicine are warning their 
international researchers not to travel because they don't know 
how long it will take for their visas to be revalidated. 
Currently, there is no procedure in place to expedite the 
process on any grounds, including emergencies. And as Dr. Ward, 
I believe, stated in his testimony, we must come up with a 
process by which existing physicians and researchers can 
revalidate their visas before leaving the United States for 
academic, health, or personal reasons.
    This issue, obviously, has a flip side to it: patient care. 
Since 9/11, the Texas Medical Center and various medical 
centers across the United States, have seen a decline in 
international patients. M.B. Anderson, a world-renowned cancer 
treatment center located within the Texas Medical Center, has 
taken the lead in a joint task force, along with many other 
institutions across the Nation, including Duke University 
Medical Center, Memorial Sloan-Kettering, and UCLA Medical 
Center, just to name a few, in addressing the issue of 
international patients' access to care in the United States. It 
is through the suggestions and implementations of this working 
task force that these world-renowned research institutions can 
maintain their status as world leaders in medicine, 
particularly in periods of heightened international tension, 
and maintain, at the same time, their humanitarian 
responsibility to the global community.
    I urge my colleagues, especially those with major hospitals 
and research institutions in their districts, to join this 
collaborative effort to address this problem. It is my hope 
that we in Congress can come together and develop a pragmatic 
and expedient solution to this problem. I am committed to 
working on it now, as I hope many others are, for time is of 
the essence. And Ms. Jacobs, while I still have time, if we are 
willing to commit our time and effort to fine tuning this 
process, can you assure us that you will do the same? And what 
are some of your plans to expedite this process, commonly 
referred to as ``administrative processing'' that I mentioned 
earlier in my statement?
    Ms. Jacobs. The--I am happy to try to address all of those 
issues. The administrative processing is a term that is often 
used by the consular officers in the field when someone is 
subject to one of these clearance processes that I talked about 
earlier rather than calling it a name check or going into the 
details that we have worked out with the other agencies back 
here. We have always tried to put it in those terms, because it 
really is processing that has to take back here, and the posts 
are really not involved in that after they notify us or send in 
the clearance request.
    For our part, the State Department is working extremely 
closely with the other agencies involved in this process. We 
have tried to work with them on technological issues on trying 
to make this whole process more automated. We have worked with 
them on trying to get, you know--have them get additional 
resources to process these cases. In the case of some agencies, 
they actually--they have done that. It is working much more 
smoothly now, because we have a system in place where we know 
that if we don't back from them within a certain amount of 
time, that it is okay, we can go ahead and issue the visa.
    But we are very, very committed to trying to--I mentioned 
earlier that a lot of these procedures were put into place in a 
hurry after 9/11, because we were really under pressure to do 
that. And it is time now, and we are doing that, to look at 
these to try to make them as streamlined, as rational, and I 
think what is probably the most important, predictable as 
possible. And I am very committed to continue my work with that 
in doing that, and I think the rest of the people in the visa 
office who work on these issues are dedicated, as well, to that 
goal.
    Mr. Bell. Thank you, Mr. Chairman.
    Dr. Bartlett. Thank you very much. The Chair now recognizes 
Ms. Jackson Lee. Oh, Mr. Honda was here earlier? All right. 
Ladies before gentlemen.
    Ms. Jackson Lee. First of all, I want to thank the kindness 
of the Chairman and the kindness of the distinguished gentleman 
from California. And I want to join and associate myself with 
my distinguished colleague from Texas, my multiple colleagues 
from Texas, Congressman Johnson and Congressman Bell, coming 
from different cities.
    I have a dual responsibility in this Congress. I serve as a 
Ranking Member on the Immigration Claims Committee and have 
watched this process now for a very long time, particularly 
after 9/11 when I think it should be noted for the record that 
a high percentage of the hijackers came in on student visas. 
And as we well know, the visa process is a bifurcated process, 
but the issues of visas is still through the State Department, 
even as we have merged immigration responsibilities under 
Homeland Security. But I think I was one of those who advocated 
that the State Department retain the responsibilities of 
granting visas.
    As I say that, let me also say that even during this time, 
I have indicated that immigration does not equate to terrorism. 
And I believe it is appropriate for this Science Committee to 
look at several issues. And I think it has awakened many 
members on the question of K through 12 and what we are doing 
in training our very own students and encouraging them and 
providing the excitement that is needed to choose a world of 
science, which I believe that science creates the work of the 
21st century and centuries to come. And at the same time, I 
think it is crucial that we monitor the agencies of government 
that our civil liberties are protected, but as well that honest 
and thoughtful and important work is not stymied and stifled 
and medical research is not stymied and stifled because of the 
fact that we are looking to protect our own homeland security.
    Mr. Bell represents the medical center, but many of us in 
Houston have components of the medical center in our 
Congressional District. I have the honor of serving on the 
Prostate Cancer Advisory Committee at M.B. Anderson, a hospital 
that has benefited, not only from the talent here in this 
country, but from the enormous research talent that has come to 
help save lives here in America. The testimonies of individuals 
who walked into that hospital and said that I was clearly 
almost DOA. Because of some of the enormous research, the 
cutting-edge research, the front-line research, this 
individual, or many individuals that I have heard speak, have 
been able to live life anew.
    So my question to the remaining witnesses, and I appreciate 
the presence of the President of Princeton. We have several 
institutions in our respective districts that rely upon the 
outstanding talent of international specialists, scientists, 
and professors. This does not take away from this committee's 
responsibility to fight like heck to get our young people right 
in line with the excellent education that we have here and have 
them become the scientists of the 21st and 22nd centuries 
alongside of their colleagues and friends internationally. But 
I need to hear from the State Department as to what we can do. 
We will be having a hearing in our Committee, Judiciary, on 
student tracking, which these universities are now facing. And 
of course, we will be hearing a lot of concerns about that. But 
I pointedly want to ask about what we can do in Congress to 
assist you in balancing the responsibilities of one, getting 
the talent, but not having the very unfortunate incident that 
occurred in the Washington Think Tank when one of the 
professors, either from India or Pakistan--not professors, but 
researchers. And I believe it was in New York, literally 
stopped on the streets and his colleagues in the Think Tank or 
at the particular research entity were wondering what had 
happened to him: had he been kidnapped? He was stopped in his 
tracks and accosted by our law enforcement officers, and this 
was a gentleman who was here for research purposes and 
dialogue.
    This is not a good image. What can we do? The Science 
Committee has one concern. I am sure the International 
Committee has--National Relations has one concern, Judicial has 
another concern, but what can we do to enhance the line of 
security versus a welcoming friendship to those who would bring 
talent and interest to this nation? I ask both Dr. Ward and Dr. 
Jacobs.
    And might I just--as you answer that, just to--as a side 
note, my enthusiastic support to H.R. 1297, which is not your 
responsibility, but it has to with honoring the Columbia seven, 
and I was not here. And it was marked up, and I just want that 
for the record. Thank you.
    Ms. Jacobs. On the visa side of your question, there is 
something that Secretary Powell has often said, I think in 
testimony here on the Hill and in other places, that what we 
are really trying to accomplish, secure borders and open doors. 
He is extremely committed to that, as are the rest of us. I 
have talked a lot about the steps that we are trying to take to 
make these clearance procedures that are in place as rational 
and streamlined and transparent as possible. We will continue 
to work with the other agencies involved. Some of the things 
that you mentioned, I think it was a Pakistani professor, that 
has more to do with the program, which is a registration for 
foreign nationals already here in the United States. And that 
is controlled by now the Department of Homeland Security.
    But I think all of us--I don't think there is anyone 
involved in this process who is intentionally trying to keep 
legitimate visitors, scientists, academics, other people out of 
this country. It--our goal is just the opposite, to try to 
recognize those people, to recognize the people who are not a 
high risk to this country and let them come in, because I think 
we all appreciate the need for that free-flow of ideas, of 
information. And certainly, this country is based on that, and 
that is something that we continue. It is a value. It is a 
national interest that we continue to support. And so if the 
pendulum swung fairly high on the security side after 9/11, I 
think it is slowly coming back, and I think that all of us 
working together can get that proper balance.
    Ms. Jackson Lee. I thank you. Is Dr. Ward allowed to 
answer, Mr. Chairman? Is Dr. Ward----
    Dr. Ward. I have very little to add. I would just say that 
perhaps the challenge is sometimes the culture of INS, in the 
days before it went to Homeland Security, was often confused 
between what I call enforcement and service. When you deal with 
immigrants, when you are dealing with people who are legitimate 
guests of the United States, the culture of the bureaucracy is 
toward service. When we are dealing with security, we are 
dealing with enforcement. I think one of the challenges is 
sometimes one has to sort those two out. And if enforcement, as 
may have necessarily happened in the last few months, takes 
over the whole culture, the culture is one that is not going to 
be very sensitive to individual rights. And I think mistakes 
are going to be made because of the overwhelming power of that 
enforcement mentality. But obviously, that is not the right 
mentality if a person is a legitimate immigrant, somebody who 
has legitimate reasons to be a guest here.
    I would also say that communication is an issue, those 
institutions that are my members that when the FBI, for 
example, was interested in foreign student records, in some 
universities, the FBI, the local police chief of the campus and 
the university president actually talked about what--how it was 
going to be done. In some cases, the university could provide 
perfectly readily available public information to the FBI 
without them having to seem to sort of reach in and grab it. In 
other places, there was no communication, and without any 
consultation with the college president, somebody who perhaps 
was innocent, somebody who was perhaps guilty, was sort of 
withdrawn in a rather crude way from the campus creating, of 
course, a bad PR situation.
    So the other thing is that we are not good at 
communication, that when there is an enforcement issue and 
there is a kind of academic tradition, and you throw these two 
together, you have got to have very effective communication. As 
far as I can see, it is just not there any longer.
    Ms. Jackson Lee. I thank the Chairman very much. I would 
ask Ms. Jacobs if she could give me a letter in writing on the 
delays that are presently in place, being the delays on dealing 
with, particularly, individuals in science and research areas 
coming into this country. I need to understand that better, and 
I thank the Chairman for his indulgence. And I just say that 
immigration really does not equate to terrorism, and we must 
find a balance. Thank you.
    Dr. Bartlett. Thank you. And the Chair now recognizes the 
gentleman, Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And just for the 
record, let me just say that I agree with a couple of speakers 
that getting to graduate school is an issue of meritocracy in 
that our issues around K-12 education is falling short. And in 
order to be able to have--and the encouragement beyond the 12th 
grade to go into higher education in the sciences is an issue 
for me.
    The question I have to Ms. Jacobs is this. We talked about 
backlogs of visas. And the backlogs of visas has been a pre-
existing situation prior to 9/11. And so I guess my question is 
the process that we set up right now for review of visas, one 
for new applicants and others for renewals who are--for those 
who are here, are those different? And are those--can the 
renewals be expedited for those who are here asking for 
renewals, especially in the area of the sciences and the labs?
    The other question is relative to the 9/11 where those who 
were involved with the flying the planes into the World Trade 
Center, they came in on student visas. I mean, everybody says 
that. My question is----
    Dr. Ward. If I might just correct the record, I believe one 
came in on a student visa from outside of the country. Two were 
issued after they already arrived in the country, after they 
were dead.
    Mr. Honda. Okay.
    Dr. Ward. And the rest came on visitor visas.
    Mr. Honda. Okay. So my question, relative to the visas, is 
that are visas specific to certain kinds of schools and--so 
that there is a distinction between applying for a student visa 
to go to a flight school versus a higher education academic 
institution? If there is a distinction, then it seems to me 
that our overemphasis on what--you know, how these folks got 
their visas to flight school could be tempered a little bit. So 
those are my questions, and I would like to do some follow-up, 
if I may.
    Ms. Jacobs. Okay. On the issue of whether visas are issues 
for specific schools, prior to 9/11, there was no program in 
place to distinguish between different types of schools. After 
9/11, in fact, there is now more review of people going to 
flight schools. But that did not exist before 9/11.
    Mr. Honda. Okay. Mr. Chair, if I may interrupt for purposes 
of clarification. If that is the case, there was no distinction 
by schools. They--on the visa, then, they have to state what 
schools they want to apply to so that--because I think that the 
school is required to report back to the--to INS as to whether 
the students did arrive or not, is that correct?
    Ms. Jacobs. Right. Exactly. There is--well, with this new 
tracking system, SEVIS, that we have been talking about, there 
is a mechanism in place for doing that.
    Mr. Honda. Okay.
    Ms. Jacobs. Let me just add really quickly that most of the 
people applying for student visas and for exchange visitor 
visas, provided there is no problem with the case, those cases 
are processed rapidly and the visas are often issued within a 
day or two. In fact, I think that is true for the vast majority 
of these applicants. Only about 2.5 percent, a little bit less 
than 2.5 percent of all of the visas that we issue are subject 
to these new security requirements or to the security 
requirements that were in place before 9/11. And so we are not 
talking about large numbers here. So when we talk about these 
delays, I just want to make that very clear that really in the 
big picture, in the big scheme of things, we are not talking 
about large numbers.
    Mr. Honda. So applicants for student visas outside of the 
country will get an answer within a day or two?
    Ms. Jacobs. In most instances, provided there is no----
    Mr. Honda. In 98 percent of the cases.
    Ms. Jacobs. I can't give you an exact percentage. I could 
get back to you with that, but I would say in the vast 
majority----
    Mr. Honda. Okay.
    Ms. Jacobs [continuing]. That is true. Now you had asked 
about revalidating visas I--for people who are here. The vast 
majority of student visa applications are adjudicated at posts 
at the time the application is made. Only a very small 
percentage of student visa applications are referred by posts 
to Washington for additional security review. We do not have 
precise figures as to what percentage of various categories of 
visa applications are subject to security screening, but it is 
safe to assume that the percentage is close to the overall 
figure of 1.6 percent that applies to all categories of visas. 
We are currently receiving responses within three weeks for 
over 70 percent of cases subject to interagency security 
screening.
    Mr. Honda. For renewals.
    Ms. Jacobs. We do renew visas for certain categories of 
visas for people who are here in the U.S., primarily people who 
are here in a business-related capacity. For students and 
exchange visitors, we don't do that, so they are--if they need 
a new visa, they are required to return--go outside of the 
United States to get the visa.
    Mr. Honda. Even if they are here?
    Ms. Jacobs. If they are here, that is correct.
    Mr. Honda. Okay. So they have to go back to their country 
of origin?
    Ms. Jacobs. If their visa has expired, yes. Now the visa 
does not exactly equal the authorized state. That is sometimes 
another confusion in that the visa simply allows the person to 
travel to the United States. Once they get here, it is the 
former INS, the border inspection people, that determine how 
long that person can stay in the United States.
    Mr. Honda. And for renewals?
    Ms. Jacobs. For visa renewals, again, that would be done 
overseas. Some of these people who come here may try to extend 
their status or adjust their status, and that would be done 
with the former immigration service here in the United States.
    Mr. Honda. So if I were working for a national lab, would I 
be on a visa or would I be on a green card?
    Ms. Jacobs. You--it would depend on how you came in. If you 
entered as a non-immigrant--you would have a visa in any case. 
You need a visa to come into the United States. It could be a 
non-immigrant visa; it could be an immigrant visa.
    Mr. Honda. So if I were asking for a renewal and I have 
been here for a few years, I have to go back to my country of 
origin to renew my visa?
    Ms. Jacobs. Yes.
    Mr. Honda. Do you see that as a problem?
    Ms. Jacobs. I am not sure if it is a problem. It may be a 
problem for some people, but that is basically the way the 
system works now where we have two different agencies involved 
in taking care of people: one that helps them get here and one 
that takes care of them once they arrive.
    Mr. Honda. What assurances do you give applicants for 
renewal that, you know--are there assurances you can give, I 
mean, folks who are applying for renewals who are working, say, 
at national labs that they will be able to come back if they 
were in the countries that we supposedly have targeted as, you 
know, high risk countries?
    Ms. Jacobs. We can never give any type of guarantee or 
assurances in advance that someone will get a visa. On the 
clearance side, we can try to work to make a clearance valid 
for a longer period of time so that that person doesn't have to 
go through that clearance process again. But the person would 
have to qualify for the visa in any case, you know, under the 
various grounds of the Immigration and Nationality Act.
    Mr. Honda. Do you see this as a problem as far as retaining 
and giving reassurance to those who are here already working 
with this?
    Ms. Jacobs. Well, I am not sure if it is a problem. It is 
the way the law is written right now.
    Mr. Honda. I understand how the--that you are saying that 
the law is--how the law is written right now. I mean, there are 
some laws that are--that we can--there is no way we counsel 
folks or anything else like that. Let me ask a different 
question. In your backlog, do you have an idea of how much of a 
backlog you have on each category of renewals and new requests?
    Ms. Jacobs. I think that most of the so-called backlogs, 
the delays, are with cases that happened a few months ago. For 
the most part now, people who are subject to clearances, 
provided that there is no problem with the case, we are able to 
get those processed within 30 days, some of them much more 
rapidly.
    Mr. Honda. Maybe I don't understand what is happening with 
INS, but it has been my experience in my own district that we 
have folks who had applied for visas that have been there, you 
know, for a couple years or maybe more, and there is a backlog 
there. Are you making a distinction of that kind of backlog 
versus other backlogs?
    Ms. Jacobs. Yes, sir. The----
    Mr. Honda. Oh, okay.
    Ms. Jacobs [continuing]. People who are dealing with 
immigration are trying to adjust status, and there may be 
backlogs with those requests.
    Mr. Honda. Do you--have you guys gotten into not touching 
paper and, according to--using technology to be able to process 
some of these things?
    Ms. Jacobs. Absolutely. We----
    Mr. Honda. Where are you on that?
    Ms. Jacobs. Well, I think that we have made a number of 
advances over the years. I think that the State Department has 
been in the forefront, actually, of using technology in visa 
processing. We have developed Machine Readable Visas. We now 
have a consolidated database that contains all of the records 
of the visas that we have issued and visas that have been 
denied. That is refreshed every five minutes. Every visa that 
is issued around the world, every five minutes, that 
information comes back into this database. We are actually 
sharing that database now with the former INS, so I think it is 
fair to say that we have made a number of advances, and we 
continue to look for technological solutions to a lot of the 
problems that we are talking about today.
    Mr. Honda. Okay. I thank the Chair for his indulgence. If I 
may ask one more question, do you have any benchmarks and goals 
set up for your--for INS in terms of cleaning up all of the 
backlogs in all of the categories, and if not, would you be 
able to set one up?
    Ms. Jacobs. Okay. Well, for the State Department's part, we 
are--we have set certain time limits within our own, you know, 
organization within the State Department that handles--that 
coordinates these visa clearances that if we don't have a 
response within a certain number of days, we go back to the 
other agencies to see what the status is. As far as Department 
of Homeland Security and any backlogs that they might have with 
adjustment of status and other cases, I am--I would imagine 
they are taking steps to address that. I am--I just can't 
really answer for them.
    Mr. Honda. I thank you very much.
    Dr. Bartlett. Thank you. I want to thank the witnesses very 
much for your testimony. Just so the record can be clear, 
again, roughly what percent of the students in our universities 
in science, math, and engineering are foreign students?
    Dr. Ward. I think maybe approximately half.
    Dr. Bartlett. Okay. And what percent of those foreign 
students elect to stay in this country and work in this country 
after their education is completed?
    Dr. Ward. About 30 percent.
    Dr. Bartlett. About 30 percent choose to stay here? I would 
just like to note a problem that our national labs have, and 
that is that it is very difficult to get clearance for foreign 
students. And there are really not enough graduates, citizens 
in this country, to fill the vital needs in our national labs, 
which is another fact that adds urgency to the challenge of 
capturing the imagination of our citizens and the--encouraging 
more of our young people to go into these careers.
    I want to thank you very much for your testimony. The 
Committee is now adjourned.
    [Whereupon, at 12:50 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Janice L. Jacobs, Deputy Assistant Secretary, Visa 
        Services

Questions submitted by Chairman Sherwood Boehlert

Q1. LWhen do you expect the visa backlog to be cleared up and what will 
be the average wait for a visa when things return to normal? What needs 
to change to get the situation rectified?

A1. The vast majority of delays that affect visa cases are the result 
of cases that are referred to Washington by consular officers for a 
security advisory opinion. The Department's role in the interagency 
clearance process to provide a security advisory opinion is essentially 
one of being a clearing-house. We coordinate the clearances as the visa 
applications are reviewed by other federal agencies. In most instances, 
we receive replies from other agencies within 30 days. If an agency 
files an objection, there may be an additional delay as that agency 
locates and makes available the appropriate background information. We 
do not foresee any shortening of that average turnaround of 30 days in 
the near future given the resource base of our federal principal 
partners in this endeavor.

Q2. LDr. Ward and Dr. Tilghman offered a number of recommendations on 
how to improve the visa processing system. Please comment on the merits 
and the feasibility of the following proposals:

Q2a.
        <bullet> LRequire State Department Consular Offices to collect 
        the SEVIS fee as part of the visa collection fee.

A2a. During the formation of SEVIS, the State Department met at the 
Assistant Secretary level with former INS Commissioner Ziglar to 
explore this possibility, but we mutually decided not to implement such 
a collection scheme for a number of reasons.
    First, such an approach likely would lead foreign governments to 
regard any SEVIS fee as a visa fee and to impose reciprocal visa fees 
on American students applying for visas to study overseas. In addition, 
the $100 Machine Readable Visa (MRV) fee that is collected from all 
non-immigrant visa applicants is, in almost all cases, collected by 
local financial institutions on behalf of our embassies and consulates. 
These arrangements were put in place because the personnel and resource 
constraints under which our missions. in the field operate while 
issuing millions of non-immigrant visas annually compel us to 
``outsource'' as many visa support functions as possible, including the 
collection of fees.
    Our MRV collection arrangements have been carefully negotiated in 
consultation with the U.S. Treasury. They involve the foreign financial 
institutions receiving payments for their services from the fees 
collected and remitting the balance of the fees to the U.S. Treasury 
for credit to a Department of State appropriation, rather than 
miscellaneous receipts, consistent with the Department's statutory 
authority to retain the MRV fee to recover the costs of providing 
consular services. It simply is not feasible for us to revisit these 
arrangements; doing so would be a complex and difficult effort because 
any SEVIS fee would have to be handled very differently than the MRV 
fee.

Q2b.
        <bullet> LRequire the State Department to use the SEVIS 
        system--not their own system--to ensure real time access to 
        data.

A2b. We have available in our Consolidated Consular Database (CCD) over 
400,000 SEVIS records that have been ``pushed'' from the DHS SEVIS 
database over the existing data share link between the two agencies. We 
developed this process so that the SEVIS data will be available to 
consular sections to support and integrate with the visa adjudication 
system and not duplicate available automation.
    Consular officers can access records in CCD for the purpose of 
electronic.verification, and CCD will record SEVIS information as part 
of the electronic visa record. Having SEVIS information reported to the 
existing State-DHS data share, system is critical as well to meeting 
the statutory requirement to report the issuance of all ``F'' (academic 
students), ``M'' (vocational students), and ``J'' (exchange program 
visitors) visas to DHS.
    We plan to make SEVIS directly available to consular sections in 
the near future. However, we do not view this direct access as a 
substitute for the requirement that SEVIS data be integrated into our 
visa adjudication data stream for adjudication, record keeping and 
reporting purposes. Rather direct access to SEVIS will serve as an 
information resource that will grow more valuable over time as SEVIS 
entries mature into long-term. student and exchange visitor case files.

Q2c.
        <bullet> LCreate a visa revalidation process for foreign 
        students and--scholars already in the U.S., thereby ensuring 
        their ability--to return to the U.S. in a timely manner after a 
        short visit abroad.

A2c. Our regulations do not permit revalidation of student visas in the 
U.S. These visas must be applied for at our overseas posts. The State 
Department has no capacity within the United States to conduct visa 
interviews for alien students and scholars in the United States who 
wish to leave the U.S. and who require issuance of a new visa to 
return. We will, however, explore the possibility with interested 
Washington agencies of having visa clearances be valid for longer 
periods of time to allow students and scholars to travel in and out of 
the country during that time period.

Q2d.
        <bullet> LAs colleges and universities are in a unique position 
        to understand both the needs of students and scholars and the 
        vulnerabilities of the current system, encourage the State 
        Department to work with colleges and universities to develop a 
        more effective and efficient visa screening process.

A2d. The Department's Bureau of Consular Affairs and Educational and 
Cultural Affairs both enjoy positive, fruitful working relationships 
with the educational community as well as with exchange visitor program 
sponsors. We are engaged in a very active exchange on the many issues 
that affect the issuance of visas to students and scholars. However, we 
continue to view federal intelligence and law enforcement agencies as 
the primary experts on the effectiveness of meeting national security 
objectives through the visa screening process. They have access to 
classified information from sensitive sources and methods that the 
academic community cannot duplicate even with the best of intentions.

Q3. LMany and perhaps most of the scholars caught in our visa limbo are 
from China, Russia and India, which, not coincidentally, are the source 
of most of our foreign students. These countries present some risks but 
they're not at the epicenter of terrorism. Can we do something to help 
ease the path of these students and especially of well-known scholars 
from these countries?

A3. The focus of the interagency review process is broader than 
counter-terrorism. Risk assessment takes into account other issues such 
as hostile intelligence activity and unauthorized access to sensitive 
technology, and affects all nationalities. When submitting a case for 
Washington interagency review, a consular officer identifies a specific 
reason or concern. Cases are not submitted simply because a visa 
applicant from one of the countries noted above intends to pursue a 
scientific program.
    As the risk assessment of U.S. federal agencies changes, we so 
advise consular officers. Our goal is that the identification by 
consular officers of visa applications for interagency review is done 
on a targeted basis and is keyed to genuine intelligence and law 
enforcement concerns.

Q4. LAll of our questions come down to fundamental issues of attitude. 
Does the State Department view students and scholars primarily as 
potential terrorists who may have to be let in for other reasons or as 
important resources that need to be filtered to ensure that terrorists 
don't slip in?

A4. As stated in the testimony, while seeking to ensure the security of 
our nation, we do recognize the valuable contributions that students 
and scholars provide this country. When adjudicating visas, consular 
officers are governed by the language of the relevant statutory grounds 
of ineligibility in the Immigration and Nationality Act, against which 
consular officers consider every visa application. Grounds of 
ineligibility are far broader than terrorism and other national 
security issues. All determinations made by consular officers are done 
strictly within the terms of relevant laws and regulations, and riot 
based on any preconceived notions with respect to nationality or 
proposed activity in the United States. When adjudicating visas, 
consular officers also follow security-related clearance procedures 
established by interested Washington agencies. We continue to work 
through the interagency process to make these clearance procedures as 
rational, transparent, and predictable as possible.

Q5. LShouldn't the U.S. have a.better system of collecting statistics 
on visa processing so that we could have a clear picture of when 
backlogs are starting to develop? Is the State Department or any other 
agency taking any action in that direction?

A5. We are improving our ability to collect and analyze statistics. We 
are developing the capability to track the case load of pending 
security advisory opinion (SAO) requests at any given post, through the 
Consular Consolidated Database (CCD). We are also developing CCD 
reports to track visa workload at posts where processing has slowed due 
to factors such as a sharp increase in applications or limited 
workspace.
    The Visa Office, using these reports, will be able to review cases 
pending more than a certain number of days, to determine whether the 
interagency clearance process is falling behind. Most clearance delays 
on cases that were submitted to Washington by consular officers for 
interagency screening, however, are the result of holds placed on 
specific cases by other government agencies, over which the Visa Office 
has no control. The Visa office will use the reports to monitor the 
process and bring to the attention of other agencies evidence of 
backlogs within their holdings.
    The Visa Office will work closely with CA's Executive office to 
ensure that appropriate resources are brought to bear to speed 
processing for cases delayed by an increase in visa workload at a 
particular post or other unanticipated factors due to changing 
political and economic conditions.

Questions submitted by Representative Ralph M. Hall

Q1. LWould it make sense for consular officers to have available, at 
the time they consider the visa requests of foreign graduate students, 
information from the university that has accepted them for attendance 
regarding the educational programs they will be entering? The 
university would be able to provide a better judgment about the 
relationship of the research area student will be involved in to the 
Technology Alert List than would the consular officer, who is not 
technically trained and has only a brief interview with the student. Is 
there a mechanism that would allow universities to provide consular 
officers with information about prospective students and their areas of 
study.

A1. It is already standard practice for student visa applicants to 
present evidence of their planned course of study, in support of their 
applications. The objective of the interagency review process that 
affects some student cases is to have the benefit of the unique 
expertise of federal intelligence and law enforcement agencies. Much of 
the information available to such agencies is highly classified and 
would not be known to administrators or educators at U.S. academic 
institutions.

Q2. LYou indicate in your testimony that you are meeting with the 
Department of Homeland Security and OSTP to work out the details for 
establishing the Interagency Panel on Advanced Science and Security--
IPASS--which is intended to increase the involvement of federal 
scientific experts to work with intelligence and law enforcement 
representatives to advise the State Department on science related visa 
applications. What is the schedule for IPASS implementation? What 
effect will IPASS have on the lead time for security screening for visa 
applications?

A2. A schedule for IPASS implementation has not yet been established. 
All participants in interagency discussions of IPASS have emphasized 
that any procedures established should not increase the lead time 
required for security screening of visa applications.

Q3. LThe GAO in its October 2002 report, ``Border Security,'' (GAO-03-
132NI) found that most of the consular officers they interviewed 
believed that more comprehensive guidance and training would help them 
to use the visa process as an anti-terrorism tool to detect 
questionable applicants. The GAO report recommended that the State 
Department develop more comprehensive, risk-based guidelines and 
standards on how consular officers should use the visa process as a 
screen against potential terrorists, and also recommended revamping and 
expanding consular training. What is the State Department's response to 
these recommendations?

A3. The Department has taken the cited GAO report very seriously and is 
moving quickly to improve and expand guidance to our officers in the 
field, as well as training. The Bureau of Consular Affairs issued a 
visa processing ``roadmap'' (State 039275, 11 February 2003) to provide 
comprehensive guidance to our posts on balancing national security 
concerns with the desire to facilitate legitimate travel, provide 
timely customer service, and manage visa workload. We have followed up 
with Standard Operating Procedure cables (nine sent to date) to ensure 
that our posts are working consistently and understand what is expected 
of them. Consular supervisors have been reminded of their 
responsibility to provide guidance to line officers on issuance and 
refusal criteria.
    Consular training has expanded the Basic Consular Course with new 
sessions on counter terrorism, as well as expanded training on visa 
fraud and malfeasance, on ethics, and on interviewing skills. One 
hundred and twenty eight experienced consular officers have received 
specialized, highly technical training in advanced consular name-
checking techniques in order to make the best possible use of our 
enormous CLASS database. Plans are also underway to provide training to 
Ambassadors, DCMs, and Principal Officers to better supervise consular 
officers and to enhance the skills of consular managers. In addition, 
the basic consular course will be expanded in October 2003 from 26 to 
31 days, in part to make room for a new two-day module on analytic 
interviewing techniques.

Questions submitted by Representative Mark Udall

Q1. LYou indicate, in your testimony that the State Department is 
engaged in significant outreach to federal partners to work out 
problems in the visa review process to improve the predictability for 
the scientific and academic communities about visa processing. Please 
provide some details about the kinds of actions you are contemplating 
that will, in your words, ``rationalize the clearance process in light 
of today's national security threats and reestablish rational, 
transparent clearance procedures that focus on those applicants who 
present the highest risk.''

A1. The Department has had regular and frequent contact with the 
Homeland Security Council, the White House Office of Science and 
Technology Policy, DHS, intelligence agencies, and law enforcement 
agencies.
    With regard to counter-terrorism interagency reviews, State is 
engaged in an active dialogue with appropriate federal partners to 
revise the threat assessment now available to consular officers. The 
criteria are classified and will remain so. We cannot therefore provide 
specific examples of how it is being rationalized.
    With regard to issues related to sensitive technology, the 
Department participates regularly and frequently in interagency 
meetings convened by the White House Office of Science and Technology 
Policy. The proposed Interagency Panel on Advanced Science Studies 
(IPASS) grew out of these meetings. When fully implemented, IPASS will 
review visa applications of individuals seeking to pursue uniquely 
available advanced scientific studies in the United States and advise 
the Department whether the proposed course of study will evade or 
violate any laws prohibiting the export from the United States--of 
goods, technology, or sensitive information. The WH-OSTP and the 
Consular Affairs bureau of the Department continue to convene meetings 
to work out details of the IPASS process. Members of the scientific and 
academic communities participate actively in these meetings, to the 
extent allowed by their level, if any, of security clearance. The 
public will see some of the changes attributed to interagency 
consultations as the technology alert list, an unclassified document, 
is revised and disseminated.

Q2. LThe automated, web-based Student Exchange and Visitor Information 
System (sic) (SEVIS) is now in place, and information on students and 
exchange visitors must have been entered in the system when they 
applied for a visa. Is it true that consular officers do not have 
online access to SEVIS? If not, will this be done in the near term, and 
what are the implications for delays in visa approvals until online 
access is available?

A2. At this time, consular officers do not have direct access to SEVIS. 
Rather, SEVIS data is made available to consular officers through 
integration with our Consolidated Consular DataBase (CCD) so that the 
data becomes a component of our visa information for adjudication, 
record keeping, and reporting purposes. At this time, over 400,000 
SEVIS records appear in the CCD. The flow of SEVIS records into the CCD 
continues to experience technical glitches due to lack of conformity 
with the interface control agreement between DHS and State. These data 
glitches affect disproportionately, though not solely, dependent 
records. State and DHS data technicians cooperate in an ongoing effort 
to identify potentially troubled SEVIS files and correct them before an 
individual visa applicant is disadvantaged. In other cases, DHS has 
located, corrected if necessary, and forwarded SEVIS files to State 
only after an individual visa application has alerted us to the 
existence of a particular record.
    We plan to make SEVIS directly available to consular sections in 
the near future. However, we do not view this direct access as a 
substitute for the requirement that SEVIS data be integrated with our 
CCD system. Rather, direct access to SEVIS will serve as an information 
resource that will grow more valuable over time as SEVIS entries mature 
into long-term student and exchange visitor case files.
                   Answers to Post-Hearing Questions
Responses by David Ward, President, American Council on Education

Questions submitted by Chairman Sherwood Boehlert

Q1. LWhat are the greatest obstacles to the full implementation of a 
real-time student tracking system?

A1. The greatest obstacle to the full implementation of the SEVIS 
system remains the technological glitches within the system. Without 
properly vetting and dealing with these technological flaws, the influx 
of records that will be created between now and August 1st will most 
likely stress the system and cause further delays. Additionally, the 
batch processing feature, which schools need to submit large amounts of 
data, works intermittently at best. This significantly limits the 
ability of schools to input records a timely fashion.
    It is also of concern that contrary to promises, SEVIS does not 
provide real-time access to data. SEVIS was designed to link schools, 
the State Department and the INS in real time. However, some embassies 
and consulates find that it takes a week or longer for them to access 
data entered into SEVIS. Without timely consular access to the SEVIS 
data, a student may not apply for a visa. These delays cause confusion 
and frustration for embassies, students and schools.
    Finally, the INS has not provided adequate training to campus 
officials or even to its own staff. Regional INS officials have not 
been adequately trained and therefore often provide different answers 
to the same questions. The SEVIS Help desk can answer only technical 
questions about the system but is unable to answer regulatory 
questions.

Q1a. LWhat are the most useful steps that the government can take to 
improve SEVIS?

A1a. We feel that the Federal Government and Congress could implement 
several measures right know which would greatly improve efforts to 
implement a real-time SEVIS system:

        <bullet> LICE (formerly the INS) should provide adequate 
        training to the field office and port of entry staff to ensure 
        that they are providing consistent information to visa holders 
        and institutions. Additionally, the SEVIS help desk should be 
        able to provide regulatory guidance to institutions.

        <bullet> LSEVIS should be thoroughly tested for technological 
        flaws as quickly as possible before institutions begin entering 
        foreign student record for the Fall of 2003.

        <bullet> LThe State Department consulate offices should collect 
        the SEVIS fee as a part of the visa collection fee. This 
        maintains SEVIS as an electronic system and streamlines the 
        process for the consular offices and for the foreign student.

        <bullet> LCampuses--specifically Designated School Officials 
        (DSOs)--should be given broader access to SEVIS in order to 
        correct clerical errors in the initial form.

        <bullet> LThe State Department should use the SEVIS system to 
        ensure real time access of data. Currently, the State 
        Department runs the SEVIS data through their own system instead 
        of using the secured Internet-based interface. In some 
        instances, this has caused data loss.

Q2. LWhat are the greatest obstacles to a predictable visa 
adjudication?

A2. In the last 18 months, visa delays for students and scholars have 
become more extensive and unpredictable for several reasons. First, the 
State Department has increased the number of subjects on the Technology 
Alert List significantly. It now encompasses virtually every area of 
contemporary science and engineering. Blanket areas like ``civil 
engineering'' have now been added to the list. Second, last summer the 
State Department imposed stricter review procedures for visa 
applications flagged for review in the Visa Mantis process. Under the 
stricter procedures, a visa application that a consular officer refers 
to Visa Mantis must be reviewed by appropriate government agencies and 
must receive a security advisory opinion before a visa decision can be 
made. There is no time limit on how long a review can take. This causes 
uncertainty for those students and scholars applying for their visas 
who are trying to plan their travel arrangements around a program start 
date.

Q2a. LWhat are the most useful steps the government could take to 
improve the visa processing system?

A2a. In our opinion, a process by which existing student and scholar 
visa holders can revalidate their visas before leaving the U.S. for 
academic, health, or other personal reasons would significantly reduce 
the impact of visa processing delays because students and scholars 
would be able to continue their studies, teaching, and research 
uninterrupted while their visas are being processed.

Questions submitted by Representative Ralph M. Hall

Q1. LThere have been reports of problems with the implementation of the 
automated, web-based computer system for tracking international 
students and exchange visitors, the Student Exchange and Visitor 
Information System (SEVIS). How would you characterize the efforts 
being made to sort out the problems and deficiencies of the system?

Q1a. LWhat actions that should be taken that are not being taken?

Q1b. LTo what extent is there collaboration and communication between 
the users of SEVIS and the office within the Department of Homeland 
Security responsible for implementing SEVIS?

A1a,b. ICE and the SEVIS staff have begun a weekly conference call with 
members of the higher education community to address outstanding issues 
with SEVIS. Additionally, there is a regular conference call addressing 
technical issues for the software vendors. Other than the four regional 
workshops that were sponsored by ACE, we are not aware of efforts by 
the Department of Homeland Security to educate or begin a dialogue with 
the campus DSOs. The SEVIS help desk sends upgrade and technical 
correction e-mails to users. This is primarily a reactionary 
communication in response to problems with the system.
                   Answers to Post-Hearing Questions
Responses by Shirley M. Tilghman, President, Princeton University

Questions submitted by Chairman Sherwood Boehlert

Q1. LWhat are the greatest obstacles to the full implementation of a 
real-time student tracking system? What are the most useful steps the 
government could take to improve SEVIS?

A1. There are numerous technical limitations and glitches associated 
with the SEVIS student tracking system, namely the difficulties 
associated with batch data transfer, the periodic slowness of the 
system, and security breeches related to retrieval of data. But the 
greatest obstacles to full implementation of the SEVIS system include 
the inexperience of the new Department of Homeland Security (DHS); the 
relative lack of communication between DHS, the State Department and 
institutions of higher education; and the lack of adequate numbers of 
SEVIS support staff who are trained in both the technical details of 
SEVIS as well as immigration policy and practice.
    The most useful steps the government could take to improve SEVIS 
would be to:

        1. LIdentify the individual at DHS who will be responsible for 
        managing the SEVIS system and require that individual to meet 
        with higher education representatives to discuss the current 
        limitations of the SEVIS system and to develop a strategy and 
        timeline to upgrade and fix the system;

        2. LFully staff the SEVIS help centers with individuals trained 
        not only to answer technical questions related to SEVIS but 
        also to answer questions about immigration policy and practice;

        3. LEnsure that data entered into the SEVIS system is uploaded 
        in real-time so that the system provides accurate data to all 
        who access the system including consular officials;

        4. LImprove the batch processing capabilities of SEVIS and 
        provide institutions with the software required to facilitate 
        batch transfer of data, thereby eliminating the need to 
        purchase and upgrade costly proprietary software;

        5. LProvide additional support staff and extend help desk hours 
        during peak college and university enrollment periods;

        6. LEliminate all paper and ensure that SEVIS is a completely 
        paper-free system;

        7. LDevelop and implement an appropriate fee collection 
        procedure and ensure that the fee collection system is 
        paperless;

        8. LMake sure that contractors hired to certify institutions 
        and provide technical support are properly trained and closely 
        monitored by DHS.

Q2. LWhat are the greatest obstacles to a predictable visa adjudication 
process? What are the most useful steps the government could take to 
improve the visa processing system?

A2. The greatest obstacles to a predictable visa adjudication process 
are the lack of public information regarding the security review 
process, the lack of detail within the Technology Alert List regarding 
potential technology transfer threats, and the lack of predictability 
related to the length of time required for visa adjudication. Most 
troublesome to institutions of higher education is the lack of 
predictability regarding re-entry visa adjudication for those students 
and scholars who are already in the U.S., but who wish to attend a 
professional meeting or family event abroad and then return to the U.S. 
We are also concerned about the conflict between immigration policies 
that require students to leave the U.S. after they complete their 
education and the country's interest in retaining highly skilled 
international students in the U.S. workforce following the completion 
of their academic training.
    The most useful steps the government could take to improve the visa 
processing system include:

        1. LEncourage on-going dialogue between DHS officials and 
        higher education representatives to discuss concerns regarding 
        current and proposed immigrant and non-immigrant student and 
        exchange visa programs, policies and procedures;

        2. LEstablish a deadline for the Department of Homeland 
        Security to sign the Memorandum of Understanding with the 
        Department of State regarding immigration services procedures 
        and policies;

        3. LEstablish a deadline by which the Department of Homeland 
        Security must develop and publish its policies and procedures 
        regarding immigrant and non-immigrant visa services;

        4. LExtend the period of time for which a non-immigrant visa 
        applicant's security clearance is valid and implement a pre-
        certification program so that non-immigrant students and 
        scholars already in the U.S. on a valid non-immigrant visa can 
        travel abroad and re-enter the U.S. without undergoing 
        additional security reviews or related delays;

        5. LEngage the scientific community in refining the Technology 
        Alert List so that the list includes specific techniques or 
        areas of potentially harmful technology transfer rather than 
        entire fields of study or fundamental research techniques;

        6. LSeek help from academic institutions, professional 
        societies and scientific communities in developing and 
        implementing appropriate training materials to instruct 
        consular officials on how to use the Technology Alert List in 
        adjudicating visa applications;

        7. LAllow any student with a valid non-immigrant student visa 
        to participate in any undergraduate course on campus and 
        eliminate the need for institutions of higher education to 
        police course enrollments;

        8. LProvide information via the SEVIS tracking system as to the 
        current status of an individual's visa application so that the 
        institution can track the process of the application for any 
        given student or scholar;

        9. LWork to reduce the visa backlog and develop procedures and 
        time limitations to ensure that visa applications will be 
        processed and within a predictable period of time.

Questions submitted by Representative Ralph M. Hall

Q1. LThere have been reports of problems with the implementation of the 
automated, web-based computer system for tracking foreign students and 
exchange visitors, the Student Exchange and Visitor Information System 
(SEVIS). How would you characterize the efforts being made to sort out 
the problems and deficiencies of the system? What actions should be 
taken that are not being taken?

A1. There have been considerable efforts to correct the problems and 
deficiencies of the SEVIS system and multiple system patches have been 
developed and delivered to upgrade SEVIS; however, each time a patch is 
developed to correct the SEVIS system, institutions using batch data 
delivery software must wait for the commercial software provider to 
develop a corresponding patch which must then be installed. We are 
certain that eventually, and perhaps sooner rather than later, we will 
be required to purchase costly software upgrades or new software to 
continue delivering batch data to the SEVIS system. The Federal 
Government's inability to beta-test the SEVIS system prior to its 
implementation has meant that institutions of higher education have had 
to invest significant financial and personnel resources in a system 
that was launched prematurely and therefore has numerous technical 
problems in addition to being laborious and unpredictable. Even with 
the current patches in place, the SEVIS system remains deficient in 
accepting data via batch transfer, the speed with which the SEVIS 
system accepts and processes data is extremely unpredictable, and the 
process for correcting data entry errors is quite cumbersome.
    According to representatives of the State Department, there has 
been a great deal of communication between the Office of Consular 
Affairs and the Department of Homeland Security in an effort to correct 
the technical limitations of the SEVIS system. Notably, there has been 
progress made in correcting the technical problems that prevented some 
records from the SEVIS system from being uploaded to the Consolidated 
Consular Database utilized in the consular offices.
    There have been several incidents reported by SEVIS users who 
erroneously received data from another institution, or whose data was 
erroneously sent to another institution, when attempting to access 
student records. While these security breeches have been reported by 
various institutions via the news media, there has not been official 
notification on the part of the Department of Homeland Security when 
such an error or security breech has occurred. Similarly, there has 
been no explanation offered by DHS as to how these data errors occurred 
or how the system will be corrected to prevent additional security 
breeches. Erroneous distribution of confidential student records is of 
great concern to institutions of higher education and we are interested 
in knowing more about how DHS will correct this problem and notify the 
appropriate institutions in the event of a future security breech.
    We are also experiencing a great deal of difficulty obtaining 
assistance when we have questions regarding SEVIS or immigration 
policy. While SEVIS does operate a help-line, it is understaffed and 
the wait time for help can be lengthy. When one does finally reach a 
help-line representative, those individuals are trained only in the 
technical details of the SEVIS system and not in the policy and 
regulatory guidelines of the non-immigrant student and exchange visitor 
visa program. So while most of our questions have both policy and 
technical elements, the SEVIS help-line can only address technical 
questions. We have not been successful in identifying individuals at 
DHS who can answer our policy questions and the State Department has 
removed information on VISAS Mantis and VISAS Condor from its web site 
pending DHS review of the programs. We hope that as DHS moves forward 
it will provide much greater access to information and support services 
than is currently available to institutions of higher education.
    We are extremely concerned that the SEVIS system will fail as 
colleges and universities attempt to enter over a million new students 
and scholars into the SEVIS system prior to the 2003-2004 academic 
year. We hope that DHS is working now to test the limits of the SEVIS 
system and develop a back-up plan in the event that the system fails 
during peak academic enrollment seasons.

Q2. LTo what extent is there collaboration and communication between 
the users of SEVIS and the office within the Department of Homeland 
Security responsible for implementing SEVIS?

A2. While there had been no communication between the Department of 
Homeland Security and SEVIS users prior to the March hearing, we are 
quite encouraged by the very positive communication the higher 
education community has had with both the State Department and the 
Department of Homeland Security subsequent to the hearing. Since the 
hearing, representatives of the higher education community, including a 
small group of university presidents, have had the opportunity to meet 
with DHS Secretary Ridge, DHS Undersecretaries McQueary and Hutchinson, 
and Deputy Assistant Secretary of State Janice Jacobs. We are certain 
that each of these key government officials has a very clear 
understanding of our concerns and that each of the relevant departments 
is working toward solutions that will promote our mission of advancing 
research and education while also preserving our collective interests 
in national security. We look forward to continuing the dialogue with 
these individuals and feel that all signs point toward a very 
productive working relationship henceforth.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        IN AMERICA'S INTEREST: WELCOMING INTERNATIONAL STUDENTS

   REPORT OF THE STRATEGIC TASK FORCE ON INTERNATIONAL STUDENT ACCESS

EXECUTIVE SUMMARY

    At a time when efforts to counter the global threat of terrorism 
have highlighted the importance of building ties and friendships around 
the world, the United States needs a comprehensive strategy to enhance 
the ability of legitimate international students to pursue educational 
opportunities here. Such is the conclusion of a task force established 
by NAFSA: Association of International Educators to examine the issue 
of international student access to higher education in the United 
States.
    In its report, ``In America's Interest: Welcoming International 
Students,'' the Strategic Task Force on International Student Access 
identifies the major barriers to the ability of prospective 
international students to access U.S. higher education, and sets forth 
a strategic plan to address each of them.

The Continuing Importance of International Students

    The task force report affirms that openness to international 
students serves long-standing and important U.S. foreign policy, 
educational, and economic interests. The terrorist attacks of September 
11, 2001, presented new challenges for screening visa applicants more 
carefully to keep out those who wish us harm. At the same time, the 
terrorist threat also highlights the importance of building friends and 
allies across the world to better counter such global threats. The task 
force report therefore restates the case for encouraging and enabling 
legitimate international students to study in the United States. The 
task force believes strongly that international education is part of 
the solution to terrorism, not part of the problem.

Barriers to International Student Access

    The U.S. position as the leading destination for international 
students has been eroding for years in the absence of a comprehensive 
national strategy for promoting international student access to U.S. 
higher education. In this strategic vacuum, four barriers, which impede 
access, remain unaddressed. The principal barriers are (1) the failure 
of the relevant U.S. government agencies to make international student 
recruitment a priority and to coordinate their recruitment efforts, and 
(2) burdensome U.S. government visa and student-tracking regulations. 
Lesser barriers are (3) the cost of U.S. higher education, and (4) the 
complexity of the U.S. higher education system.

A Strategic Approach to Promoting International Student Access

    The task force recommends that the U.S. government, in consultation 
with the higher education community and other concerned constituencies, 
develop a strategic plan for promoting U.S. higher education to 
international students, based on a national policy that articulates why 
international student access is important to the national interest. In 
the context of such a strategic plan, the task force makes the 
following recommendations for addressing each of the four barriers to 
international student access cited above.

A Comprehensive Recruitment Strategy

    A recruitment strategy must be developed that specifies the roles 
of the three federal agencies that share responsibility for 
international student recruitment--the Departments of State, Commerce, 
and Education--and provides for coordination of their efforts. Such a 
strategy must rationalize and create an effective mandate for the State 
Department's overseas educational advising centers, resolve issues of 
responsibility and coordination in the Commerce Department, and provide 
a clear mandate for the Department of Education.

Removing Excessive Governmentally Imposed Barriers

    Three broad actions are required to remove governmentally imposed 
barriers that unnecessarily impede international student access to U.S. 
higher education. First, immigration laws affecting international 
students must be updated to reflect twenty-first century realities, 
particularly by replacing the unworkable ``intending immigrant'' test 
set forth in section 214(b) of the Immigration and Nationality Act with 
a standard that focuses on whether or not the applicant is a legitimate 
student. Second, a visa-screening system is needed which permits 
necessary scrutiny of visa applicants leading to decisions within 
reasonable and predictable periods of time. Third, the Administration 
must strive to implement the Congressionally-mandated student 
monitoring system in a way that maintains the attractiveness of the 
United States as a destination for international students without 
sacrificing national security.

Addressing Issues of Cost

    Issues of cost must be addressed through innovative and expanded 
loan, tuition exchange, and scholarship programs for international 
students. Scholarship assistance, through the Agency for International 
Development, should be directed at countries or regions--such as 
Africa--where the United States has a strong foreign policy interest in 
providing higher education opportunities but where the cost of a U.S. 
higher education is an insurmountable barrier. A financial aid 
information clearinghouse should be developed to help international 
students understand the options available to them.

Addressing Complexity With a Marketing Plan

    A marketing plan should be developed that sends a clear, consistent 
message about U.S. higher education and that transforms the complexity 
of the U.S. higher education system from a liability to an asset. A 
user-friendly, comprehensive, sophisticated, Web-based information 
resource is needed, through which international students will be able 
to understand the multiple higher education options available to them 
in the United States.

Conclusion

    Rather than retreating from our support for international student 
exchange--and forgoing its contribution to our national strength and 
well being--we must redouble our efforts to provide foreign student 
access to U.S. higher education while maintaining security. The task 
force calls on the U.S. government, academe, the business community, 
and all who care about our nation's future to step up to the task of 
ensuring that we continue to renew the priceless resource of 
international educational exchange.

    Note: The report can be found online at www.nafsa.org/
inamericasinterest

    NAFSA: Association of International Educators, 1307 New York 
Avenue, N.W., Eighth Floor, Washington, DC 20005-4701; Tel: 202-737-
3699; Fax: 202-737-3657; http://www.nafsa.org
                    Biography for Marlene M. Johnson
    Marlene Johnson is Executive Director and CEO of NAFSA: Association 
of International Educators. As head of the world's largest professional 
association dedicated to international education, Johnson has 
spearheaded a national effort to promote the establishment of an 
international education policy for the United States. Under her 
leadership, the international education community has captured the 
attention of leaders at the highest levels, resulting in a presidential 
memorandum and congressional resolutions calling for a national policy.
    Johnson's leadership experience is diverse and spans three decades 
of work in business, government, and nonprofit management. As 
Minnesota's Lieutenant Governor from 1983 to 1991, she was an outspoken 
advocate of international educational exchanges at all levels of 
learning and supported visitor and professional exchanges to build ties 
between the state and the rest of the world. She was instrumental in 
the establishment of an entrepreneurship program for Czech women at The 
College of St. Catherine in Minnesota.
    In 1993, Johnson accepted an appointment by the Clinton 
Administration to serve as Associate Administrator at the General 
Services Administration. In the course of her career, Johnson also 
founded and operated a marketing and communications company and served 
as vice president for people and strategy at a large furniture 
producer.
    A dynamic and successful grassroots organizer, she has held 
leadership positions at the World Press Institute, the National 
Association of Women Business Owners, and the National Council of Women 
Executives in State Government. She currently serves on the board of 
AFS Intercultural Programs, the Girls Scouts Council of the Nation's 
Capital and the Communications Consortium Media Center. Johnson is a 
member of the executive committee of the Alliance for International 
Educational and Cultural Exchange and serves on the American Council on 
Education's Commission on International Education and the advisory 
council for the University of Minnesota's Center for Human Ecology.
    NAFSA: Association of International Educators seeks to increase 
awareness of and support for international education and exchange in 
higher education, government, and the community, believing that 
citizens with international experience and global awareness are crucial 
to U.S. leadership, competitiveness, and security. Of the important 
role of international education--a field that spans study abroad, 
scholarly and citizen exchanges, and international students studying in 
the United States--Johnson has said: ``International education must be 
part of the national strategy that guides our engagement and leadership 
in the world. It is one of our most effective tools for fostering 
cooperation and understanding among nations.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
